<html>
<title> - LEGISLATIVE HEARING ON H.R. 1904, ``SOUTHEAST ARIZONA LAND EXCHANGE AND CONSERVATION ACT OF 2011''; H.R. 869, ``TO CLARIFY THE DEFINITION OF FLOOD CONTROL OPERATIONS FOR THE PURPOSES OF THE OPERATION AND MAINTENANCE OF PROJECT NO. 2179 ON THE LOWER MERCED RIVER''; H.R. 1258, ``BOX ELDER UTAH LAND CONVEYANCE ACT''; H.R. 1545, ``WACO MAMMOTH NATIONAL MONUMENT ESTABLISHMENT ACT OF 2011''; H.R. 473, ``HELP TO ACCESS LAND FOR THE EDUCATION OF SCOUTS OR HALE SCOUTS ACT''; AND H.R. 1740, ``TO AMEND THE WILD AND SCENIC RIVERS ACT TO DESIGNATE A SEGMENT OF ILLABOT CREEK IN SKAGIT COUNTY, WASHINGTON, AS A COMPONENT OF THE NATIONAL WILD AND SCENIC RIVERS SYSTEM.''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                    H.R. 473, H.R. 869, H.R. 1258,
                   H.R. 1545, H.R. 1740 & H.R. 1904

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, June 14, 2011

                               __________

                           Serial No. 112-40

                               __________

       Printed for the use of the Committee on Natural Resources












<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
 66-953 PDF              WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, June 14, 2011...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement of....................................     2
    Boren, Hon. Dan, a Representative in Congress from the State 
      of Oklahoma................................................     5
    Denham, Hon. Jeff, a Representative in Congress from the 
      State of California........................................    88
        Prepared statement on H.R. 869...........................   107
    Flores, Hon. Bill, a Representative in Congress from the 
      State of Texas.............................................    15
        Prepared statement on H.R. 1545..........................    17
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................    27
        Prepared statement on H.R. 1904..........................    29
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     4
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     9
        Prepared statement of....................................    10

Statement of Witnesses:
    Bellefond, Lisa, Director, Federal Government Relations, The 
      Nature Conservancy, Washington State Program...............    12
        Prepared statement on H.R. 1740..........................    13
    Burke, Marcilynn, Deputy Director, Bureau of Land Management, 
      U.S. Department of the Interior, Oral statement on H.R. 
      1545.......................................................    18
        Prepared statement on H.R. 1545..........................    19
        Oral statement on H.R. 869...............................    89
        Prepared statement on H.R. 869...........................    90
        Oral statement on H.R. 1904..............................    34
        Prepared statement on H.R. 1904..........................    35
    Cherry, Jon, Vice President, Resolution Copper Company.......    43
        Prepared statement on H.R. 1904..........................    45
    Featherstone, Roger, Director, Arizona Mining Reform 
      Coalition..................................................    57
        Prepared statement on H.R. 1904..........................    58
    Groth, Larry D., City Manager, City of Waco, Texas...........    20
        Prepared statement on H.R. 1545..........................    21
    Haines, Bill, Scout Executive/Chief Operating Officer, Indian 
      Nations Council, Boy Scouts of America.....................     7
        Prepared statement on H.R. 473...........................     8
    Hing, Hon. Michael O., Mayor, Town of Superior, Arizona......    36
        Prepared statement on H.R. 1904..........................    38
    Kelly, Bryan, Director of Regulatory Compliance and 
      Government Affairs--Water, Merced Irrigation District......    91
        Prepared statement on H.R. 869...........................    93
    Lewis, Shan, President, Inter Tribal Council of Arizona, and 
      Vice Chairman, Fort Mojave Indian Tribe....................    48
        Prepared statement on H.R. 1904..........................    50
    Martyn, Bryan, Vice Chairman, Pinal County Board of 
      Supervisors................................................    39
        Prepared statement on H.R. 1904..........................    41
    Stork, Ronald, Senior Policy Advocate, Friends of the River..    95
        Prepared statement on H.R. 869...........................    96
    Talgo, Harrison, Former Chairman, San Carlos Apache Tribe....    67
        Prepared statement on H.R. 1904..........................    69


    Wagner, Mary, Associate Chief, U.S. Forest Service, U.S. 
      Department of Agriculture, Oral statement on H.R. 473......     6
        Prepared statement on H.R. 473...........................     6
        Oral statement on H.R. 1258..............................    26
        Prepared statement on H.R. 1258..........................    26
        Oral statement on H.R. 1740..............................    11
        Prepared statement on H.R. 1740..........................    12
        Oral statement on H.R. 1904..............................    31
        Prepared statement on H.R. 1904..........................    32

Additional materials supplied:
    Larsen, Hon. Rick, a Representative in Congress from the 
      State of Washington, Statement submitted for the record on 
      H.R. 1740..................................................   108
    List of documents retained in the Committee's official files.    16





                                  (IV)
                                     


 
LEGISLATIVE HEARING ON H.R. 1904, ``SOUTHEAST ARIZONA LAND EXCHANGE AND 
 CONSERVATION ACT OF 2011''; H.R. 869, ``TO CLARIFY THE DEFINITION OF 
    FLOOD CONTROL OPERATIONS FOR THE PURPOSES OF THE OPERATION AND 
MAINTENANCE OF PROJECT NO. 2179 ON THE LOWER MERCED RIVER''; H.R. 1258, 
   ``BOX ELDER UTAH LAND CONVEYANCE ACT''; H.R. 1545, ``WACO MAMMOTH 
  NATIONAL MONUMENT ESTABLISHMENT ACT OF 2011''; H.R. 473, ``HELP TO 
ACCESS LAND FOR THE EDUCATION OF SCOUTS OR HALE SCOUTS ACT''; AND H.R. 
1740, ``TO AMEND THE WILD AND SCENIC RIVERS ACT TO DESIGNATE A SEGMENT 
 OF ILLABOT CREEK IN SKAGIT COUNTY, WASHINGTON, AS A COMPONENT OF THE 
               NATIONAL WILD AND SCENIC RIVERS SYSTEM.''

                              ----------                              


                         Tuesday, June 14, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:03 a.m. in 
Room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Duncan, McClintock, 
Labrador, Grijalva, Holt, Garamendi, and Markey (ex officio).
    Also Present: Representatives Gosar, Denham, Schweikert, 
Flores, and Boren.
    Mr. Bishop. All right. This hearing will come to order. The 
Chairman notes the presence of a quorum. The Subcommittee on 
National Parks, Forests, and Public Lands is meeting today to 
hear testimony on a number of bills that fall within our 
jurisdiction.
    Although today's hearing will cover a couple of 
controversial bills, it will also cover some non-controversial 
bills that we hope to take up, and because many of the 
witnesses have asked to testify today, I will remind everyone 
that the time limit for all speeches is five minutes, and you 
can see in front of you where that ends up.
    Under the rules, opening statements are limited to the 
Chairman and Ranking Member. However, I ask unanimous consent 
to include any other Members' opening statements in the hearing 
record if submitted to the Clerk by the close of business 
today. Hearing no objections, it is so ordered.
    I would also ask unanimous consent that Representative 
Flores and Representative Boren, who are not Members of this 
Subcommittee, be allowed to stay on the dais and participate 
with us, as well as any other Member who wishes to come and 
address a specific bill that he or she is proposing today. I 
ask unanimous consent, and without objection, that will be so 
ordered.

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop. Let me make my opening statement very quickly, 
and then I will recognize the gentleman from Arizona, Mr. 
Grijalva. You know, in each session of Congress, many bills, 
and sometimes hundreds, are referred to this Subcommittee.
    All are well intentioned, but not all help our country 
address the real and high priority needs of our citizens for 
both sound conservation, and at the same time appropriate 
access to vital resources found in our vast public land system.
    Today, we are going to take up six bills--from a purely 
conservationist Wild and Scenic River designation, to a 
carefully thought out development of a copper mining operation 
that will provide high-paying jobs for thousands of workers, 
and give them the opportunity to provide for the material needs 
of their families.
    And just as importantly help those families to have self-
respect and dignity in good jobs that they will be provided, 
and because we have a lot to cover, I am going to limit my 
remarks to that, and hopefully we can get started quickly.
    I now defer to the Ranking Member, the Gentleman from 
Arizona, Mr. Grijalva, for an opening statement.
    [The prepared statement of Mr. Bishop follows:]

  Statement of The Honorable Rob Bishop, a Representative in Congress 
                         from the State of Utah

    In each session of Congress many bills--sometimes hundreds of 
bills--are referred to this Subcommittee.
    All are well-intentioned but not all help our country address the 
real and high priority need of our citizens for both sound conservation 
and, at the same time, appropriate access to the vital resources found 
on our vast system of public lands.
    Today, we take up 6 bills that range from a purely preservationist 
Wild and Scenic River designation to a carefully thought out bill that 
authorizes development of a copper mining operation that will provide 
high-paying jobs for thousands of workers, giving them the opportunity 
to provide for the material needs of their families--and just as 
importantly--help these families to have the self-respect and dignity 
good jobs provide.
                                 ______
                                 

 STATEMENT OF HON. RAUL GRIJALVA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. I appreciate it. As 
you noted, three of the measures before the Subcommittee 
today--your legislation, Mr. Chairman, and Mr. Boren's HALE 
Scouts Act bill and Mr. Larsen's Wild and Scenic River bill--
are non-controversial measures that have already passed the 
House.
    In fact, I would like it to be noted that your bill, Mr. 
Chairman, has passed the House twice while I had the privilege 
of being the Chairman of this Subcommittee, and I hope that you 
are as successful as we were in that time in getting this bill 
through the House.
    We look forward to any updates on these measures from the 
witnesses today. The Waco Mammoth bill also passed the House in 
the last Congress, with 85 of my Republican colleagues voting 
to support the measure.
    Unfortunately, the version introduced in this Congress is 
drastically different from that popular bipartisan measure. 
Along with other harmful changes, the bill prohibits all 
Federal funding for this proposed new national park unit.
    This attempt to provide the Waco Mammoth National Monument 
with national status and NPS expertise, the expertise that it 
deserves, while denying the unit any Federal funding, is 
contradictory and unworkable.
    The Administration will lay out the fatal flaws in this 
approach, and it is my hope that the Subcommittee will revert 
to the version of the bill which received overwhelming 
bipartisan support in the last Congress.
    The Lower Merced River bill is problematic as well, 
amending an existing Wild and Scenic River designation to allow 
the river to be inundated would be a significant step to be 
taken only under very serious circumstances.
    It is not clear that the changes proposed by the Merced 
Irrigation District are actually necessary for flood control, 
and thus this unprecedented proposal to amend the Wild and 
Scenic designation must be considered very, very carefully.
    I oppose the land exchange mandated by H.R. 1904, the 
Resolution Copper legislation, on behalf of local environmental 
communities, local native peoples, and the American taxpayers, 
I worked hard as Chairman of this Subcommittee to craft 
legislation that could move forward, that was transparent and 
of value to the taxpayers, and conscious of all the 
constituencies affected by this decision.
    I intend to continue to do that in my present role on the 
Committee. The known impacts of H.R. 1904 are bad enough. The 
vast lucrative mining operation authorized by this legislation 
will harm an area richly blessed with cultural, recreational, 
and scenic resources, and will do so for the benefit of a 
wealthy, multinational, mining conglomerate.
    But the unknown impacts of this giant mine raise even more 
serious concerns. Among the unanswered questions are: Could the 
proposed mining operations under Apache Leap even collapse? 
What are the potential health impacts for those living and 
working in Southeastern Arizona? What are the potential impacts 
on the quantity and quality of water in an already drought-
plagued area? How much profit does Rio Tinto and BHP stand to 
make over the life of the mine? How reliable are the companies' 
employment and economic impact projections?
    The list of the unknown goes on and on, and the reason that 
we have no answers to these critical questions is because H.R. 
1904 short-circuits fundamental good government policies, such 
as full compliance with NEPA and robust government-to-
government consultation with Native people, and that should 
take place and must take place before the decision to allow 
this project to move forward is made.
    In the end, the real question is, if the resolution 
counterproposal is truly in the best interests of the American 
public, why does the legislation include so many instances 
where the public's right to know is short-circuited or 
eliminated?
    We look forward to the insights of our witnesses on this 
subject to explain this and to explain other serious problems 
with this legislation. With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Grijalva follows:]

       Statement of The Honorable Raul Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Thank you, Mr. Chairman.
    Three of the measures before the Subcommittee today--your 
legislation, Mr. Boren's HALE Scouts bill, and Mr. Larsen's Wild and 
Scenic River bill--are non-controversial measures that have already 
passed the House. In fact, I would like it noted that your bill, Mr. 
Chairman, passed the House twice while I was the Chairman of this 
Subcommittee. We look forward to any updates on these measures from our 
witnesses today.
    The Waco Mammoth bill also passed the House last Congress, with 85 
Republicans voting to support the measure. Unfortunately, the version 
introduced this Congress is drastically different from that popular, 
bipartisan measure. Along with other harmful changes, the bill 
prohibits all federal funding for this proposed new National Park unit.
    This attempt to provide the Waco Mammoth National Monument with the 
national status and NPS expertise it deserves, while denying the unit 
any federal funding, is contradictory and unworkable. The 
Administration will lay out the fatal flaws in this approach and it is 
my hope the Subcommittee will revert to the version of this bill which 
received such overwhelming support from both Democrats and Republicans 
last Congress.
    The Lower Merced bill is problematic as well. Amending an existing 
Wild and Scenic River designation to allow the river to be inundated 
would be a significant step, to be taken only under very serious 
circumstances. It is not clear that the changes proposed by the Merced 
Irrigation District are actually necessary for flood control and thus, 
this unprecedented proposal to amend the Wild and Scenic designation 
must be considered very carefully.
    Finally, I fundamentally oppose the land exchange mandated by H.R. 
1904, the Resolution Copper legislation. On behalf of the local 
environmental community, local Native Peoples and the American 
taxpayers, I worked hard as the Chairman of this Subcommittee to 
prevent this legislation from moving forward and intend to continue 
doing so as the Ranking Member.
    The known impacts of H.R. 1904 are bad enough. The vast, lucrative 
mining operation authorized by this legislation will harm an area 
richly blessed with cultural, recreational and scenic resources and 
will do so for the benefit of a wealthy, multinational mining 
conglomerate.
    But the unknown impacts of this giant mine raise even more serious 
concerns. Among the unanswered questions are:
        <bullet>  Could the proposed mining operations under Apache 
        Leap cause it to subside or even collapse?
        <bullet>  What are the potential health impacts for those 
        living and working in southeastern Arizona?
        <bullet>  What are the potential impacts on the quality and 
        quantity of water in this already drought-plagued area?
        <bullet>  Just how much profit do Rio Tinto and BHP-Billiton 
        stand to make over the life of this mine?
        <bullet>  How reliable are the company's employment and 
        economic impact projections?
    The list of unknowns goes on and on and the reason we have no 
answers to these critical questions is because H.R. 1904 short-circuits 
fundamental, good-government policies--such as full compliance with the 
National Environmental Policy Act and robust, government-to-government 
consultation with Native People--that must take place before the 
decision to allow this project to move forward is made.
    In the end, the real question is, if the Resolution Copper proposal 
is truly in the best interests of the American public, why does the 
legislation include so many instances where the public's right to know 
is short-circuited?
    We will look forward to the insights of our witnesses to explain 
this and other serious problems with this legislation.
                                 ______
                                 
    Mr. Bishop. Otherwise OK?
    Mr. Grijalva. Otherwise it is fine.
    Mr. Bishop. All right. We are grateful for all of you being 
here. The first bill that we will consider is House Bill 473, a 
conveyance of Forest Service lands to the Boy Scouts. Our 
witnesses will be the author, Mr. Boren, who is on the dais, 
Mary Wagner, the Associate Chief of the United States Forest 
Service, and Bill Haines, who is the CEO of the Indian Nations 
Council, Boy Scouts of America. Mr. Boren, we would welcome 
your comments first.

STATEMENT OF HON. DAN BOREN, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF OKLAHOMA

    Mr. Boren. Thank you, Mr. Chairman. I do want to thank 
Chairman Bishop and Ranking Member Grijalva for having this 
hearing, and I would also like to thank Mr. Bill Haines for 
joining us today and making himself available for questions 
about the HALE Scouts bill.
    This is a non-controversial piece of legislation that will 
provide a conveyance of 140 acres of land in Oklahoma's 
Ouachita National Forest to the Indian Nations Council of the 
Boy Scouts of America.
    The Indian Nations Council of the Boy Scouts of America is 
a non-profit organization providing educational programs for 
boys and young adults to build character, to train, to instill 
the responsibilities of citizenship, and to develop personal 
fitness and well-being.
    Camp Tom Hale first opened in June of 1930 to serve Boy 
Scouts in Oklahoma. In 1963, the Boy Scouts Council worked with 
the State of Oklahoma and the United States Forest Service to 
exchange the camp for 440 acres of wilderness areas in the 
Ouachita National Forest.
    This new Camp HALE has continued as a summer adventure 
camp, serving thousands of scouts during the intervening 41 
years. In 1997, the council board developed a strategic plan 
for a $3.5 million expansion and renovation of the camp.
    Since then, the council has spent in excess of $1 million, 
continually updating and expanding facilities to meet the needs 
of Scouts. As a result, a renewed emphasis on wilderness and 
the outdoors has flourished.
    Over 6,000 scouts and leaders from a five-State area attend 
weekly sessions offered in June and July, and enjoy the 
beautiful Ouachita Forest. Attendance has now exceeded the 
maximum number of available camp sites and program areas, which 
is causing Camp HALE to turn away hundreds of scouts each 
summer.
    It is now critical for camp growth that the boundaries be 
extended to include more area for camping and additional 
program and training services. Successful completion of this 
objective will allow the Boy Scouts to continue the expansion 
of outdoor and leadership training for thousands of youth 
living in the Central Southwest, and bring additional usage, 
and enjoyment of the Ouachita National Forest to more families.
    In the last Congress, the HALE Scouts bill passed the House 
without opposition and then was reported out of the Senate 
Committee on Agriculture, Nutrition, and Forestry, by Senator 
Lincoln without amendment. With that, I yield back and again I 
want to thank Mr. Haines and all also Ms. Wagner for being 
here.
    Mr. Bishop. Thank you, Congressman. As with all our 
witnesses, your written testimony is going to appear in the 
full hearing record. So we are going to ask you to keep your 
oral comments to five minutes.
    The timer is in front of you, and you will notice that the 
green light means that you have five minutes left, and when one 
minute remains, it will go yellow, and then at red, we will ask 
you to conclude. Ms. Wagner, if we can start with you first.

STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, U.S. FOREST SERVICE, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Chairman Bishop, Ranking Member Grijalva, and 
Members of the Subcommittee, thanks for the opportunity to be 
here and share the Department's views on H.R. 473. The 
Department does not oppose this bill.
    The bill would provide for the sale of approximately 140 
acres of land in the Ouachita National Forest to the Indian 
Nations Council of the Boy Scouts of America. We appreciate 
that the bill language includes the sale of National Forest 
system land for fair market value, and that the council will 
pay the reasonable administrative costs for appraisals, 
surveys, and other administrative analyses associated with the 
land sale.
    The bill authorizes the retention and use of the proceeds 
from the land sale to purchase land having high priority 
resource and public recreation benefits. We would like to work 
with the Committee staff on technical corrections to the bill, 
and to ensure bill language includes the Indian Nations 
Council's agreement to the conveyance.
    Mr. Chairman, that concludes my testimony, and I am happy 
to answer any questions that you might have.
    [The prepared statement of Ms. Wagner follows:]

 Statement of Mary Wagner, Associate Chief, U.S. Forest Service, U.S. 
  Department of Agriculture, on H.R. 473: Help to Access Land for the 
                          Education of Scouts

    Chairman Bishop, Ranking Member Grijalva and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
in order to provide the Department of Agriculture's view on H.R. 473. 
The Department does not oppose this bill. This bill would provide for 
the sale of approximately 140 acres of land in the Ouachita National 
Forest in Oklahoma to the Indian Nations Council, Inc., of the Boy 
Scouts of America.
    The Department does not oppose this bill. This bill would provide 
for the sale of approximately 140 acres of land in the Ouachita 
National Forest in Oklahoma to the Indian Nations Council, Inc., of the 
Boy Scouts of America.
    The bill stipulates that the sale of National Forest System land 
shall be for market value, as determined in an appraisal done in 
conformity with the Uniform Appraisal Standards for Federal Land 
Acquisitions. H.R. 473 provides that the Council will pay the 
reasonable administrative costs for appraisals, surveys and other 
administrative analyses associated with the land sale. The bill 
authorizes retention and use of the proceeds from the land sale to 
purchase land and interests in land within the Ouachita National 
Forest.
    As background, the Council owns and operates a camp on land they 
own within the Ouachita National Forest, and desires to build 
additional facilities on land east of their current operation. While 
the land proposed for acquisition is not identified for conveyance in 
the Forest Plan, it does adjoin a sizable private in-holding owned by 
the Council. The provision in the bill directing the retention of 
proceeds from the sale to be used for land acquisition will allow the 
Forest Service to purchase replacement lands having high priority 
resource and public recreation benefits.
    While the Department does not oppose H.R. 473, we would like to 
work with Committee staff on technical corrections to the bill. 
Additionally, the Department of Justice recommends that the bill be 
revised to make absolutely clear that the Indian Nations Council, Inc., 
of the Boy Scouts of America would have to agree to the proposed 
conveyance, which is what we understand Congress intends.
    The bill stipulates that the sale of National Forest System land 
shall be for market value, as determined in an appraisal done in 
conformity with the Uniform Appraisal Standards for Federal Land 
Acquisitions. H.R. 473 provides that the Council will pay the 
reasonable administrative costs for appraisals, surveys and other 
administrative analyses associated with the land sale. The bill 
authorizes retention and use of the proceeds from the land sale to 
purchase land and interests in land within the Ouachita National 
Forest.
    As background, the Council owns and operates a camp on land they 
own within the Ouachita National Forest, and desires to build 
additional facilities on land east of their current operation. While 
the land proposed for acquisition is not identified for conveyance in 
the Forest Plan, it does adjoin a sizable private in-holding owned by 
the Council. The provision in the bill directing the retention of 
proceeds from the sale to be used for land acquisition will allow the 
Forest Service to purchase replacement lands having high priority 
resource and public recreation benefits.
    While the Department does not oppose H.R. 473, we would like to 
work with Committee staff on technical corrections to the bill. 
Additionally, the Department of Justice recommends that the bill be 
revised to make absolutely clear that the Indian Nations Council, Inc., 
of the Boy Scouts of America would have to agree to the proposed 
conveyance, which is what we understand Congress intends.
    Mr. Chairman, this concludes my testimony and I am happy to answer 
any questions you might have.
                                 ______
                                 
    Mr. Bishop. Thank you. Mr. Haines.

  STATEMENT OF BILL HAINES, CEO, INDIAN NATIONS COUNCIL, BOY 
                       SCOUTS OF AMERICA

    Mr. Haines. Good morning, Mr. Chairman, and the Members of 
the Subcommittee. I would just like to thank you for the 
opportunity to be here today, and be able to testify on H.R. 
473.
    I am Bill Haines, the Scout Executive and CEO of the Indian 
Nations Council. On the HALE bill, it will allow the Boy Scouts 
and Indian Nations Council to purchase land in the Ouachita 
National Forest.
    The Boy Scouts are not looking for a handout. We are 
willing to pay on the fair market value. Each year, there are 
over 7,000 scouts and scouters who attend our camp. Each year, 
there are scouts and kids who we have to turn away because we 
don't have enough land.
    We have donors who are willing to help us to expand and to 
make this count bigger, but we don't have the land to do that. 
We are landlocked. Each year, there are a lot of boys that are 
just lost on the streets, and in scouting, we teach 
citizenship, to love nature, and how to protect the land.
    And the Boy Scouts have always been great stewards of the 
land. With the passing of this bill, it will help many scouts 
for years to come. That is my testimony. Thank you.
    [The prepared statement of Mr. Haines follows:]

  Statement of Bill Haines, Scout Executive/Chief Operating Officer, 
       Indian Nations Council, Boy Scouts of America, on H.R. 473

    Good morning, Mr. Chairman and Members of the Subcommittee. Thank 
you for the opportunity to appear before you today to discuss H.R. 473, 
the `Help to Access Land for the Education of Scouts' or `HALE Scouts 
Act.'
    The HALE Scouts Act proposes to allow the Indian Nations Council of 
the Boy Scouts of America to purchase acreage from the Ouachita 
National Forest to expand summer camp operations. We have worked 
extensively with the U.S. Forest Service to coordinate the purchase.
    Further, the Indian Nations Council Board worked closely with 
Congressman Boren's and Senator Inhofe's offices as they drafted the 
HALE Scouts Act. We would like to thank Congressman Boren and Senator 
Inhofe, their staff, and the U.S. Forest Service for their support and 
cooperation.
    Boy Scout camps develop the ``whole self'' and encourage good 
citizenship. The Indian Nations Council is not looking for a handout, 
only the ability to purchase additional acreage from a willing seller 
at fair market value to provide great scouting experiences for more 
kids.
    In 1963, the Indian Nations Council acquired 480 acres from 
Ouachita National Forest to establish Camp Tom Hale. Camp Tom Hale 
continues to this day as an adventure camp, providing thousands of 
Scouts and adult leaders each summer from around the country with a 
wide variety of activities, advancement, and learning opportunities.
    This summer over 6,800 Scouts will attend camp during one of its 
nine sessions. During a typical week at Camp Tom Hale, scouts 
participate in leadership and life skills development, nature 
conservation, and value building exercises, consistent with the Boy 
Scout program. Nearly 20,000 merit badges were earned for 2007 and over 
1,300 rank advancements were completed by the scouts in attendance. 
Attendance in 2010 was 113% of the 2009 participation. Year-over-year 
program growth has been consistent. Ninety-three percent (93%) of our 
Council's troops attended a long-term camp session last summer at Camp 
Tom Hale.
    In recent years, the Council has invested over $1 million in the 
camp to accommodate increased demand for camp services. An additional 
week of camping has been added, which now completely fills the summer 
availability. Previously, we have added new camp sites with bathroom 
and shower facilities.
    We are at complete capacity and have a waiting list of troops 
wishing to attend. Other recent improvements include:
    <bullet>  New Dining Facility Seating 500
    <bullet>  Junior Olympic Pool
    <bullet>  Facilities for Nature Training
    <bullet>  Lake Aquatics Training
    <bullet>  Air-conditioned Staff Housing
    <bullet>  Downhill Skiing Area
    <bullet>  Horse Stables
    <bullet>  Leadership Training Center
    <bullet>  28,000 Gallon Water Storage & Delivery System
    <bullet>  New Waste Disposal Lagoon with a 10,000 Scout capacity
    <bullet>  Many Other Program & Facility Enhancements
    Funding of more than $400,000 has been approved by the Indian 
Nations Council Board for purchase of additional land, including the 
immediate construction of infrastructure and facilities to camp 180 
additional scouts per week, once the acquisition is completed. Further 
funding in excess of $1.5 million has been raised for additional 
camping and program facilities.
    Camp Tom Hale is not just for the youth. Since 2002, Camp Tom Hale 
has hosted adult leader training courses, covering a wide variety of 
leadership and outdoor skill development and first aid courses. This 
past year 1,500 various adult leader course completion certificates 
were issued. In addition, First Aid and CPR Certification was offered, 
resulting in 232 leaders completing adult CPR with AED, 126 were 
certified in First Aid, and 261 adults completed Wilderness First Aid.
    Due to the growth of the scouting program in eastern Oklahoma, 
attendance at Camp Tom Hale has outgrown the program capacity, causing 
us to turn away hundreds of scouts each summer. The critical need to 
serve more scouts requires additional space to allow us to maintain the 
quality of camping and experience for our scouts and their adult 
leaders. Boundaries must now be extended to include more area for 
camping and for additional program and training services.
    Passage of the HALE Act will provide the space needed to allow over 
1,500 additional scouts the ability to go to camp.
    Thank you for your time and consideration of this matter. I 
appreciate the continued support and cooperation of Congressman Boren, 
Senator Inhofe and the U.S. Forest Service. I would be pleased to 
answer any questions.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate both of you for the 
testimony that you have given. I have no questions for these 
witnesses. Mr. Grijalva.
    Mr. Grijalva. I have no questions, Mr. Chairman.
    Mr. Bishop. Let's go back and forth. Are there any 
questions? Representative Duncan, or Representative Boren? 
Representative Gosar? Representative Markey, do you have 
questions for this witness?
    Mr. Markey. It might come in the form of--well, sometimes 
my questions come in the form of answers.
    Mr. Bishop. We have all questioned your answers all the 
time, but for the next bill. Representative Flores. All right. 
We appreciate your time with us today. Thank you, Mr. Haines, 
and Ms. Wagner, we would ask you if you would stay at the table 
for the next bill. Thank you. Representative Boren, thank you 
very much. Mr. Markey.

 STATEMENT OF HON. EDWARD MARKEY, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. I thank you, Mr. Chairman, very much. Mr. 
Chairman, 1955 was a good year. The Salk vaccine was approved. 
The Brooklyn Dodgers won their first World Series, and in 
Seattle, Washington, William and Mary Gates welcomed the birth 
of their son, Bill.
    Mr. Bishop. Mr. Markey, if I can stop you right there. The 
1955 Yankees lost, and if you are going to go farther with 
this, I am going to stop you right now.
    Mr. Markey. In Boston, we identify with the Dodgers.
    Mr. Bishop. OK. Fine.
    Mr. Markey. And it all relates to the Yankees, of course, 
in Boston and in Brooklyn, although we had to wait another 40 
years, or no, 50 years, to finally have the curse removed from 
our heads.
    And at the White House, Mr. Chairman, President Dwight 
Eisenhower issued Public Land Order 1229, withdrawing 760 acres 
of Federal land known as Oak Flat in Southeastern Arizona from 
further mining development.
    And here we are 56 years later, and the question being 
asked is, after more than five decades, haven't we conserved 
this area long enough?. Polio has been wiped out in the 
developed world, and Bill Gates is retired, and in the name of 
progress and for the promise of jobs, isn't it time to end our 
capital stewardship of this land, and hand it over to 
development, and just like the Dodgers, move out?
    The answer, Mr. Chairman, is No. The proponents of H.R. 
1904 accurately describe the bill as a land exchange, and urge 
a capital analysis of the bill's procedural provisions. In 
other words, we are encouraged to conduct a surface analysis of 
this mining legislation when, ironically, what we need to do is 
to dig much deeper.
    The public needs to have a clear picture of what is gained, 
and what is being lost in this exchange. Yes, the public stands 
to gain roughly 5,000 acres of land through this exchange, and 
by all accounts, much of that acreage is desirable and worthy 
of preservation.
    Further, we are told, there will be jobs created in this 
mine. Of course, much of the work will be automated and 
controlled offsite, but certainly some limited number of jobs 
will be created.
    It is true that the company would pay an unspecified amount 
for the copper they would mine. That is what we would gain. 
Unfortunately, the true costs of all of that would be lost, and 
that has yet to be counted.
    Those costs would be paid in water. Block and cave mining 
operations, 7,000 feet below sea level, in an already arid and 
drought-prone area, could devastate the quality and quantity of 
drinking water for thousands of people living and working in 
the area.
    Those costs will be paid by the recreation community, who 
will see an area renowned for camping, hiking, and world-class 
rock climbing, carved into a matrix of tunnels and pits. Those 
costs will be paid by native people, who will watch as an area 
sacred to them since well before 1955 is desecrated and 
potentially even destroyed.
    Finally, the American taxpayers will bear the costs of 
handing over billions of dollars in mineral resources to a 
foreign company for international sale without a fair return, 
and what is worse, Mr. Chairman, H.R. 1904 not only fails to 
fairly or even fully capture these costs, the bill specifically 
seeks to circumvent the public process designed to calculate 
these values by waiving meaningful compliance with the National 
Environmental Policy Act, and timely tribal consultation, H.R. 
1904 urges us to move along, and assures us that there is 
nothing to see here.
    Mr. Chairman, the last version of this legislation included 
a requirement that the Secretary make a formal determination 
that the proposed exchange was in the public interest before it 
could go through.
    The fact that the public interest determination has been 
stripped from this bill should tell us everything that we need 
to know about H.R. 1904. I yield back the balance of my time, 
Mr. Chairman. Thank you.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                    Committee on Natural Resources 

    Thank you.
    1955 was a good year, Mr. Chairman. The Salk vaccine was approved, 
the Brooklyn Dodgers won their first World Series and in Seattle 
Washington, William and Mary Gates welcomed the birth of their son, 
Bill.
    And at the White House, President Dwight Eisenhower issued Public 
Land Order 1229, withdrawing 760 acres of federal land known as Oak 
Flat in southeastern Arizona from further mining development.
    And here we are, 56 years later, and the question being asked is, 
after more than 5 decades, haven't we conserved this area long enough? 
Polio has been wiped out in the developed world and Bill Gates is 
retired. In the name of progress, and for the promise of jobs, isn't it 
time to end our careful stewardship of this land, hand it over to 
development, and just like the Dodgers, move out? The answer, Mr. 
Chairman, is no.
    The proponents of H.R. 1904 accurately describe the bill as a land 
exchange and urge a careful analysis of the bill's procedural 
provisions. In other words, we are encouraged to conduct a surface 
analysis of this mining legislation when, ironically, what we need to 
do is dig much deeper.
    The public needs to have a clear picture of what is being gained, 
and what is being lost in this exchange. Yes, the public stands to gain 
roughly 5,000 acres of land through this exchange and, by all accounts, 
much of that acreage is desirable and worthy of preservation.
    Further, we are told there will be jobs created in this mine. Of 
course, much of the work will be automated, and controlled off-site, 
but certainly some limited number of jobs will be created.
    And it's true that the company would pay an unspecified amount for 
the copper they would mine.
    That is what we would gain. Unfortunately, the true costs of all 
that would be lost have yet to be counted.
    Those costs will be paid in water. Block and cave mining operations 
seven thousand feet below sea level, in an already arid and drought-
prone area, could devastate the quality and quantity of drinking water 
for thousands of people living and working in the area.
    Those costs will be paid by the recreation community who will see 
an area renowned for camping, hiking, and world-class rock climbing 
carved into a matrix of tunnels and pits.
    Those costs will be paid by Native People who will watch as an area 
sacred to them since well before 1955 is desecrated and potentially 
even destroyed.
    And finally, the American taxpayers will bear the cost of handing 
over billions of dollars in mineral resources to a foreign company for 
international sale without a fair return.
    What's worse, Mr. Chairman, H.R. 1904 not only fails to fairly--or 
even fully--capture these costs, the bill specifically seeks to 
circumvent the public process designed to calculate these values. By 
waiving meaningful compliance with the National Environmental Policy 
Act and timely Tribal consultation, H.R. 1904 urges us to move along 
and assures us that there is nothing to see here.
    Mr. Chairman, the last version of this legislation included a 
requirement that the Secretary make a formal determination that the 
proposed exchange was in the public interest before it could go 
through. The fact that the public interest determination has been 
stripped from this bill should tell you everything you need to know 
about H.R. 1904.
                                 ______
                                 
    Mr. Bishop. I thank the Ranking Member of the Full 
Committee, and I appreciate him reminding us that the Dodgers 
never won again until they changed their environment. All 
right. Our second bill is H.R. 1740, a Wild and Scenic River 
designation, sponsored by Mr. Larsen of Washington, who is not 
here with us.
    We will also hear again from Mary Wagner, who is the 
Associate Chief of the United States Forest Service, and Ms. 
Lisa Bellefond, if I am pronouncing that correctly, who is the 
Federal Government Relations Director for The Nature 
Conservancy. So, Ms. Wagner.

STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, U.S. FOREST SERVICE, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Members of the Committee, thank you again for 
the opportunity to share the Department's views on H.R. 1740, 
which amends Section 3(a) of the Wild and Scenic River Act to 
designate two segments of Illabot Creek in Skagit County, 
Washington, as a component of the National Wild and Scenic 
River System.
    We strongly support this legislation. Illabot Creek 
provides exceptional spawning and rearing habitat for summer 
and fall chinook, coho, chum, and pink salmon, native 
steelhead, and one of the largest populations of bull trout in 
the Skagit River watershed.
    Illabot Creek also supports the highest density of chum and 
pink salmon in the Skagit River watershed, and provides habitat 
for one of the largest concentrations of wintering bald eagles 
in the Continental United States.
    Mr. Chairman, we recommend that the Subcommittee consider 
designating all of Illabot Creek, from its headwaters to its 
confluence with the Skagit River, as recommended in the Mt. 
Baker-Snoqualmie National Forest Plan.
    Mr. Chairman, this concludes my testimony, and I am happy 
to answer any questions that you might have.
    [The prepared statement of Ms. Wagner follows:]

    Statement of Mary Wagner, Associate Chief, U.S. Forest Service, 
              U.S. Department of Agriculture, on H.R. 1740

    Chairman Bishop, Ranking Member Grijalva and members of the 
Subcommittee, thank you for the opportunity to provide the views of the 
Department of Agriculture on H.R. 1740.
    The Wild and Scenic Rivers Act, Public Law 90-542 (16 U.S.C. 1271--
1287, as amended) protects the free-flowing condition, water quality, 
and outstandingly remarkable natural, cultural, and recreational values 
of some of our most precious rivers. It also provides an opportunity to 
build partnerships among landowners, river users, tribal nations, and 
all levels of government.
    This bill amends Sec. 3(a) of the Act to designate a segment of 
Illabot Creek in Skagit County, Washington, as a component of the 
National Wild and Scenic Rivers System. It adds 14.3 miles in two 
segments: 4.3 miles from the headwaters to the Glacier Peak Wilderness 
boundary classified as wild, and 10 miles from the Glacier Peak 
Wilderness boundary to approximately 1000 feet south of the Rockport-
Cascade road classified as recreational.
    We strongly support the legislation.
    The segment to be designated by H.R. 1740 is a tributary of the 
Skagit River, which was added to the National Wild and Scenic Rivers 
System in 1978. It is located on the Mt. Baker-Snoqualmie National 
Forest, approximately 100 miles northeast of Seattle, Washington and 
flows from the glaciers of the North Cascades into the upper Skagit 
River, the largest tributary to Puget Sound.
    Illabot Creek provides exceptional spawning and rearing habitat for 
summer and fall Chinook, coho, chum and pink salmon; native steelhead; 
and, one of the largest populations of bull trout in the Skagit River 
watershed. Puget Sound Chinook, steelhead and bull trout are listed 
under the Endangered Species Act. Illabot Creek also supports the 
highest density of chum and pink salmon in the Skagit River watershed 
and provides habitat for wintering bald eagles. Eagles using the 
Illabot roost are a part of one of the largest concentration of 
wintering bald eagles in the continental United States.
    Mr. Chairman, we recommend the Subcommittee consider designating 
all of Illabot Creek, from its headwaters to its confluence with the 
Skagit River (16.3 miles) as recommended in the Mt. Baker-Snoqualmie 
National Forest Plan (June 1990). This includes the lower 2 miles, 
classified as a recreational river, of which approximately 1.4 miles is 
in the Skagit Wild and Scenic River Corridor. With the designation of 
Illabot Creek as proposed in H.R. 1740, only 0.6 mile is not included 
in either Illabot Creek Wild and Scenic River or the existing Skagit 
Wild and Scenic River corridor. The lower 2 miles includes some of the 
most important fish spawning habitat and an important foraging and 
roosting area for wintering bald eagles. Much of this area is in the 
Skagit River Bald Eagle Natural Area and dedicated to resource 
protection.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you. Ms. Bellefond.

   STATEMENT OF LISA BELLEFOND, FEDERAL GOVERNMENT RELATIONS 
                DIRECTOR, THE NATURE CONSERVANCY

    Ms. Bellefond. Mr. Chairman and Members of the 
Subcommittee, thank you for the opportunity to testify today in 
support of H.R. 1740. I am Lisa Bellefond, Director of Federal 
Government Relations for the Washington State Program of The 
Nature Conservancy.
    The Conservancy is dedicated to preserving the plants and 
animals in the natural communities that represent the diversity 
of life on Earth by protecting the lands and waters they need 
to survive.
    Our conservation work is grounded in pragmatism, sound 
science, partnerships with private, tribal, and public 
landowners, and tangible results in local places. For more than 
30 years, The Conservancy has been working in collaboration 
with local partners to preserve the mighty Skagit River.
    In 1976, the Conservancy and the Washington Department of 
Fish and Wildlife created the Skagit River Bald Eagle Natural 
Area. In winter, bald eagles now gather by the hundreds to feed 
on returning salmon, inspiring a popular annual festival that 
boosts the local economy.
    The project includes other landowning partners, such as 
Skagit County, Washington State Parks, Washington Department of 
Natural Resources, Seattle City Light, and the Forest Service.
    Together, we have cooperated to preserve more than 9,000 
acres of eagle habitat, including more than 10 miles of river, 
and thousands of acres of forests. About 1300 acres are owned 
and managed by The Nature Conservancy.
    Amending the Wild and Scenic Rivers Act to include Illabot 
Creek, which is a tributary of the Skagit River, complements 
the significant investments that have been made at the local 
level to protect the special area.
    It also complements the trout and salmon fisheries recovery 
efforts underway in the Skagit Basin. This designation would 
protect water flows, and help to ensure that Illabot Creek 
continues to be a source of cold, clean water to Puget Sound, 
and provide exceptional habitat for steelhead and bull trout.
    Illabot is one of the most important areas for bull trout 
in the Skagit Basin, and the Skagit River has the greatest 
abundance of bull trout in Washington. Bull trout are one of 
the keystone species in this basin. They rely on extremely cold 
and extremely clean water, and so their presence is an 
indicator of a healthy aquatic ecosystem.
    In Puget Sound, bull trout are Federally listed as 
threatened, largely because land uses have degraded water 
quality, and warmed the waters once hospitable to the waters 
once hospitable to these fish.
    But in places like Illabot Creek, ample cold clean water 
exists fore a core population of bull trout to exist. It is 
these core populations that will be relied upon to reestablish 
bull trout and to achieve delisting.
    In light of the important fish and wildlife resources in 
the Illabot Creek watershed, and a history of voluntary land 
protection efforts, The Nature Conservancy and our many 
partners, that include the Skagit County Commissioners, Skagit 
Fisheries Enhancement Group, Western Washington Agricultural 
Association, Seattle City Light, Janke Logging and 
Construction, American Rivers, and the Washington Council of 
Trout Unlimited, all support H.R. 1740. Thank you for the 
opportunity to comment on this legislation.
    [The prepared statement of Ms. Bellefond follows:]

Statement of Lisa Bellefond, Director of Federal Government Relations, 
     The Nature Conservancy, Washington State Program, on H.R. 1740

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify today in support of H.R. 1740 to amend the Wild 
and Scenic Rivers Act to designate a segment of Illabot Creek in Skagit 
County, Washington, as a component of the National Wild and Scenic 
Rivers System. I am Lisa Bellefond, Director of Federal Government 
Relations for the Washington Chapter of The Nature Conservancy.
    The Nature Conservancy is dedicated to preserving the plants, 
animals and the natural communities that represent the diversity of 
life on Earth by protecting the lands and waters they need to survive. 
The Conservancy has more than 1 million individual members and we have 
programs in all 50 states and in 30 countries.
    Our conservation work is grounded in pragmatism, sound science, 
partnerships with private, tribal and public landowners, and tangible 
results in local places. For more than 30 years, The Nature Conservancy 
has been working in collaboration with partners to preserve the mighty 
Skagit River. In 1976, the Conservancy and the Washington Department of 
Fish and Wildlife created the Skagit River Bald Eagle Natural Area. In 
winter, bald eagles now gather by the hundreds to feed on returning 
salmon, inspiring a popular annual festival that boosts the local 
economy. The project includes another six landowning partners and has 
preserved more than 9,000 acres of eagle habitat, including more than 
10 miles of river and thousands of acres of forests. About 1,300 acres 
are owned and managed by the Conservancy.
    Amending the Wild and Scenic Rivers Act to include Illabot Creek, a 
tributary of the Skagit River, complements the significant investments 
that have been made at the local level to protect this special area in 
addition to the salmon and trout recovery efforts within the Skagit 
basin. This designation would protect water flows and help to ensure 
that Illabot Creek continues to be a source of cold, clean water to 
Puget Sound and provide habitat for Steelhead and Bull trout.
    Illabot is one of the most important areas for Bull trout in the 
Skagit Basin, and the Skagit River has the greatest abundance of Bull 
trout in Washington. Bull trout are the keystone species in this basin. 
They rely on extremely cold and extremely clean water, so their 
presence is an indicator of a healthy aquatic ecosystem.
    In Puget Sound, Bull trout are federally listed as threatened, 
largely because land uses have degraded water quality and warmed the 
waters once hospitable to Bull trout. But, in places like Illabot 
Creek, ample cold clean water exists for a ``core population'' of Bull 
trout to exist. It is these ``core populations'' that will be relied 
upon to reestablish Bull trout and to achieve delisting. Wild and 
Scenic designation will ensure these fish have undammed, free-flowing 
cold and clean water essential for recovery.
    In addition, the lower reach of Illabot Creek and Illabot Slough 
are especially important habitat for chum and pink salmon, providing 
some of the highest density spawning habitat in the basin for those 
species. Mature and old growth forest habitats along the creek provide 
important bald eagle roosting habitat.
    In light of the important fish and wildlife resources in the 
Illabot Creek watershed and the history of voluntary land protection 
efforts, The Nature Conservancy supports H.R. 1740. This Wild and 
Scenic designation would protect instream flows, complement fish 
recovery efforts in the Skagit basin, and help protect the investments 
that private and public land managers have made in protecting Illabot 
Creek.
    Thank you for the opportunity to comment on this important 
legislation.
                                 ______
                                 
    Mr. Bishop. Thank you, both of you, for your written, as 
well as oral testimony. I have no questions of these witnesses. 
Mr. Grijalva.
    Mr. Grijalva. Yes, one quick question for both if you don't 
mine. The testimony from the Administration suggests expanding 
the proposed designation to cover even more of the creek. Could 
you both react and expand on the pros and cons of that 
recommendation suggestion?
    Ms. Wagner. Mr. Grijalva, the bill establishes the lower 
terminus for the creek at a thousand feet south of the Rock 
Port Cascade Road, excluding the lower two miles of Illabot 
Creek.
    Of this lower two miles, approximately 1.4 miles is already 
in the Skagit Wild and Scenic River Corridor. So that leaves .6 
miles of Illabot Creek outside of a river corridor. So we are 
just suggesting that it might be worth considering from an 
efficiency standpoint, and from a standpoint of considerations 
under Section 7(a) of the Wild and Scenic River Act including 
that section of the river in this designation.
    Mr. Grijalva. Thank you.
    Ms. Bellefond. My comments are from local feedback, and 
working with the Skagit County Commissioners, and with the 
Public Works Department. We receive feedback that it would be 
in the best interests to move the designation toward the 
bridge.
    The bridge is having some reconstruction efforts that are 
to remove pilings out of the river so that way the--out of 
Illabot Creek, which would benefit the fisheries, and the 
project has been very collaborative and voluntary.
    So we took feedback from the County Commissioners for the 
area beyond Illabot Creek. It has a great deal of land that is 
owned by The Nature Conservancy and managed for these fisheries 
value. So we will continue to protect that area.
    But there are a very small number of private land holdings 
there. Some of these landholdings are actually--have easements 
that are to benefit salmon fisheries, but the landowners would 
prefer not to have the designation.
    So that was the understanding when we put together this 
bill, which was to get local feedback from the county 
commissioners, and the local community, and that is what we put 
forward.
    Mr. Grijalva. Thank you. Mr. Chairman, I yield back.
    Mr. Bishop. Mr. Duncan, any questions?
    [Pause.]
    Mr. Bishop. Mr. Markey, any questions?
    [Pause.]
    Mr. Bishop. Mr. Flores, any questions?
    [Pause.]
    Mr. Bishop. If not, we thank both of you for your testimony 
on this particular bill. Our third bill is 1545, a bill to 
establish the Waco Mammoth National Monument, which was 
introduced by Mr. Flores of Texas.
    Testifying for the Department of the Interior will be 
Marcilynn Burke, the Deputy Director of the Bureau of Land 
Management, and we will also hear from Larry Groth, the City 
Manager of Waco. If I could ask both of them to come to the 
table.
    I appreciate having both of you here. The same thing. Your 
written statement will appear in the record. You see how the 
clock works in front of you for your oral statements.
    First of all, we will turn to the sponsor of the bill, Mr. 
Flores, for any statement that he would like to make.

  STATEMENT OF HON. BILL FLORES, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Flores. Thank you, Chairman Bishop and Ranking Member 
Grijalva, and Members of the Subcommittee for holding today's 
hearing. My legislation, H.R. 1545, would recognize and 
establish the Waco Mammoth site as the Waco Mammoth National 
Monument, included as a unit of the National Park Service.
    The Committee has received 29 letters of support from local 
leaders and organizations, and schoolchildren, and I would ask 
unanimous consent that these letters of support for H.R., 1545 
be included in the record.
    Mr. Bishop. Without objection, so ordered.
    The documents listed below were submitted for the record 
and have been retained in the Committee's official files.
    <bullet>  Association of California Water Agencies, Letter to Rep. 
Denham expressing support for H.R. 869
    <bullet>  Chart, Illustrating Unemployment Rates in California, San 
Joaquin, Mendota, Firebaugh, and Huron, 2003-2010 vs CVP Water 
Allocation
    <bullet>  City of Livingston, CA, Resolution in support of H.R. 869
    <bullet>  Congressman Flores, Multiple Letters in Support of H.R. 
1545
    <bullet>  Defenders of Wildlife, Letter to Chairman Bishop and 
Ranking Member Grijalva expressing opposition to H.R. 869
    <bullet>  Friends of the River, Chronology of Merced River W&S 
Bills
    <bullet>  Friends of the River, Statement from hearing on S. 549, 
March 21, 1991
    <bullet>  Hing, Michael, Mayor, Photo showing Superior, AZ
    <bullet>  Horizon Holdings LLC, Letter to Rep. Denham expressing 
support for H.R. 869
    <bullet>  Inter Tribal Council of Arizona, Resolution opposing H.R. 
1904
    <bullet>  Inter Tribal Council of Arizona, Resolution opposing S. 
3157
    <bullet>  Inter Tribal Council of Arizona, Resolution opposing S. 
409
    <bullet>  International Brotherhood of Electrical Workers, Letter 
to Sen. Feinstein expressing support for H.R. 869
    <bullet>  Merced County Board of Supervisors, Resolution in support 
of H.R. 869
    <bullet>  Merced County Farm Bureau, Letter to Rep. Denham 
expressing support for H.R. 869
    <bullet>  Merced Irrigation District, Document showing specifics of 
Spillway Modification Project
    <bullet>  Pattea, Clinton M., President, Fort McDowell Yavapai 
Nation, Statement regarding H.R. 1904
    <bullet>  Paramount Farming Company, Letter to Rep. Denham 
expressing support for H.R. 869
    <bullet>  Rambler, Terry, Chairman, The San Carlos Apache Tribe, 
Testimony Regarding H.R. 1904
    <bullet>  Resolution Copper, Executive Summary of Economic and 
Fiscal Impact Report, Superior, AZ June 2011
    <bullet>  Resolution Copper, Letter to Congressman Gosar promising 
to protect Apache Leap
    <bullet>  Resolution Copper, Map of Copper Triangle
    <bullet>  Resolution Copper, Map of Land and Mineral Ownership
    <bullet>  Resolution Copper, Map Showing Existing Mine Activity
    <bullet>  San Joaquin River Water Authority, Letter to Rep. Denham 
expressing support for H.R. 869
    <bullet>  U.S. Forest Service, Map of H.R. 1258
    <bullet>  U.S. Forest Service, Map of H.R. 473
    <bullet>  Wetlands Water District, Letter to Rep. Denham expressing 
support for H.R. 869
                                 ______
                                 
    Mr. Flores. On a spring day in 1978, Waco residents, Paul 
Bartron and Eddie Bufkin, were out looking for arrowheads and 
fossils along the Bosque River, and just happened across a 
large bone protruding from the earth.
    Realizing the possible significance of this discovery, Mr. 
Barron and Mr. Bufkin immediately took the bone to the Strecker 
Museum at Baylor University for analysis. Little did they know 
at the time that they had just stumbled upon what is today 
believed to be the world's largest concentration of Columbian 
Mammoths to die in a single event.
    Over a period of nearly 30 years, crews of paleontological 
and archaeological experts, scientists, and volunteers, slowly 
excavated this lost world, eventually unearthing more than two 
dozen mammoths, as well as the remains of a camel, a still 
unidentified animal, and the tooth from a saber-tooth cat.
    It is amazing that the initial discovery of one bone led to 
such a massive, world-renowned collection allowing us a farther 
glimpse into our world's prehistoric times.
    The National Park Service conducted a special resource 
study of the Waco Mammoth site, first authorized in 2002, and 
completed in 2008. This study concluded that the site possesses 
nationally significant resources, is a suitable addition to the 
system, and would be a feasible addition to the system.
    On the fourth criteria of a need of direct NPS management, 
the study cites an appropriateness to investigate the potential 
for inclusion of the site in the National Park System, and for 
the National Park Service to take on key roles in a partnership 
arrangement, and I stress partnership.
    Currently the National Park Service has a $10 billion 
backlog. Given our current fiscal situation, H.R. 1545 has been 
drafted to provide the national recognition the site deserves, 
without adding additional burdens to the Federal budget or the 
backlog at NPS.
    In 2006, a non-profit organization of local citizens 
established the Waco Mammoth Foundation to make the site a 
public park. A seamless partnership exists between the City of 
Waco, Baylor University, and local community leaders and 
volunteers, who have all worked so hard for decades to 
safeguard the site.
    The Foundation has demonstrated their commitment to 
showcasing this discovery, and has already raised more than $4 
million for the site. The Waco Mammoth Foundation completed its 
first phase of improvements with a visitor center that 
officially opened to the public at the end of 2009.
    The Waco Mammoth site should be recognized for its 
incredible collection of prehistoric artifacts. H.R. 1545 would 
allow the National Park Service to capitalize on the efforts of 
this unique partnership consisting of private and community 
investment.
    I have personally toured the mammoth site, and I am proud 
to say to my colleagues that it is truly a site of national 
recognition. I believe that it is time to develop a new model 
to leverage the support of committed local citizens and 
supporters in order to protect, maintain, and promote the 
assets of national significance, while at the same time 
avoiding additional strains on precious taxpayer resources.
    Thank you again, Mr. Chairman, for holding today's hearing. 
I would also like to extend my appreciation to the Waco City 
Manager, Larry Groth, for his dedication in seeking this 
recognition and for testifying today.
    I look forward to working with my colleagues on the 
Committee to ensure this national recognition becomes a 
reality, and this new partnership approach with the National 
Park Service will allow the citizens of Waco to share this true 
national treasure in Central Texas with the rest of the world. 
Thank you.
    [The prepared statement of Mr. Flores follows:]

 Statement of The Honorable Bill Flores, a Representative in Congress 
                        from the State of Texas

    Thank you Chairman Bishop, Ranking Member Grijalva, and members of 
the subcommittee for holding today's hearing. My legislation, H.R. 
1545, would recognize and establish the Waco Mammoth site as the Waco 
Mammoth National Monument and include it as a unit of the National Park 
Service.
    On a spring day in 1978, Waco residents Paul Barron and Eddie 
Bufkin were out looking for arrowheads and fossils along the Bosque 
River and just happened to come across a large bone protruding from the 
earth. Realizing the possible significance of this discovery, Mr. 
Barron and Mr. Bufkin immediately took the bone to the Strecker Museum 
at Baylor University for analysis. Little did they know at the time 
that they had just stumbled upon what is today believed to be the 
world's largest concentration of Columbian Mammoths to die in a single 
event.
    Over a period of nearly 30 years, crews of paleontological and 
archaeological experts, scientists and volunteers slowly excavated this 
lost world, eventually unearthing more than two dozen mammoths as well 
as the remains of a camel, a still unidentified animal and a tooth from 
a saber-tooth cat. It is amazing that the initial discovery of one bone 
led to such a massive, world-renowned collection allowing us a further 
glimpse into our world's prehistoric times.
    The National Park Service conducted a Special Resource Study of the 
Waco Mammoth site, first authorized in 2002 and completed in 2008. This 
study concluded that the site possesses nationally significant 
resources, is a suitable addition to the system and would be a feasible 
addition to the system. On the fourth criteria of a need for direct NPS 
management, the study cites an appropriateness ``to investigate the 
potential for inclusion of the site in the National Park System and for 
the National Park Service to take on key roles in a partnership 
arrangement.''
    Currently, the National Park Service has a $10 billion backlog. 
Given our current fiscal situation, H.R. 1545 has been drafted to 
provide the national recognition the site deserves, without adding 
additional burdens to the federal budget or the backlog at NPS. In 
2006, a non-profit organization of local citizens established the Waco 
Mammoth Foundation to make the site a public park. A seamless 
partnership exists between the City of Waco, Baylor University, and 
local community leaders and volunteers who have all worked so hard for 
decades to safeguard the site. The Foundation has demonstrated their 
commitment to showcasing this discovery and has already raised more 
than $4 million for the site. The Waco Mammoth Foundation completed its 
first phase of improvements with a visitor center that officially 
opened to the public at the end of 2009. The Waco Mammoth site should 
be recognized for its incredible collection of prehistoric artifacts. 
H.R. 1545 would allow the National Park Service to capitalize on the 
efforts of this unique partnership consisting of private and community 
investment. I have personally toured the mammoth site, and I am proud 
to say to my colleagues that it is truly a site of national 
recognition.
    Thank you again Mr. Chairman for holding today's hearing. I would 
also like to extend my appreciation to Waco City Manager Larry Groth 
for his dedication to seeking this recognition and for testifying 
today. I look forward to working with my colleagues on the committee to 
ensure this national recognition becomes a reality, and this new 
partnership approach with the National Park Service will allow the 
citizens of Waco to share this true national treasure in Central Texas 
with the world.
                                 ______
                                 
    Mr. Bishop. Thank you, Congressman. Mr. Burke.

 STATEMENT OF MARCILYNN BURKE, DEPUTY DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Burke. Good morning, and thank you for this opportunity 
to testify on behalf of the Department of the Interior on H.R. 
1545, which would establish the Waco Mammoth National Monument. 
With me today is Patrick Gregerson, and he is the National Park 
Service Chief of Planning, and he is available to answer any 
questions that you may have.
    H.R. 1545 would establish the Waco Mammoth National 
Monument in Texas. The Department supports establishing a unit 
of the National Park Service at this site, consistent with the 
study that the National Park Service completed in 2008.
    However, we oppose H.R. 1545 in its current form. The bill 
contains significant changes to the version of this legislation 
introduced in the last Congress. It requires the Secretary to 
administer the national monument as a unit of the National Park 
System, but prohibits the Secretary from expending any Federal 
funds to do so.
    That would create an untenable situation. We would like to 
work with the sponsor and the Committee to address these 
concerns. Thank you again for the opportunity to testify today, 
and Mr. Gregerson will be happy to answer any questions.
    [The prepared statement of Ms. Burke follows:]

   Statement submitted for the record by the National Park Service, 
             U.S. Department of the Interior, on H.R. 1545

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
H.R. 1545, a bill to establish the Waco Mammoth National Monument in 
the State of Texas, and for other purposes.
    The Department supports establishing a unit of the National Park 
System to commemorate and protect the Waco Mammoth site consistent with 
the study the National Park Service (NPS) completed in 2008. However, 
we oppose H.R. 1545 in its current form. The Department testified in 
support of H.R. 1376, a similar bill, before this subcommittee on April 
23, 2009, during the last Congress. During this Congress, we testified 
before the Senate Subcommittee on National Parks, on May 11, 2011, in 
opposition to S. 849, a bill identical to H.R. 1545. As we explain in 
this testimony, H.R. 1545 contains significant changes to the last 
Congress's bill. It requires the Secretary of the Interior (Secretary) 
to administer the national monument as a unit of the National Park 
System--but prohibits the Secretary from expending any federal funds to 
do so. We would like to work with the sponsor and the committee on 
revising the bill so that we could support it.
    H.R. 1545 would establish a new unit of the National Park System, 
the Waco Mammoth National Monument (monument), near the city of Waco, 
Texas. The bill directs the Secretary to administer the monument in 
accordance only with the provisions found in the bill and with any 
cooperative agreements entered into with Baylor University and the City 
of Waco. The bill also authorizes the Secretary to acquire land for the 
monument by donation from the City of Waco. The Secretary is authorized 
to complete a General Management Plan for the monument within three 
years after enactment, but prohibited from expending any federal funds 
to do so. Finally, no federal funds are authorized to be used to pay 
for costs associated with the monument, and designation of the monument 
as a unit of the National Park System shall terminate if the Secretary 
determines that federal funds are required to operate and maintain the 
monument.
    The NPS was directed to complete a Special Resource Study (SRS) of 
the Waco Mammoth site by Public Law 107-341. This study evaluated a 
109-acre site owned by the City of Waco and Baylor University and found 
that the site met all the criteria for designation as a unit of the 
National Park System.
    The Waco Mammoth Site area is located approximately 4.5 miles north 
of the center of Waco, near the confluence of the Brazos and the Bosque 
rivers. Baylor University has been investigating the site since 1978 
after hearing about bones emerging from eroding creek banks that led to 
the uncovering of portions of five mammoths. Since then several 
additional mammoth remains have been uncovered making this the largest 
known concentration of mammoths dying from the same event.
    The discoveries have received international attention and many of 
the remains have been excavated and are in storage or still being 
researched. The SRS determined that the combination of both in situ 
articulated skeletal remains and the excavated specimens from the site 
represents the nation's first and only recorded nursery herd of 
Pleistocene mammoths. The resource possesses exceptional interpretive 
value and superlative opportunities for visitor enjoyment and 
scientific study.
    From the time the site was discovered until the present, the 
University and the City have managed the site responsibly. The SRS 
examined a range of proposed options for the NPS involvement at the 
site. We believe that the NPS joining in partnership with the city of 
Waco, Baylor University, and others would offer the most effective and 
cost-efficient management of this unique resource.
    The provisions in H.R. 1545 contradict each other by requiring the 
Secretary to administer the monument as a unit of the National Park 
System, but then deleting the reference to the laws applicable to such 
units, and prohibiting the expenditure of federal funds to carry out 
the administration of the monument. Expenditure of funds is 
specifically prohibited for carrying out the cooperative agreement for 
management of the monument, acquiring land, developing a visitor 
center, operating or maintaining the monument, constructing exhibits, 
or developing the General Management Plan.
    The National Park Service preserves and protects areas of the 
country that are found to be nationally significant. If the Waco 
Mammoth site were designated a unit of the National Park System to be 
administered by the Secretary, then the laws applicable to such units 
would need to apply and federal funds would be needed to carry out 
those responsibilities, as they are for all other units of the National 
Park System.
    The ambiguity as to the applicable laws and the lack of certainty 
and continuity of non-federal funding could create an untenable 
situation for staffing the park and providing consistent visitor 
services. This uncertainty could lead to the NPS not knowing from month 
to month whether the park would be open. Also, federal land acquisition 
policies generally do not allow the federal government to accept lands 
acquired with a reverter clause attached, as proposed in the bill.
    We would be happy to work with the committee to revise the bill 
into a form that we could support, such as H.R. 1376 from the 111th 
Congress. In that version of the bill, the monument would be 
established based upon the management alternative recommended in the 
SRS, where we estimated that the costs to create the monument would 
include $8.1 million from the identified partners to develop the 
facilities at the monument, with the NPS providing an additional 
$600,000 for enhanced interpretive media. Total operational costs are 
estimated to be $645,000 with the NPS contributing approximately 
$345,000 for the NPS staffing of four full-time equivalent positions 
and associated supplies, materials, and equipment. All funds would be 
subject to NPS priorities and the availability of appropriations.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions that you or other members of the Subcommittee may 
have.
                                 ______
                                 
    Mr. Bishop. Thank you, and if he would like to join you at 
the table just in case that would be fine. Mr. Groth.

            STATEMENT OF LARRY GROTH, CITY MANAGER, 
                      CITY OF WACO, TEXAS

    Mr. Groth. Thank you, Mr. Chairman and Committee Members. 
My name is Larry Groth, and I am the City Manager of the City 
of Waco. I am here today to urge your favorable consideration 
of the establishment of the Waco Mammoth site as a national 
monument.
    As Congressman Flores mentioned, the site does contain over 
24 Columbian Mammoths, ranging from 3 to 55 years old, which 
appear to have died in approximately 68,000 years ago, and does 
make it the largest concentration in North America.
    We all seem to complain about the wheels of government 
moving slowly, not only at the Federal level, and the State 
level, and at my level locally, but I suppose these mammoths 
probably 68,000 years old, probably decided that it is time for 
us to get something done.
    We have been worked on this for a long time, and we 
certainly would like to see some movement. We mentioned the 
Natural Resource Study, and there is no debate at all about the 
significance.
    There is no debate about the national significance of the 
site. There is no debate about the site being suitable as an 
addition to the system, and there is no debate about it being 
feasible as a unit of the National Park System.
    I am pleased to report that we have raised a lot of money 
locally to get the site open to the public. Our biggest concern 
was the degradation of the bones that are in situ at the site, 
and so we built a protective cover. We built a small visitors 
center, and check-in, and we built access so that the public 
can come and view the site, and we can also protect this 
wonderful resource.
    Since construction, we have had over 40,000 visitors with 
very little advertising on our part. They have come out and 
visited the site, and we are pleased with that. We believe that 
favorable consideration of this issue would greatly enhance our 
efforts to protect and interpret this fantastic national 
treasure.
    Bringing the National Park Service in as a partner with the 
City of Waco and Baylor university would greatly strengthen an 
already strong relationship. Most importantly, we are not 
asking for Federal dollars for capital. We have already raised 
that.
    We are not asking for Federal dollars for operation and 
maintenance. We are committed as a city to provide that. What 
we need is the National Park Service to be given the authority 
to work with us to make this happen.
    We do greatly appreciate Congressman Flores' efforts on our 
behalf, and on this site, and we thank you. The main thing is 
please help us to get that wonderful arrowhead.
    [The prepared statement of Mr. Groth follows:]

           Statement of Larry D. Groth, P.E., City Manager, 
                   City of Waco, Texas, on H.R. 1545

    Mr. Chairman and Committee Members, my name is Larry D. Groth and I 
am City Manager for the City of Waco. I am here today to urge your 
favorable consideration for H.R. 1545.
    We are extremely fortunate to have a paleontological site in Waco 
that has national significance. In 1978, two of our local citizens 
discovered some large bones in a ravine in north Waco near the 
confluence of the Brazos and Bosque Rivers. This discovery was the 
first of more than 24 Columbian Mammoths ranging from 3 to 55 years 
old, which appear to have died approximately 68,000 years ago. There 
are also indications of more mammoth remains near the existing 
excavations. This makes the Waco site the largest concentration in 
North America of extinct mammoths. It provides a unique opportunity for 
all of us to understand and interpret the behavior and ecology of an 
extinct species.
    This discovery has already received international attention with 
archeologists, geologists, and paleontologists from the U. S., Sweden, 
and Great Britain visiting the site during the past several years. 
Integrity of the scientific data has been protected since the site has 
been under investigation by a single agency, Baylor University, since 
1978. The City of Waco and Baylor University have partnered to protect 
the remains and secure sufficient property surrounding the site for 
future development of the resource. Over 105 acres surrounding the dig 
site has been secured with access to the Bosque River to enhance 
recreational opportunities.
    In December 2002, a special resource study by the National Park 
Service was authorized for the Waco site. The study found that the Waco 
Mammoth Site met the requirements of being nationally significant, 
being a suitable addition to the system and a feasible addition to the 
system. The need for direct management by the National Park Service was 
not absolute, but a partnership was highly recommended to achieve the 
development and protection goals of the site to its fullest extent.
    In 2006, the City of Waco and Baylor University chartered the Waco 
Mammoth Foundation to initiate a major fund raising campaign to 
construct the first phase of site development which provided for a 
permanent structure to protect the dig site, a small visitor and 
ticketing center, and access to the site.
    I am pleased to report that we have raised over $4 million, mostly 
local donations, and have completed the phase I construction. More than 
40,000 visitors have enjoyed the site since opening.
    Favorable consideration for H.R. 1545 would greatly enhance our 
efforts to protect and interpret this fantastic national treasure. 
Bringing in the National Park Service as a partner with the City of 
Waco and Baylor University would greatly strengthen an already strong 
relationship. It would provide an opportunity to maximize each of our 
strengths in the management and development of this resource.
    Most importantly, we are not asking for federal dollars for capital 
or operations & maintenance since we are providing that locally. We are 
only asking for the national recognition this site deserves. We need 
the National Parks Service to be given the authority to work with us 
and make this happen. Your favorable consideration of H.B. 1545 will 
greatly leverage our local efforts.
    Also, we greatly appreciate Congressman Flores' efforts on our 
behalf and for this unique opportunity for our nation.
                                 ______
                                 
    Mr. Bishop. I thank both of you for your testimony. At 
68,000 years of age, that puts us in approximately the average 
age of a United States Senator, right?
    Mr. Groth. I will not answer that.
    Mr. Bishop. That is why you got the job that you have. I 
wish to yield my time to Representative Flores for questions.
    Mr. Flores. Thank you, Mr. Chairman. Ms. Burke, thank you 
for your testimony today. In listening to your testimony, I 
understand that what I have introduced is a unique approach to 
recognition according to NPS standards, but given the country's 
fiscal situation, and the backlog at the Agency, I believe it 
is time to look at doing things other than in a business-as-
usual mode.
    Considering the significant financial commitments that have 
been raised locally, and the operational commitments that have 
been committed, or made locally, has NPS considered looking at 
partnership alternatives which would allow for this 
recognition, and protection of this site, while at the same 
time avoiding use of scarce taxpayer resources? And either one 
of you can answer that.
    Mr. Gregerson. We have looked at it through the special 
resource study, and one of the alternatives that we came up 
with was to make it an affiliated area. That was not the chosen 
alternative. It was Alternative C that was chosen, to have 
direct management and operations over the site.
    Mr. Flores. And what were the reasons that--what were the 
weaknesses that were perceived to that approach?
    Mr. Gregerson. I can't give you that right now, but I can 
give you that information.
    Mr. Flores. All right. is there any problem looking at an 
approach like this in the future? I mean, again, you have a $10 
billion backlog at your agency. We are not proposing to further 
dilute that or to add to that backlog, or to dilute precious 
taxpayer resources.
    I am just at a loss to understand what the weaknesses are 
of our approach.
    Mr. Gregerson. Well, for us to have a viable unit of the 
National Park System, we believe that Federal dollars would 
have to be expended to protect the site. We can take a look at 
Alternative B and reassess the look at a--well, I am drawing a 
blank.
    Mr. Flores. Well, for instance, what if there were a 
management fee arrangement, or something like that? Is that out 
of the realm of possibility?
    Mr. Gregerson. I have never experienced that, and I would 
have to get back to you on that.
    Mr. Flores. But never does it mean impossible, right?
    Mr. Gregerson. I can't say.
    Mr. Flores. It shouldn't. OK. Mr. Groth, thank you for your 
testimony today. You walked us through briefly phase one. Would 
you like to spend two minutes and 20 seconds to elaborate on 
phase one and what you see going forward with the site?
    Mr. Groth. Certainly. What we did is that we have a 
hundred-acre site, and we actually started with five acres, and 
then we were able to obtain some acreage around that carries us 
down to the Bosque River.
    We have a master plan that would create a really wonderful 
recreational area for the community and protect the site. The 
site is a relatively small dig area of the hundred acres, and 
we have built a protective structure, basically a building, 
that covers the dig area so that is protected.
    We have access areas to that, and we have picnic areas, and 
we have a small visitors' reception area that at some point we 
will probably turn back into maintenance as we build a larger 
educational facility, and then the associated drives and 
parking lots so that the folks can come out and enjoy the site.
    Mr. Flores. Thank you. Mr. Chairman, I am going to yield 
back, but before I do, I just want to say that this is truly an 
asset of national significance, and I wanted to show pictures 
today, but my staff advised against it, but it is truly a 
unique asset.
    Mr. Bishop. Mr. Flores, before you yield back, could I ask 
to reclaim my time and ask one question of Ms. Burke.
    Mr. Flores. Yes.
    Mr. Bishop. I understand your testimony is that you would 
like to take this over, but only if you can spend Federal funds 
on it. You are not going to get more money, and so what are you 
proposing to cut within your budget to spent funds on this 
program?
    Mr. Gregerson. I would have to get back to you on that. We 
can give you that information later.
    Mr. Bishop. Well, we have plenty of time. All right. Mr. 
Grijalva, do you have any questions?
    Mr. Grijalva. Yes, for the Park Service, a quick question. 
Are there arrangements short of unit designation that 
Congressman Flores was talking about that would not give it the 
unit designation, but some other management partnership, or 
something, but does not have the unit status?
    Mr. Gregerson. We have a number of affiliated areas, and 
that was the term that I was looking for.
    Mr. Grijalva. But the affiliated area designation was 
something that was not--that the community did not want. They 
wanted a unit status. Am I correct?
    Mr. Gregerson. I believe so, yes.
    Mr. Grijalva. OK. Thank you. For Mr. Groth, the City 
Manager. Do you agree with the study that was conducted by the 
National Park Service says that the site deserves national 
recognition?
    Mr. Groth. Absolutely.
    Mr. Grijalva. And if I am not mistaken the city supported 
H.R. 1376 in the previous Congress, which included the 
possibility of Federal funding for the site. Am I correct on 
that as well?
    Mr. Groth. Yes, sir.
    Mr. Grijalva. The National Park Service submitted testimony 
stating that if H.R. 1545 were enacted as currently written 
that they would be unable to implement it because they don't 
know how to operate the National Park without national funding.
    As a City Manager, I am sure that you might be able to 
understand the point that I think NPS is attempting to make. 
You have a city building, a city park, and a public school in 
Waco. The city is supposed to operate them, but is prohibited 
from using any funding to do that.
    Would it be--and I leave that because wouldn't that be in 
your position, wouldn't that be difficult to try to carry out 
that public responsibility if the city council issued a 
prohibition that you are not allowed to use any of the public 
funds associated with the city?
    Mr. Groth. That would be difficult, but I believe that if I 
had an associated agency that we should be able to work that 
out. My feeling is that we are not asking for any funds for 
capital, and we are not asking for any operation and 
maintenance funds at the site.
    Somehow we need to work with the National Parks, and I am 
sure that there is a way that we can work out an agreement, a 
management agreement with them. Obviously it is going to take 
some staff time, and that is my testimony.
    I want the National Park to be authorized to do whatever 
they need to do to make this happen. I am not sure what all 
that means, but we are not asking for any expenditures of funds 
at the site.
    Mr. Grijalva. OK. So given the choice, Mr. City Manager, 
between having the National Park Service as a partner or not, 
you would choose to have them involved?
    Mr. Groth. Yes, sir.
    Mr. Grijalva. OK. Thank you.
    Mr. Groth. Thank you.
    Mr. Grijalva. I yield back.
    Mr. Bishop. Mr. Duncan.
    Mr. Duncan. When the National Park Service did its study 
did it estimate how much money it would take to operate as a 
typical unit of the National Park Service at this type of site 
with this size? Do we have any rough guess as to how much money 
the National Park Service would want?
    Mr. Gregerson. Just for annual staffing for four full-time 
staff, it would be approximately $345,000 a year.
    Mr. Duncan. And, Mr. Groth, how much is the city planning 
to spend, or this group that is operating the site right now?
    Mr. Groth. Yes, sir, we have been operating for a year, and 
we spend about $300,000, which we are actually subsidizing the 
revenue not coming in to cover those expenses, and so we 
subsidize about $170,000 a year.
    Mr. Duncan. So the city is subsidizing that operation at 
this point?
    Mr. Groth. Yes, sir.
    Mr. Duncan. And when you talk about that it is 109 acres 
right now, but when you talk about some kind of a park there, 
you are talking about on the 109 acres, or does the city or the 
Park Service feel that this site needs to be expanded beyond 
the 109 acres?
    Mr. Groth. I can't address what the Park Service thinks. I 
can from my standpoint. We were very intent on acquiring buffer 
area around the dig site to protect it, and we feel like we 
have sufficient land.
    Mr. Duncan. You feel like you have sufficient land. You 
want to acquire a buffer area, but you feel like you have 
sufficient land at this point?
    Mr. Groth. Yes, sir.
    Mr. Duncan. So you don't have to acquire anymore?
    Mr. Groth. That is correct.
    Mr. Duncan. What does the Park Service say about that? The 
Park Service always wants more land.
    Mr. Gregerson. No, actually we agree with that assessment.
    Mr. Duncan. You do? OK. You know, too many local 
governments--it sounds so great for a politician to create a 
park, but we have created so many parks at the local, and 
State, and Federal levels now that most of them are barely 
used.
    I mean, you have a few, like the Great Smoky Mountains in 
my district, that has over nine million visitors a year, and 
there are a few others that get millions of visitors, but you 
have a lot of these local and State parks now that are just 
deserted almost, and we keep taking land off the tax rolls at 
the same time that the teachers and the police, and others, are 
coming to us wanting more money.
    And so at some point, I think that we have to wake up and 
realize that we need to take better care of the parks that we 
have, and stop taking all this land off the tax rolls. And it 
seems to me that that is something that somebody in the local 
government should be especially concerned about. But at any 
rate that is all the questions that I have, Mr. Chairman.
    Mr. Bishop. Thank you. Mr. Flores.
    Mr. Flores. Well, I wanted to dig in a little deeper on the 
question that we asked a minute ago that Mr. Duncan started. 
The Park Service, and just to verify this number, you said that 
it was going to take $345,000 a year to operate the park to NPS 
standards; is that correct?
    Mr. Gregerson. Yes, that was the estimate that we had.
    Mr. Flores. And, Mr. Groth, you are saying that today the 
park is costing about $300,000. So if we took it to NPS 
standards, we are talking about $345,000. Is it your view that 
the community and the city would continue to and be able to 
provide the funding for the park at that level to meet the NPS 
standards?
    Mr. Groth. Yes, sir.
    Mr. Flores. OK. And again what was the attendance number 
that you quote a minute ago, 40,000 persons last year?
    Mr. Groth. Yes, sir.
    Mr. Flores. OK. And that was virtually with zero 
advertising, and zero budget for marketing, and things like 
that; is that correct?
    Mr. Groth. Correct.
    Mr. Flores. OK. Thank you. No further questions.
    Mr. Bishop. With that, unless there are any other 
questions, we appreciate Representative Flores for bringing the 
bill, and we appreciate our two witnesses. You are dismissed. 
Thank you.
    We will move on to the next bill, which is 1258, Box Elder 
Utah Land Conveyance Act. Ms. Wagner, we would ask you to come 
again to present the Forest Service testimony. At issue is part 
of a larger gift that was given by Hans Rasmussen to the Forest 
Service in the 1940s for a dollar. There are no forest 
activities occurring on this land, which is primarily 
grassland, surrounded on three sides, and each parcel 
surrounded on three sides by either private property or city 
land.
    The City of Mantua would like to use this for expansion in 
their cemetery, construction of a town hall, and needed fire 
station. The current cemetery is at capacity, which is a 
problem, and similar versions of this bill, as was mentioned by 
the Ranking Member, have passed before, but have yet to pass 
The Senate.
    Ms. Wagner, if you have testimony, you are recognized right 
now.

STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, U.S. FOREST SERVICE, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Chairman Bishop, thank you, and Ranking Member 
Grijalva, and Members of the Subcommittee, thank you for the 
opportunity to share the Department's view on H.R. 1258.
    It would direct the Secretary of Agriculture to convey 
without consideration to the Town of Mantua, Utah, all right, 
title, and interest of the United States in approximately 31.5 
acres of National Forest System land in Box Elder County, Utah.
    While we believe the Forest Service could meet the 
objectives of the bill administratively through the Town Site 
Act, the Department does not object to the conveyance of this 
National Forest System land.
    We do note that these parcels have not officially been 
described, and a Federal survey would be required in advance of 
the conveyance. We would appreciate the opportunity to work 
with the bill's sponsors, the Committee, and the Town of Mantua 
to address concerns with H.R. 1258, such as the definition of 
public purpose, the reversionary language, ensuring the town's 
agreement to the conveyance, and provisions for the 
administrative costs of the conveyance.
    This concludes my testimony, and I am happy to answer any 
questions.
    [The prepared statement of Ms. Wagner follows:]

 Statement of Mary Wagner, Associate Chief, U.S. Forest Service, U.S. 
Department of Agriculture, on H.R. 1258: To Provide for the conveyance 
          of parcels of land to Mantua, Box Elder County, Utah

    Chairman Bishop, Ranking Member Grijalva and members of the 
Subcommittee, thank you for the opportunity today to present the 
Department's view on H.R. 1258, legislation to provide for the 
conveyance of parcels of land to Mantua, Box Elder, Utah.
    H.R. 1258 would direct the Secretary of Agriculture to convey, 
without consideration, to the Town of Mantua, Utah, all right, title 
and interest of the United States in approximately 31.5 acres of 
National Forest System (NFS) land in Box Elder County, Utah. This land 
is currently part of the Uinta-Wasatch-Cache National Forest. The 31.5 
acres in question comprise three parcels identified in the bill as 
parcels A, B, and C on the map entitled `Box Elder Utah Land Conveyance 
Act' and dated July 14, 2008. The parcels are encumbered with several 
outstanding rights in Brigham City, including three pipelines, a right 
to construct a pipeline, and use of four springs.
    The Department does not object to conveyance of this NFS land, but 
notes that these parcels have not been officially described; a federal 
survey would be required in advance of conveyance. Although the bill 
does require the Town to cover the Federal land survey costs associated 
with the conveyance, it does not clearly state who would be responsible 
for bearing other administrative costs.
    We believe that the Forest Service could meet the objectives of the 
bill administratively through either the Townsite Act of July 31, 1958 
(16 U.S.C. 478a) or the Weeks Act of March 1, 1911 (16 U.S.C. 516) as 
supplemented by the Federal Land Policy and Management Act (FLPMA) of 
October 21, 1976 (P.L. 94-579, 90 Stat. 2743; 43 U.S.C. 1716; as 
amended). The Townsite Act authorizes communities to acquire up to 640 
acres of NFS land in order to serve community objectives and requires 
payment to the United States of the market value of the federal land. 
The Weeks Act authorizes the exchange of NFS land for non-Federal land 
on the basis of equal value.
    It is longstanding policy that the United States receive market 
value for the sale, exchange or use of NFS land. This policy is well 
established in law, including the Independent Offices Appropriation Act 
(31 U.S.C. 9701), section 102(9) of FLPMA, as well as numerous land 
exchange authorities. The parcels were acquired by donation from Box 
Elder County in 1941. They have value to the United States for their 
potential to be used to facilitate future land exchanges.
    Mr. Chairman, regardless of the ultimate outcome of the 
congressional consideration of H.R. 1258, the Forest Service is 
committed to working with the bill sponsors, the Town of Mantua, and 
the Committee, in hopes of assisting the Town. We would appreciate the 
opportunity to work with the Committee to address concerns with H.R. 
1258, such as the definition of public purpose and the reversionary 
language.
    Also, to avoid constitutional concerns, the Department of Justice 
recommends that the bill be revised to make absolutely clear that the 
town would have to agree to the proposed conveyance, which is what we 
understand Congress intends. This change might be accomplished by 
adding ``subject to the Town's agreement'' after ``the Secretary shall 
convey,'' in section 2(a) of the bill.
    This concludes my statement and I would be happy to answer any 
questions you might have.
                                 ______
                                 
    Mr. Bishop. Mr. Grijalva, do you have any questions?
    Mr. Grijalva. Mr. Chairman, in the 10 years that I have 
been on this Subcommittee, this is the finest piece of 
legislation that I have ever laid eyes on. Thank you.
    Mr. Bishop. I thank the Ranking Member's brilliant 
deduction. All right. Thank you for this particular bill. I am 
going to do an audible here. Mr. Denham would like to be here 
for his bill, but he is in another committee.
    Mr. Gosar is here for his bill, and if it is all right with 
you, Mr. Carlisle, I would like to switch those around, and so 
we will deal first with H.R. 1904, the Southeast Arizona Land 
Exchange and Conservation Act of 2011.
    Our witnesses are Ms. Wagner again, and if I dismissed you 
too soon, I would like to come back here for the Forest 
Service; and Ms. Burke from the Bureau of Land Management. We 
have with us Michael Hing--and I hope that I pronounced that 
correctly--the Mayor of the City of Superior, Arizona; Bryan 
Martyn, the Vice Chairman of the Pinal County Board of 
Supervisors; Mr. Harrison Talgo, the former Chairman of the San 
Carlos Apache Tribe; Mr. John Cherry, the Vice President of 
Resolution Copper Mining; Shan Lewis the President of the 
Intertribal Council of Arizona, and the Vice Chairman of the 
Fort Mojave Indian Tribe; and Mr. Roger Featherstone, the 
Director of the Arizona Mining Reform Coalition.
    So we will give you a second to coordinate yourselves at 
the table, if we can get you all in there. All right. I think 
if we are all set there, then Ms. Gosar, if you would like to 
make your statement from the dais, and participate also in the 
hearing.
    Are you a Member of the Subcommittee? Well, we don't care. 
We already gave unanimous consent that any Member could be 
here. And I am happy that you are going to be there, because 
there is no way that you are going to fit down there anyway.
    So what I would like to do is to allow you to make your 
statement, and then we will just go down the row, starting once 
again with Ms. Wagner, for those statements as well. 
Representative Gosar.

STATEMENT OF HON. PAUL GOSAR, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Chairman Bishop, and Chairman 
Hastings, for recognizing the importance of this legislation, 
and to my District, the State of Arizona, and our country, by 
scheduling this legislative hearing.
    The need for this land exchange and ensuing copper mine was 
one of the very first projects brought to my attention by the 
people of my district. Many of those folks, excited for the 
economic development and sustainable growth that this project 
will bring, wanted this legislation introduced immediately with 
the start up of Congress.
    However, I felt that it was my duty as a new Representative 
of Arizona's First Congressional District to engage in 
interested stakeholders. I would like to thank my constituents, 
including Terry Rambler, the Chairman of the San Carlos Apache 
Tribe, who is here today, for the many honest and candid 
conversations about this proposal.
    I think and I believe Chairman Rambler does as well that it 
is important to maintain an honest and respectful debate about 
the issues facing our State. I remain committed to working with 
the involved parties as we move forward through this process.
    Times are tough in my district. The unemployment rates in 
Pinal and Healy County sit above 10 percent. This legislation 
is overwhelmingly supported in Arizona because it will provide 
jobs and put Arizona back on the road to economic recovery.
    The project will support over 3,700 jobs and provide for 
220 million in annual wages. A total economic impact on the 
State of Arizona is estimated to be over $61 billion, nearly $1 
billion per year, and another $20 billion in Federal, State, 
and county, and local tax revenue.
    This legislation will also significantly contribute to our 
mineral and energy independence. Today, we import over 30 
percent of our copper, compared to seven percent in 1993. This 
project will produce up to 25 percent of the current United 
States demand.
    The demand for copper is skyrocketing. A single three 
megawatt wind turbine requires 4.7 tons of copper. Renewable 
energy production from solar, wind, geothermal, and other 
technologies depend heavily on copper to transmit the energy 
that they generate.
    Hybrid vehicles require double the amount of copper as gas-
fueled automobiles. The Department of Defense indicates that 
copper ranks second, only behind aluminum, in defense 
industrial applications.
    The United States must use domestic resources to meet this 
growing demand, and this legislation is a major step in the 
right direction. This legislation is not just a jobs bill. It 
is a conservation bill. The land that the Federal Government 
acquires in the exchange is a highly coveted recreation and 
conservation areas.
    It protects one of the last few remaining undammed rivers 
in the State of Arizona, the San Pedro River. The 7-B property 
contains nearly seven miles of the lower San Pedro River, as 
well as over 800 acres of adjacent and intact Mesquite moss, 
representing what is probably the largest old growth mesquite 
forest remaining in Arizona.
    Dripping Springs is a superb hiking and climbing location, 
and nearly a hundred acres of private land adjacent to the 
culturally important Apache Leap is being conveyed to the 
Federal Government.
    I have drafted this legislation to ensure that this is a 
fair value exchange. Arizona is blessed with natural resources, 
and we only get one opportunity to tap them. It is very 
important to me to ensure that the taxpayers are not 
shorthanded.
    If Resolution Copper produces minerals that exceed the 
productions assumed in the initial appraisal, the company is 
required to make a cash payment to the Federal Government. I 
also would like to address the inaccurate assertions that my 
legislation circumvents environmental law.
    Sections 4(i) and 4(j) address explicitly and implicitly 
compliance with the Federal environmental laws, and regulations 
pertaining to conveyances of Federal land, and approval of mine 
plan operations.
    The partners must comply with other applicable Federal laws 
and regulations prior to the conveyances of the land. Thus, the 
exchange will not go forward until major environmental 
requirements under the National Historic Preservation Act, 
Endangered Species Act, Executive Orders pertaining to wetlands 
and flood planes, and hazardous materials surveys are met.
    Prior to the completion of the exchange, title to the non-
Federal lands must be determined to be acceptable to the 
Secretaries of Agriculture and Interior, and appraisals of all 
lands must be completed in accordance with Federal appraisal 
regulations, and be approved by Federal Agencies.
    With regards to mine plan of operations, H.R., 1904 is 
clear that this plan can only be approved following preparation 
of a full environmental impact statement that is in accordance 
with NEPA and all other applicable Federal laws and 
regulations.
    Additional environmental compliance regulations will also 
have to be addressed at the State and local levels for this 
mine to be operated. H.R. 1904 may be new legislation, but this 
initiative is not.
    Over the past six years this land exchange has been subject 
to intensive review, public consideration, and modification. 
Today marks the fifth Congressional hearing, the second in the 
U.S. House of Representatives, held on this topic.
    It is time that Congress approves the legislation and puts 
this vital economic project into motion. I am confident that 
H.R. 1904 can serve as a fine example of utilizing the West's 
natural resources in a way that engages all stakeholders, while 
promotion economic development in an environmentally 
responsible way.
    I firmly believe that this legislation will lead to a 
better future for my constituents and this country. Thank you.
    [The prepared statement of Dr. Gosar follows:]

Statement of The Honorable Paul A. Gosar, a Representative in Congress 
                from the State of Arizona, on H.R. 1904

    I would like to thank Chairman Hastings and Chairman Bishop for 
recognizing the importance of this legislation to my district, the 
state of Arizona, and our country by scheduling this legislative 
hearing.
    The need for this land exchange and ensuing copper mine was one of 
the very first projects brought to my attention by the people of my 
district. Many of those folks, excited for the economic development and 
sustainable growth that this project will bring, wanted this 
legislation introduced immediately with the start of the new Congress. 
However, I felt it was my duty as the new Representative of Arizona's 
First Congressional District, to engage with interested stakeholders.
    I would like to thank all my constituents, including Terry Rambler, 
the Chairman of the San Carlos Apache Tribe, who is here today, for the 
many honest and candid conversations about this proposal. I think, and 
I believe Chairman Rambler does as well, that it is important to 
maintain an honest and respectful debate about the issues facing our 
state. I remain committed to working with the involved parties as they 
move through this process.
    Times are tough in my district. The unemployment rates in Pinal and 
Gila County sit above 10 percent. This legislation is overwhelmingly 
supported in Arizona because it will provide jobs and put Arizona back 
on the road to economic recovery. The project will support over 3,700 
jobs providing for $220 million in annual wages. The total economic 
impact of the project on the State of Arizona is estimated to be over 
$61.4 billion, near $1 billion per year and another $20 billion in 
federal, state, county and local tax revenue.
    This legislation will also significantly contribute to our mineral 
and energy independence. Today we import 30 percent of our copper 
compared to 7 percent in 1993. This project will produce up to 25% of 
the current U.S. demand. The demand for copper is skyrocketing. A 
single 3 megawatt wind turbine requires 4.7 tons of copper. Renewable 
energy production from solar, wind, geothermal and other technologies 
depend heavily on copper to transmit the energy they generate. Hybrid 
vehicles require double the amount of copper as gas-fueled automobiles. 
The Department of Defense indicates that copper ranks second- behind 
aluminum- in defense industrial applications. The U.S. must use 
domestic resources to meet this growing demand and this legislation is 
a major step in the right direction.
    This legislation is not only a jobs bill, it's a conservation bill. 
The land the federal government acquires in the exchange is highly-
coveted recreational and conservation areas. It protects one of the 
last few remaining undammed rivers in the State of Arizona, the San 
Pedro River. The ``Seven B'' property contains nearly 7 miles of the 
lower San Pedro River, as well as over 800 acres of ancient intact 
mesquite bosque representing what is probably the largest old-growth 
mesquite forest remaining in Arizona. Dripping Springs is a superb 
hiking and climbing location. And nearly 100 acres of private land 
adjacent to the culturally important Apache Leap is being conveyed to 
the federal government.
    I have drafted this legislation to ensure this is a fair value 
exchange. Arizona is blessed with natural resources and we only get one 
opportunity to tap them. It is very important to me to ensure the 
taxpayer is not shortchanged. If Resolution Copper produces minerals 
that exceed the production assumed in the initial appraisal, the 
company is required to make a cash payment to the federal government. 
Those funds will be used for the management and maintenance of current 
public lands. Considering Arizona is over 60% publicly owned, this 
could have major benefits for our state.
    I'd like to address the inaccurate assertion that my legislation 
circumvents environmental law. Sections 4(i) and 4(j) address 
explicitly and implicitly compliance with Federal environmental laws 
and regulations pertaining to conveyances of Federal land and approval 
of mine plan of operations. The partners must comply with other 
applicable Federal laws and regulations prior to the conveyance of 
lands. Thus, the exchange will not go forward until major environmental 
requirements under the National Historic Preservation Act, Endangered 
Species Act, Executive Orders pertaining to wetlands and floodplains, 
and Hazardous Materials Surveys are met.
    Prior to completion of the exchange, title to the non-Federal lands 
must be determined to be acceptable to the Secretaries of Agriculture 
and Interior, and appraisals of all lands must be completed in 
accordance with Federal appraisal regulations and be approved by the 
Federal agencies. With regards to the Mine Plan of Operations, H.R. 
1904 is clear that this plan can only be approved following preparation 
of a full EIS that is in accordance with NEPA and all other applicable 
Federal laws and regulations. Additional environmental compliance 
requirements will also have to be addressed at the state and local 
levels in order for this mine to be developed. This legislation 
promotes economic development in an environmentally responsible way.
    H.R. 1904 may be new legislation, but this initiative is not. Over 
the past six years, this land exchange has been subject to intensive 
review, public consideration and modification. Today marks the fifth 
Congressional hearing, the 2nd in the U.S. House of Representatives, 
held on this topic. It is time Congress approves the legislation and 
puts this vital economic project in motion.
    I am confident H.R. 1904 can serve as a fine example of utilizing 
the West's natural resources in a way that engages all stakeholders 
while promoting economic development in an environmentally responsible 
way. I firmly believe this legislation will lead to a better future for 
my constituents and this country.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Gosar. Once again, I remind all 
the witnesses that your written testimony will be included in 
the record. Your oral testimony please is confined to the five 
minutes that you have there on the clock. Ms. Wagner, we will 
start with you again.

STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, U.S. FOREST SERVICE, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Thank you, Mr. Chairman, and Members of the 
Committee, I appreciate the opportunity to share the 
Department's view on H.R. 1904, which would direct the 
Secretary of Agriculture to convey Federal land for use as an 
underground copper mine in exchange for environmentally 
sensitive, non-Federal land in Arizona.
    We defer to the Department of the Interior on provisions 
relating to lands to be managed by the Bureau of Land 
Management. The Federal land to be conveyed, known as Oak Flat, 
contains a potentially sizable core copper ore body, and 
adjoins an existing copper mine on private land owned by 
Resolution Copper.
    The bill would add five parcels of land with important 
resource values and riparian habitat, totaling almost 1200 
acres to the National Forest System. Additionally, as a 
condition of the land exchange, Resolution Copper would 
surrender its rights to commercially extract minerals under 
Apache Leap.
    After the exchange is consummated the bill would require 
the Forest Service to prepare an environmental analysis for 
ancillary activities related to the mining development, such as 
rights-of-way for electric lines, pipelines, or roads, before 
issuing authorizations for such activities, which would be 
consistent with existing requirements under NEPA.
    While the Department understands and appreciates the 
significant potential economic benefits and jobs that would be 
potentially created, and the value of lands to be acquired by 
the American public, the Department cannot support the bill as 
written.
    However, the Department is keenly interested and willing to 
work with the sponsor and the Committee to address our 
concerns. The principal concern is the provision in the bill 
which would require the Agency to prepare an environmental 
analysis after the land exchange is completed.
    The bill should be amended to require the preparation of an 
environmental analysis before the land exchange is completed. 
The purpose of preparing an environmental analysis would be to 
analyze the effects of the transfer of Federal land to 
Resolution Cooper.
    Any activities that are reasonably foreseeable to occur on 
the transferred land, including mineral development, and the 
acquisition of the non-Federal land resulting from the 
exchange, the Agency would use the environmental analysis to 
make a decision on whether to proceed with the exchange and 
under what conditions, namely whether and how to require 
mitigation on the identified impacts.
    The Department has a responsibility to consider tribal 
government concerns, and these can only be adequately addressed 
if the environmental analysis is the first step. There is no 
doubt that the lands that would be acquired and managed by the 
Forest Service under H.R. 1904 would have important resource 
values that should be protected.
    And it is also clear that the economic benefits from the 
production of copper could be significant in creating family 
waged jobs in tough economic times.
    Therefore, it is important to fully understand the scope of 
the project before proceeding, and to address potentially 
significant environmental concerns, and sites of high 
importance to local tribes. Mr. Chairman, this concludes my 
statement, and I would be happy to answer any questions.
    [The prepared statement of Ms. Wagner follows:]

    Statement of Mary Wagner, Associate Chief, U.S. Forest Service, 
              U.S. Department of Agriculture, on H.R. 1904

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views on H.R. 1904, the ``Southeast Arizona Land Exchange 
and Conservation Act of 2011. I am Mary Wagner, Associate Chief of the 
U.S. Forest Service. H.R. 1904 would direct the Secretary of 
Agriculture to convey federal land for use as an underground copper 
mine in exchange for environmentally sensitive non-federal land in 
Arizona. We defer to the Department of the Interior on provisions 
relating to lands to be managed by the Bureau of Land Management (BLM).
    H.R. 1904 would direct the Secretary of Agriculture to convey to 
Resolution Copper Mining, LLC (Resolution Copper), a 2,422-acre parcel 
of land on the Tonto National Forest. The federal land to be conveyed, 
known as Oak Flat, contains a potentially sizeable copper ore body and 
adjoins an existing copper mine on private land owned by Resolution 
Copper. In exchange, Resolution Copper would convey five parcels of 
land to the Forest Service and three parcels of land to BLM. The total 
non-federal acreage that would be conveyed by Resolution Copper is 
5,344 acres, all of which are in Arizona.
    The Bill calls for an equal value exchange in Section 4e. If the 
value of the federal land (including the ore body) to be conveyed 
exceeds the value of the parcels to be acquired, the Bill would allow 
for a cash equalization payment by Resolution Copper in excess of 
twenty-five percent. Under current law, cash equalization payments may 
not exceed twenty-five percent. A cash equalization payment resulting 
from the exchange would be deposited in the Sisk Act account to be 
used, upon appropriation by Congress, for acquisition of land for 
addition to the National Forest System.
    The appraised value of the federal land to be conveyed to 
Resolution Copper would include the value of the ore body. The Bill, in 
Section 6b would require Resolution Copper to make value adjustment 
payments if, as the mine is developed, annual production of the mine 
exceeds expectations documented in the appraisal. Those funds would be 
deposited in a special account in the Treasury to be used, upon 
appropriation by Congress, for maintenance, repair, and rehabilitation 
projects. The Department's position is that funds received from land 
conveyance should be used for land acquisition.
    The Bill also would provide for the sale of a 30-acre parcel of 
land currently being used as a cemetery, a reversionary interest and 
reserved mineral rights in a 265-acre parcel, and 250 acres near the 
Superior Airport at market value to the Town of Superior. Sale proceeds 
would be deposited in the Sisk Act account to be used, upon 
appropriation by Congress, for acquisition of land to the National 
Forest System.
    H.R. 1904 would require Resolution Copper to pay all costs 
associated with the exchange. The Bill would provide that it is the 
intent of Congress that the exchange be completed not later than one 
year after the date of enactment.
    At the request of Resolution Copper, the Bill would require the 
Secretary, within 30 days of such request, to issue a special use 
permit to Resolution Cooper to carry out mineral exploration activities 
under the Oak Flat Withdrawal Area, from existing drill pads located 
outside the area, if such activities would not disturb the surface of 
the Area. At the request of Resolution Copper, within 90 days, the Bill 
would require the Secretary to issue a special use permit to Resolution 
Copper to carry out mineral exploration activities under the Oak Flat 
Withdrawal Area (but not within the Oak Flat Campground), if the 
activities are conducted from a single exploratory drill pad which is 
located to reasonably minimize visual and noise impacts to the 
Campground.
    H.R. 1904 would require the Secretary of Agriculture to complete an 
environmental review document after the exchange, and after the above-
noted activities were permitted to take place, but before Resolution 
Copper's commencement of commercial mineral production on the land it 
would acquire in the exchange. Specifically, once the land exchange is 
consummated, and these lands are in the private ownership of Resolution 
Copper, Resolution Copper is authorized to submit a mine plan of 
operation to the Secretary. Thereafter, the Secretary must complete an 
environmental review document within three years that is limited to 
Section 102(2) of the National Environmental Policy Act of 1969 (NEPA). 
The environmental document would be used as the basis for any federal 
action or authorization related to the proposed mine and mine plan of 
operations of Resolution Copper, including the construction of 
associated power, water, transportation, processing, tailings, waste 
dump, and other ancillary facilities. After the exchange, Resolution 
Copper may need to use the adjoining National Forest System land for 
ancillary activities related to the mining development, such as rights-
of-way for electric lines, pipelines, or roads. As we understand the 
Bill, it would require the Forest Service to prepare an environmental 
analysis before issuing authorizations for such activities, which would 
be consistent with existing requirements under NEPA.
    The Bill would add five parcels of land totaling almost 1,200 acres 
to the National Forest System. Most of these parcels include riparian 
areas which are somewhat rare in Arizona. One of the parcels that would 
be acquired adjoins the Apache Leap area on the Tonto National Forest. 
Additionally, as a condition of the land exchange, Resolution Copper 
would surrender its rights to commercially extract minerals under 
Apache Leap.
    While the Department understands and appreciates the potential 
economic benefits and the value of the lands to be acquired by the 
American public, the Department cannot support the Bill as written but 
is looking forward to working with the Sponsor and the Committee. The 
principal concern is that the Bill would require the agency to prepare 
an environmental review document under NEPA after the land exchange is 
completed. Also of concern is the fact the Bill would immediately 
authorize mining exploration activities under an area that is sacred to 
the San Carlos Apache Tribe without a review or study.
    NEPA is a forward looking statute setting out procedural 
obligations to be carried out before a federal action is taken. It 
requires that, before taking a discretionary decision, the federal 
agency consider the environmental impacts of a proposed major federal 
action and alternatives of such action. It is this Administration's 
policy that NEPA be fully complied with to address all federal actions 
and decisions, including those necessary to implement congressional 
direction.
    The purpose of the requirement in the bill that the agency prepare 
a limited NEPA review after the exchange, when the land is in private 
ownership, is unclear because the bill provides the agency limited 
discretion to exercise. An environmental review document after the 
exchange would preclude the U.S. Forest Service from developing a 
reasonable range of alternatives to the proposal and providing the 
public with opportunities to comment on the proposal. In addition, the 
U.S. Forest Service does not have an understanding of the impacts the 
proposed mine will have on local or regional water supplies, water 
quality, or possible dewatering of the area. No studies or assessments 
of the water supplies have been conducted. That is information which 
could be obtained by the Forest Service with NEPA analysis before the 
exchange. A NEPA analysis after the exchange would not allow the Forest 
Service to recommend alternatives since the exchanged parcel would 
already be in private ownership.
    The Bill should be amended to require the preparation of an 
environmental impact statement before the land exchange is completed. 
The purpose of preparing an environmental analysis before consummating 
the land exchange would be to analyze the effects of the transfer of 
the federal land to Resolution Copper, any activities that are 
reasonably foreseeable to occur on the transferred land (including 
mineral development), and the acquisition of the non-federal land 
resulting from the exchange. The agency would use the environmental 
analysis to make a decision on whether and how to proceed with the 
exchange and what mitigation conditions would be required to mitigate 
the identified impacts.
    The legislation states that it is Congressional intent that the 
exchange be completed within one year. Based on our experience with 
complex land exchanges, this is an insufficient amount of time to 
complete the exchange. Given the requirement of mineral reports, 
appraisals, title documents, environmental analysis and government to 
government consultation with local Tribes, a two to three-year 
timeframe is much more realistic. Doing a pre-exchange review would 
increase the time requirement as well.
    The agency also understands that a number of federally recognized 
Indian tribes and regional and national tribal organizations are 
concerned that the Bill circumvents various laws, policies, and 
Executive order that directs the Federal land managing agencies to 
engage in formal consultation with the interested Indian tribes. Indian 
tribes have also raised important concerns that the Bill is contrary to 
various policies and Executive Orders that Federal land managing 
agencies to protect and preserve sites that are sacred to Native 
Americans. The Forest Service understands that land is very sacred to 
the tribe and holds significant traditional and historic value. Because 
of these expressed concerns and because this specific site has been the 
focus of historic Government protection it is important that this Bill 
provide for the process of formal tribal consultation to ensure both 
tribal participation and protection of this site.
    The Bill would require the Secretary to prepare a management plan 
for Apache Leap. Further, the federal lands to be exchanged (Oak Flat) 
hold significant cultural values to Indian Tribes. Although the Bill 
would require government-to-government consultation, any consultation 
would not be considered meaningful under Executive Order 13175, 
``Consultation and Coordination with Indian Tribal Governments'', 
because the Secretary's discretion regarding the land exchange is 
limited. The focus of the consultations would likely be the management 
of those areas over which the agency would have discretion, namely, the 
federal land adjacent to the mine and Apache Leap.
    For example, the Secretary would not have discretion over the 
conveyance or on-site management of the Oak Flat site, which under the 
legislation would be conveyed to Resolution Copper. The San Carlos 
Apache Tribe considers the Oak Flat area to be a sacred site. They have 
expressed concerns that block cave mining would cause subsidence would 
impact the fundamental religious nature of the site. They have also 
expressed concerns regarding potential impacts on water quality. They 
have detailed in correspondence the importance of traditional acorn 
gathering and religious ceremonies which still occur on this site. The 
Department has a responsibility to consider the Tribes' concerns and 
these can only be adequately addressed if a pre-exchange environmental 
analysis is the first step.
    There is no doubt that the lands that would be acquired and managed 
by the U.S. Forest Service under H.R. 1904 have important resource 
values that should be protected. It is also clear that the economic 
benefits from the production of copper could be significant in creating 
family wage jobs in tough economic times. However, it is important to 
more fully understand the scope of the project before proceeding and 
address potentially significant environmental concerns and sites of 
high importance to local Tribes. In addition to the concerns expressed 
in testimony, the Department would like to work with the Committee on a 
number of significant technical concerns.
    This concludes my statement and I would be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Bishop. Ms. Burke.

 STATEMENT OF MARCILYNN BURKE, DEPUTY DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Burke. Thank you for the opportunity to testify on 
behalf of the Department of the Interior on H.R. 1904, the 
Southeast Arizona Land Exchange Conservation Act. H.R. 1904 
provides for the exchange of a 2,422-acre parcel of Forest 
Service-managed land to a private company in exchange for a 
number of parcels within the State of Arizona for management by 
the Forest Service and by the Bureau of Land Management.
    The Department of the Interior defers to the Forest Service 
on issues directly related to Forest Service lands, and 
associated valuation. However, the Department cannot support 
this bill as written.
    The exchange proposed in H.R. 1904 is complex, and the 
Department has several concerns, including the timing of the 
consultation with interested Indian tribes. The timing of the 
exchange, appraisal provisions, and value adjustment 
provisions.
    Many of the lands to be exchanged in the bill hold 
significant cultural value to Indian tribes. Concerns have been 
raised by these tribes that the bill is contrary to various 
laws and policies, and Executive Orders, that direct Federal 
land managers to engage in formal consultation with interested 
Indian tribes, and to protect and preserve sites that are 
sacred to Native Americans.
    Thank you again for the opportunity to testify here today, 
and I am happy to answer any questions.
    [The prepared statement of Ms. Burke follows:]

     Statement of Marcilynn Burke, Deputy Director, Bureau of Land 
       Management, U.S. Department of the Interior, on H.R. 1904

    Thank you for the opportunity to testify on H.R. 1904, the 
Southeast Arizona Land Exchange and Conservation Act. The legislation 
provides for the exchange of a 2,422-acre parcel of U.S. Forest 
Service-managed land to a private company in exchange for a number of 
parcels within the State of Arizona for management by the U.S. Forest 
Service (FS) and the Bureau of Land Management (BLM). Three of the 
private parcels are identified for transfer to the Secretary of the 
Interior. In general, the Department of the Interior (DOI) defers to 
the FS on the issues directly related to FS-managed lands and 
associated valuation issues. We believe that the intent of the 
legislation is to facilitate an exchange of land with Resolution Copper 
Mining, LLC. Resolution Copper has indicated its intention to develop a 
copper mine near Superior, Arizona, and wishes to acquire the 2,422-
acre Forest Service parcel overlying the copper deposit as well as the 
Federal subsurface rights.
Conveyance of Parcels to the Bureau of Land Management
    We note that while the bill states that three parcels are to be 
conveyed to the Secretary of the Interior, it is our understanding that 
the sponsor intends for the parcels to be placed under the 
administrative jurisdiction of the BLM. The parcels identified are 
located in Gila, Pinal, and Santa Cruz Counties and include:
        <bullet>  3,050 acres along the Lower San Pedro River near 
        Mammoth, Arizona;
        <bullet>  160 acres within the Dripping Springs area near 
        Kearny, Arizona; and
        <bullet>  the 940-acre Appleton Ranch parcel adjacent to the 
        Las Cienegas National Conservation Area near Sonoita, Arizona.
    The legislation references maps for these three parcels dated March 
2011. The sponsor's office informs us that these maps do not exist and 
that the sponsor intends to use the boundaries delineated on the maps 
dated June 3, 2009, which the BLM previously prepared for Senator Kyl 
of Arizona. The BLM would be happy to prepare new maps for H.R. 1904 if 
requested.
    The lower San Pedro parcel is east of the town of Mammoth, Arizona, 
and straddles the San Pedro River. The acquisition of these lands would 
enhance key migratory bird habitat along the San Pedro River. H.R. 1904 
provides for the lower San Pedro parcel to be managed as part of the 
BLM's existing San Pedro Riparian National Conservation Area (NCA) 
designated by Public Law 100-696. The lower San Pedro parcel lies along 
the same riparian corridor as the San Pedro NCA, but it is at least 60 
miles downstream (north) of the existing NCA and has substantially 
different resource issues and needs. If this parcel is conveyed to the 
Secretary the Interior and incorporated into the NCA, the Department 
recommends that the existing 80 acres of adjacent BLM-managed public 
land likewise be included within the NCA to facilitate the efficient 
and effective management of this important riparian corridor.
    The legislation also proposes to transfer 160 acres in the Dripping 
Springs area near Kearny, Arizona to the Secretary of the Interior. 
This private parcel is an inholding within a larger block of public 
lands and has important resource values, including sensitive Desert 
Tortoise habitat.
    Finally, the bill provides for the transfer of the 940-acre 
Appleton Ranch parcel to the Secretary of the Interior. This parcel is 
located on the southern end of the BLM's Las Cienegas NCA. These lands 
lie within the ``Sonoita Valley Acquisition Planning District'' 
established by Public Law 106-538, which designated the Las Cienegas 
NCA. That law directs the Department to acquire lands from willing 
sellers within the planning district for inclusion in the NCA to 
further protect the important resource values for which the NCA was 
designated. These lands are part of a significant wildlife corridor. 
The acquisition of these lands advances important conservation goals 
associated with this unique and special natural resource and is 
consistent with the President's America's Great Outdoors initiative.
General Concerns
    The Department has several concerns with the bill and cannot 
support the bill as written. Among these concerns are the timing of 
consultations with interested Indian Tribes, the timing of the 
exchange, appraisal provisions, and value adjustment provisions.
    Concerns have been raised by Indian Tribes that the bill is 
contrary to various laws and policies and Executive Orders that direct 
Federal land managing agencies to engage in formal consultation with 
interested Indian Tribes, and to protect and preserve sites that are 
sacred to Native Americans.
    Many of the lands to be exchanged in the bill hold significant 
cultural value to Indian Tribes. In particular, the Apache Leap area, 
the Oak Flat Campground, and Devil's Canyon are culturally significant 
to the San Carlos Apache Tribe and the Fort McDowell Yavapai Nation. 
There are also other neighboring Tribes with cultural interests in the 
area. The Department recommends the Secretary of the Interior be 
included, along with the Secretary of Agriculture in the consultation 
required in the legislation when it relates to Indian tribes. However, 
the Department is concerned that any consultations under this H.R. 1904 
would not be meaningful under Executive Order 13175, ``Consultation and 
Coordination with Indian Tribal Government'', because the Secretary's 
discretion regarding the land exchange is limited.
    Section 4(i) of the legislation expresses the intent of Congress 
that the exchange be completed within one year. Based on our experience 
with exchanges, we believe this amount of time is insufficient to 
complete and review the necessary environmental documents, mineral 
report, appraisals, as well as to conduct the final verification and 
prepare title documents. We are also concerned that one year may not be 
sufficient to complete analysis of any historic and sacred sites in the 
exchange area as required by the Native American Graves Protection Act 
and the National Historic Preservation Act.
    Preparation of a mineral report is a crucial first step toward an 
appraisal of the Federal parcel because the report provides important 
information about the Federal mineral deposit. The bill does not 
address access to confidential exploration and development data and 
company analyses on the mineral deposits underlying the Federal land in 
order to ensure a timely and accurate appraisal. Such information is 
essential for the mineral report, particularly in the context of this 
exchange, because of the size of the proposed mining operation and the 
proposed mining technique.
    Section 6 of H.R. 1904 provides for an annual value adjustment 
payment to the United States if the cumulative production of locatable 
minerals exceeds the projected production used in the appraisal 
required by section 4(d)(3). This provision recognizes that an accurate 
projection of future production as part of the appraisal process will 
be difficult to develop, and provides a mechanism for additional 
payments to the United States if the actual production exceeds the 
projected production. The Department generally defers to the FS on the 
specific provisions of section 6 of the bill. However, we note that 
this section creates a new fund in the U.S. Treasury for the deposit of 
these value adjustment payments. The Department recommends that these 
funds be dedicated to Federal land acquisition in the same manner as 
the initial land equalization payments provided for in section 
4(e)(2)(C) of the bill. Because these funds are to compensate for a 
possible initial inadvertent under-appraisal of land values, it is 
appropriate that the value when captured be used in the same manner as 
if it had been included in the initial appraisal.
    Finally, there are a number of issues of a more technical nature 
that we would welcome the opportunity to discuss as this legislation 
moves forward.
Conclusion
    Thank you for the opportunity to testify. The exchange proposed in 
H.R. 1904 is complex. The Departments of Agriculture and of the 
Interior seek to assure that the Federal government's interest is 
appropriately protected in any final legislation.
                                 ______
                                 
    Mr. Bishop. Thank you. Mayor Hing.

            STATEMENT OF HON. MICHAEL HING, MAYOR, 
                   CITY OF SUPERIOR, ARIZONA

    Mr. Hing. Good morning, Mr. Chairman, and Members of the 
Subcommittee. My name is Michael Hing. I am the Mayor of 
Superior, Arizona, a small town in Pinal County, about 65 miles 
southeast of Phoenix.
    Our town strongly supports H.R. 1904. I represent a town 
that has gone through extreme rough economic times, with 
unemployment even higher than 15 percent. However, we are at 
the verge of a major step forward. I am speaking about the 
economic development that will occur if Resolution Copper is 
able to reopen and deepen the almost century-old Magna Mine.
    This land exchange represents an unprecedented opportunity 
to improve the long-term economic vitality of my community. Mr. 
Chairman, there are several significant factors that make our 
town ideally suited to host and service a reopened mine at Oak 
Flat.
    If I can draw your attention to the photo on the screen. 
The photo clearly shows that the Town of Superior is located 
less than a 10 minute drive from the mine site on State Highway 
60, providing an excellent access to the mine for both workers 
and supplies.
    The highway is one of the major East-West traffic arteries 
in Arizona. Our community is serviced by a rail line and has a 
skilled workforce, and housing bed base that is begging to be 
utilized.
    Many of our residents have mining experience. Our area has 
numerous existing powerlines and other infrastructures that can 
service the mine. The most important element of the project, 
Mr. Chairman, are human.
    Currently, vast numbers of Superior residents are forced to 
commute to the Phoenix metropolitan area and nearby towns at 
great expense, and time to find employment. The lack of stable 
local employment has taken a toll on us.
    Families that have resided for many generations are moving 
away. The situation has not improved since the last time that I 
addressed the Committee. I provided testimony to Congress on 
two previous occasions. Previously, I discussed the importance 
of a speedy passage of the land exchange to the economic and 
social well-being of Superior and the neighboring communities.
    I firmly believe that we have been waiting long enough for 
Congress to take action on this legislation. We need jobs. We 
need revenues now. It is time to act. A prestigious economic 
consulting company recently prepared an economic study of the 
proposed mining operation.
    The study predicted a $61.4 billion of economic activity to 
the State over the life of the mine. That is $61.4 billion. 
This is exactly the type of economic shot in the arm that we 
need, and which our Nation and our large budget deficit also 
needs.
    If we truly want jobs and revenue, Congress should be 
taking the bull by the horns and approving and expediting this 
project like this one. There are a few good local corporate 
citizens.
    Resolution Copper has voluntarily spent $30 million to 
clean up the old tailing piles and other mining debris in our 
community, and will be spending $20 million more to finish the 
job.
    They are funding programs at our school, and are expanding 
our students' intellectual horizons and increasing their math, 
science, and technological skills. Last, Mr. Chairman, the land 
exchange will allow Superior to acquire lands adjacent to town.
    We are only four square miles and completely surrounded by 
public lands. The lands that Superior will acquire through 
exchange are crucial in attracting new development, and will 
provide significant economic opportunities.
    Finally, I believe that Congress has an excellent 
opportunity to provide an ideal balance between the expansion 
of jobs, local and State revenues, and a diverse economic 
activity, while conserving ecologically sensitive and pristine 
lands for the future generation.
    Unlike other economic stimulus plans, this legislation 
comes without a handout. I submit to you my sincere hope that 
the legislation can be swiftly approved to this remarkable 
economic impact of this exchange, and can begin to be fully 
implemented and realized.
    We cannot afford to wait any longer. Our economic future is 
at stake. I appreciate your consideration of this very 
important bill.
    [The prepared statement of Mr. Hing follows:]

                 Statement of Michael O. Hing, Mayor, 
                Town of Superior, Arizona, on H.R. 1904

    Mr. Chairman and Members of the Subcommittee:
    My name is Michael Hing. I am the Mayor of Superior, Arizona--a 
small town in Pinal County, about 65 miles southeast of Phoenix. Our 
town strongly supports H.R. 1904.
    I am here today to discuss the future of my community. I represent 
a town that has gone through extremely rough economic times. . .with 
unemployment rates even higher than the 12% unemployment our County is 
experiencing. However, we are on the verge of a major step forward. I 
am speaking about the economic development that will occur if 
Resolution Copper is able to expeditiously re-open and deepen the old 
Magma Mine, which operated in our community for more than 80 years. 
This land exchange represents an unprecedented opportunity to improve 
the long-term economic vitality of my community, our local counties, 
the state, and the region. It is one thing to talk about the creation 
of new jobs and economic opportunity, and quite another to actually 
take action. . .like H.R. 1904 does. . .that will expedite the creation 
of those jobs and result in large increases in local, State and Federal 
tax revenues.
    Mr. Chairman, there are several very significant factors which make 
our Town ideally suited to host and service a re-opened mine at Oak 
Flat:
        1.  As this photo clearly shows, the Town of Superior is 
        located less than a 10 minute drive from the mine site on State 
        Highway 60. This provides excellent access to the mine for both 
        workers and supplies, without needing to build major new access 
        roads.
        2.  Highway 60 is one of the major east-west traffic arteries 
        in Arizona, and is in the process of being up-graded to 4 lane 
        status all the way to Superior. This, again, will assist the 
        entire mining operation.
        3.  We are serviced by an active rail line that runs from 
        Superior to Florence, where it interties directly to the Union 
        Pacific rail system. This will greatly facilitate the transport 
        of copper concentrate to smelting and market.
        4.  We have a skilled work force and housing/bed base that is 
        begging to be utilized, and have many residents with mining 
        experience.
        5.  Our area has numerous existing powerlines, power 
        substations and other infrastructure that can service the mine. 
        This will enable the operation to have far less environmental 
        impact than if entirely new facilities need to be built.
    But the most important elements of this project, Mr. Chairman, are 
human. Currently vast numbers of Superior residents are forced to 
commute into the Phoenix metro area and nearby towns at great expense 
and time to find employment. The lack of stable local employment has 
taken its toll on us. Families that have resided here for generations 
are moving away. This situation has not improved since the last time I 
addressed this committee.
    I provided testimony to Congress on two previous occasions, of 
which I have attached copies. In my previous remarks, I discussed the 
importance of speedy passage of the land exchange to the economic and 
social well being of Superior and neighboring communities. I firmly 
believe that Superior and the residents of the surrounding areas have 
waited long enough for Congress to take action on this legislation. We 
need jobs and revenue now! We don't want to see our economic future 
studied, appealed and litigated to the point where the mine project is 
delayed for decades because it is on Federal land. . .or where the 
company pulls out altogether and takes the jobs and revenues overseas. 
Congress has had bills before it on this land exchange for 5 years now. 
It's time to act!
    Elliott D. Pollack and Company--a prestigious economic and real 
estate consulting company commissioned by Resolution Copper--recently 
prepared an economic study of the proposed mining operation. This 
study, which was originally completed in 2008 and updated recently, 
provides a preview into the enormous economic and fiscal impacts of the 
construction and operation of the mine project. The study predicts a 
rather stunning $61.4 billion of economic activity to the state over 
the life of the mine. . .$61.4 billion! This is exactly the type of 
economic shot in the arm we need, and which our nation, and its large 
budget deficit, needs too. If we truly want jobs and revenue, Congress 
should be taking the bull by the horns and approving and expediting 
projects like this one.
    Mining towns have seen their share of boom and bust. We have 
learned from this, and in partnership with Resolution Copper, have 
already taken steps to diversify our economy. To mark this partnership, 
the Town and Resolution Copper have entered into a landmark agreement 
providing funding for programs that will help Superior enhance business 
and residential opportunities. Resolution Copper has also voluntarily 
spent $30 million to clean up the old tailings piles and other mining 
debris in our community. . .and will be spending $20 million more to 
finish the job. They received a prestigious environmental award from 
Valley Forward, a Phoenix-based organization comprised of business and 
civic leaders, for doing that. They are funding programs at our schools 
that are expanding our students' intellectual horizons and increasing 
their math, science and technology skills.
    They are a good local corporate citizen, as is demonstrated by the 
fact that they are headquartered right in our community, not at some 
distant location.
    Lastly, Mr. Chairman, the land exchange of H.R. 1904 will allow 
Superior to acquire lands adjacent to the town. Superior is only 4 
square miles, and is almost completely surrounded by public lands. The 
lands Superior will acquire through the exchange are crucial to 
attracting new development and will provide significant economic 
opportunities for us.
    In conclusion, I believe Congress has an excellent opportunity to 
provide an ideal balance between the expansion of jobs, local and state 
revenues, and diverse economic activity while conserving ecologically 
sensitive and pristine lands for future generations. Unlike other 
economic stimulus plans, this legislation comes without a handout. I 
submit to you my sincere hope that this legislation can be swiftly 
approved so that the remarkable economic impacts of this exchange can 
begin to be fully implemented and realized as soon as humanly possible. 
We cannot afford to wait any longer. Our economic future is at stake.
    I appreciate your consideration of this very important bill.
                                 ______
                                 
    Mr. Bishop. Thank you. Supervisor Martyn.

           STATEMENT OF BRYAN MARTYN, VICE CHAIRMAN, 
               PINAL COUNTY BOARD OF SUPERVISORS

    Mr. Martyn. Mr. Chairman and Members of the Committee, my 
name is Bryan Martyn. I serve as the Vice Chairman of the Board 
of Supervisors for Pinal County, and I truly am honored to have 
the opportunity to testify before you today.
    Prior to holding an elected office, I served our country 
for 20 years in the Army and in the Air Force as a helicopter 
pilot, and fought in Desert Storm, Bosnia, and a couple of 
tours in Iraq, and a couple of tours in Afghanistan.
    There are no issues more important to Pinal County than the 
swift passage of H.R. 1904. My Board is comprised of two 
Democrats and a Republican. A simple point. This issue is not 
about politics. It is about enhancing the quality of life of 
the citizens of Pinal County and Arizona.
    There are 3,147 counties in America. Pinal County is number 
two for growth. Over 50 residents a day move into Pinal County 
every day for the last 10 years. We need jobs for these new 
residents.
    Mr. Chairman, let me explain why this legislation is so 
critical to Pinal County, and why our board has made this our 
top priority. First, as someone who grew up in Arizona, I 
believe that things that made our State great, and in 
particular, are the five C's; copper, cotton, cattle, climate, 
and citrus, and should continue to be the life blood of our 
State.
    Over the last 40 years the new C of construction has skewed 
our economic diversity. We must improve the spectrum of our 
economic opportunities. Today, we have an opportunity to turn 
Arizona's economy back around and utilize the resources that 
reside within our own State.
    This is not your granddad's copper mine. The days of 
stripping the lands are behind us. Improvements in safety, 
operational technology, and environmental controls, clearly set 
this mine apart.
    We on the board of supervisors plan to hold Resolution 
Copper to the highest standards of environment stewardship. 
Resolution Copper has already demonstrated through their 
actions, and not just lip service, that it is a good partner, 
and it is dedicated to the residents of Pinal County and 
Arizona. I see this in their commitment to education. The first 
full generation of workers for this mine are currently in the 
fourth grade. Resolution Copper recognizes this, and they have 
obligated funding for local schools, community colleges, and 
our universities, to ensure that my workforce in Pinal County 
has the necessary math, science, and mechanical skills needed 
to work in this hi-tech mine.
    It is important to note that in Pinal County that one in 
four of our high school graduates are the first person in their 
family to graduate from high school. One in Four. The 
educational focus on math and science will change the dynamic 
and the future of my county.
    In Arizona, we have an old saying. Whiskey is for drinking 
and water is for fighting. One of the first questions that I 
personally asked Resolution was where and how they planned to 
get their water for this project.
    Mr. Chairman, I am pleased to tell you that Resolution 
Copper has been banking water and has secured the entire water 
supply for the projected life of the project even before the 
first ounce of copper has been pulled from the ground.
    In Arizona, we take our water very seriously. The State 
manages our water supply to the very last drop. I should also 
point out that the water quality is one of my primary quality 
of life concerns.
    Resolution Copper's activities will be closely monitored by 
ADEQ, the Arizona Department of Environment Quality, and they 
are overseen by the EPA. In Arizona, our water quality is 
regulated at standards that meet or exceed all EPA standards.
    These standards are non-negotiable. Resolution Copper must 
meet or exceed these standards if they want to operate in 
Arizona. Pinal County currently has a 15 percent unemployment 
rate.
    The unemployment rate on our Indian Reservations is more 
than triple that. We desperately need jobs. The Resolution 
Copper project and their extended impact will put over 5,000 
people into high-paying jobs. This is a jobs bill, gentlemen.
    This project alone will yield more than $8 billion in new 
tax revenue to the Federal Treasury, and another $2 billion to 
the State, county, and local governments. As Senator Kyle put 
it, this legislation is a stimulus without a handout.
    Last, as you know, Mr. Chairman, H.R. 1904 brings over 
5,000 acres of unique and valuable conservation properties into 
public ownership, which includes a 3,050 acre 7B Ranch as Dr. 
Gosar mentioned.
    The Nature Conservancy identifies this land as one of the 
top conservation priorities on the San Pedro River. I urge you 
and your Members to join me and the citizens of Pinal County in 
support of this project, and quickly adopt H.R. 1904.
    Thank you again for the opportunity to testify. I look 
forward to any questions that you or the Committee might have. 
Thank you.
    [The prepared statement of Mr. Martyn follows:]

    Statement of Supervisor Bryan Martyn, Pinal County, on H.R. 1904

    Mr. Chairman and Members of the Subcommittee:
    My name is Bryan Martyn. I serve as the Vice Chairman of the Pinal 
County Board of Supervisors. I am honored to testify before you today. 
I would also like to thank my good friend and our congressman, Dr. Paul 
Gosar, for inviting me to testify.
    Prior to holding elected office, I served our country for 20 years 
as an Army AH-64 Apache helicopter pilot and as an Air Force Special 
Operations helicopter pilot. I fought in Desert Storm, Bosnia and 
served two tours in Iraq and Afghanistan. Although my service often 
took me to foreign lands, I always yearned for the day to return home 
to Arizona to serve my country in another capacity. For this reason, I 
have stayed active in the issues that are critically important to my 
community. There are few issues that are more critical to Pinal 
County's economic growth, stability and quality of life than H.R. 1904.
    Mr. Chairman, I would be remiss if I didn't personally acknowledge 
Pinal County Board Chairman Pete Rios who was originally slated to 
testify here today. He is home with his daughter who is due to give 
birth any day now. Nevertheless, I want to convey his strong support 
for H.R. 1904. Our third Board member, David Snider, also strongly 
supports this legislation. My Board is comprised of two Democrats and 
one Republican. My point is simple: this issue is not about politics; 
it's about enhancing the quality of life of the citizens in Pinal 
County and Arizona.
    Allow me to give a brief background about Pinal County. It is 
located in the center of the state between Arizona's two largest 
counties, Maricopa (Phoenix) and Pima (Tucson) and is slightly larger 
than the state of Connecticut in area (approximately 5,386 square 
miles). In 1965, Pinal County's population was around 60,000. By 2000, 
the population had tripled to over 181,000. Today's population has 
exploded to more than 375,000 and by 2050 the population is estimated 
to be nearly two million people. There are over 3,000 counties in 
America. Pinal County is the second fastest growing county in the 
nation and it appears that this growth will continue for the 
foreseeable future.
    Pinal County is defined by two distinct regions. The mountainous 
eastern part of the county is characterized by elevations as high as 
6,000 feet and a predominance of copper mining that brings good-paying 
jobs to the area. The western part of the county is primarily low 
desert areas where irrigated farming has been the dominant feature of 
the land.
    Only 25 percent of the land in Pinal County is privately owned. The 
other 75 percent is owned by federal, state or Tribal entities (35 
percent is State Trust Land, 20 percent is Indian communities, 11 
percent is BLM land, 6.5 percent is national forests, and 2.5 percent 
is parks/monuments). Consequently, the property tax base for the county 
is extremely modest. The rapid influx of residential property has 
outpaced retail and industrial properties. This growth has put severe 
strains on critical infrastructure needs, such as transportation, 
water, and energy services.
    Mr. Chairman, please let me explain why this legislation is so 
critical to Pinal County and why our Board has made this our top 
priority.
    First, as someone who grew up in Arizona, I believe that the things 
that made our state what it is today, in particular, our five C's--
cotton, copper, cattle, citrus and climate--should continue to be our 
state's lifeblood. Over the past forty years, the new ``C'' of 
construction has changed the economic dynamic of the state. We have 
lost some of our diversity and because of the economic downturn, the 
state and County budgets have drowned our ability to provide some of 
the most basic services to our constituents. We must explore every 
opportunity to improve the spectrum of economic opportunities in 
Arizona. Copper was once known as ``king''. We now have an opportunity 
to turn Arizona's economy around that would help millions in our state.
    With regard to mining, members of the Committee must understand 
that modern mining has evolved in dramatic fashion. This is not your 
granddad's copper mine. The days of stripping the land are behind us. 
Improvements in safety, operational technology and environmental 
controls clearly set this project apart. Based upon our working 
relationship with Resolution Copper to date, Pinal County believes that 
the Resolution project is going to be one of the most environmentally-
sensitive mines in the nation. We, on the Board of Supervisors, plan to 
hold Resolution to the highest standard of environmental stewardship. 
Resolution Copper has already demonstrated through actions, not just 
lip service, that it is a good partner and dedicated to the residents 
of Pinal County and Arizona.
    I see this in its commitment to education. The first full 
generation of workers for this mine is currently in fourth grade. 
Resolution Copper recognizes this and has obligated funding to local 
schools, community colleges and universities to ensure that the 
workforce in Pinal County has the necessary math, science and 
mechanical skills needed to work in this high-tech mine. It is 
important to note that Pinal County is a truly emerging county. Today, 
one in four of our high school graduates, is the first person in their 
family to graduate high school. The educational focus on math and 
science will change the future of our county.
    Resolution Copper has also operated with consideration for the 
environment. It took over the nearly century-old Magma Mine site in 
Superior which required an extensive environmental cleanup. Resolution 
Copper was not obligated to complete this cleanup for decades, but 
voluntarily jumped headfirst into a $50 million reclamation, which is 
already 60 percent complete. I have personally witnessed its progress 
and can sleep comfortably at night knowing that Resolution Copper's 
actions have ensured that we have a clean, safer, and healthier 
environment for our children and grandchildren.
    In Arizona, we have an old say, ``Whiskey is for drinking and water 
is for fighting.'' Everyone is concerned about water and what water 
source will be used for the life of this project. One of the first 
questions I personally asked Resolution was where it planned to acquire 
water. Mr. Chairman, I was pleased to hear that Resolution Copper has 
been banking water and will have secured the entire water supply for 
the life of the project before the first ounce of copper comes out of 
the ground.
    Additionally, Resolution has already spent literally millions of 
dollars on water studies in the area to date. These studies have 
indicated that there will be no impact on the water supply of Superior, 
Globe-Miami, San Carlos or any other community. It is because of this 
that I am certain that the future of the regional water supply is 
secure.
    I should also point out that water quality is one of my primary 
``quality of life'' concerns. Resolution Copper's activities will be 
closely monitored by the Arizona Department of Environmental Quality 
(ADEQ), under authority delegated to it by the United States 
Environmental Protection Agency (EPA). In Arizona, our water quality is 
regulated at standards that meet or exceed EPA requirements. These 
standards are non-negotiable. Resolution Copper must meet or exceed 
these standards if they want to operate in Arizona.
    Most importantly, Mr. Chairman, we cannot ignore the massive 
economic benefits this project will bring. Pinal County and Arizona 
have a potential windfall in our backyard that will offer much needed 
job and economic opportunities. Pinal County currently has a nearly 15 
percent unemployment rate. The unemployment rate on our Indian 
reservations is more than triple that number. We desperately need jobs. 
The Resolution Copper project will put over 1,400 people into high-
paying jobs. These jobs have the potential to create more than $40 
billion in economic activity.
    As elected leaders, it is critical that we send a positive message 
about economic development to our citizens and to the world. Namely, 
that Pinal County, Arizona, and America are open for business. This 
project alone will yield more than $8 billion in new revenue to the 
federal treasury and another $2 billion to state, county and local 
governments. As Senator Jon Kyl puts it, this legislation is ``a 
stimulus without a handout.''
    Pinal County has not been immune to the negative effects of the 
recent recession. While still growing, the County yearns for good, 
high-paying jobs. The Resolution Copper project is one of the biggest 
economic development projects in Arizona and the largest in Pinal 
County. The average annual projected pay is slated to be approximately 
$70,000 per year for a County that has double-digit unemployment and an 
average wage that is less than half of what Resolution Copper will 
provide its employees.
    Lastly, as you know, Mr. Chairman, H.R. 1904 brings over 5,000 
acres of unique and valuable conservation properties into public 
ownership. This includes the 3,050 acre 7B Ranch property parcel in 
Pinal County that covers seven miles on both sides of the renowned San 
Pedro River, and immediately abuts conservation lands downstream from 
it that are managed by The Nature Conservancy and others. The 
Conservancy has observed that the 7B Ranch is one of the top three 
conservation priorities on the entire river, and is part of one of, and 
I quote, ``most critical and irreplaceable migration corridors in the 
western hemisphere for neo-tropical birds''.
    In many ways, this legislation exemplifies why we chose this 
profession; to improve the quality of life of our constituents. This 
project represents all we value as Americans: stewardship of our 
environment, improved education of our children and our workforce, 
enhanced economic prosperity and the ability to make a better future 
for those around us.
    I urge you to join me and the citizens of Pinal County in support 
for this project, and I urge the Committee to quickly adopt and pass 
H.R. 1904.
    Mr. Chairman, thanks again for the opportunity to testify before 
you today. I look forward to any questions the Subcommittee may have.
                                 ______
                                 
    Mr. Bishop. Thank you. Mr. Cherry.

           STATEMENT OF JON CHERRY, VICE PRESIDENT, 
                    RESOLUTION COPPER MINING

    Mr. Cherry. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to speak with you today about 
this very important bill. My name is Jon Cherry, and I am Vice 
President for Resolution Copper Company, a United States 
corporation headquartered in Superior, Arizona, and a 
subsidiary of Rio Tinto, one of the largest mining companies in 
the world.
    I am here today in support of H.R. 1904, which directs a 
land exchange to consolidate ownership of the land where we 
plan to invest over $6 billion of private capital to develop a 
major copper mine, which would create more than 3,700 badly 
needed mining jobs in Arizona.
    My desire today is to impress upon you three important 
reasons why the exchange deserves your support. First, the 
demand for copper is a critical building block for the national 
security, and our modern standard of living.
    Second, the economic significance of this project for the 
local community, the State, and our country, and third, to give 
you confidence that we will operate in a responsible and 
sustainable manner, and that we can and will comply with all 
regulatory requirements.
    Copper is fundamental to our modern society, and has an 
ever increasing role in the new green economy and green energy 
applications, as we cannot have electricity without copper. 
Unfortunately, the United States' dependence on foreign copper 
has been on the rise for many years.
    In fact, we currently import about 30 percent of our 
demand. If we do not continue to explore and develop our 
domestic resources, our dependence on foreign resources will 
only increase.
    The copper resource that we discovered and want to mine 
near Superior is one of the most significant copper resources 
to ever be found in North America. In fact, it is the third 
largest known undeveloped copper deposit in the world.
    It has the capacity to meet 25 percent of the Nation's 
copper demand for many decades based on current demand and 
usage, which leads me to my second point, the economic 
importance of this mine.
    Jobs are at the heart of this project. Earlier this year, 
Resolution Copper commissioned Pollack and Associates to update 
an economic impact study to evaluate the benefits of our 
project on the local and State economy.
    The study found that a $6 billion investment to construct 
the mine will lead to 3,700 jobs and $220 million in annual 
payroll. This does not include the benefits from the additional 
land that the Town of Superior will gain as part of the 
exchange, which means hundreds of additional jobs and millions 
of dollars of additional revenues and taxes.
    Over its lifetime, it is estimated that the mine will have 
a total economic benefit to the State of Arizona of $61 
billion, and will generate tax revenue of nearly $20 billion, 
of which $14 billion is expected to go to the Federal 
Government.
    While the economic benefits are significant, there are net 
environment gains as well. In exchange for the 2,400 acres of 
Federal land, Resolution Copper will transfer eight parcels of 
privately held land to the United States Forest Service and 
BLM, totaling about 5,300 acres.
    These are highly desirable conservation lands that host the 
most important river basin and endangered species habitats. 
These lands were selected after consultation with the United 
States Forest Service, the Bureau of Land Management, The 
Nature Conservancy, Audubon, and other conservation groups.
    It is worth noting that two of these parcels would be 
included in national conservation areas. On the other hand the 
Federal land Resolution Copper gains in the exchange is 
underlined and surrounded by current and historic mining 
operations, some of which are more than a hundred years old in 
an area known as the Copper Triangle, which is shown here on 
the map above you.
    This map illustrates why it is called the Copper Triangle. 
You can see current and historic mining operations everywhere 
you look, including the historic site where the new mine is 
proposed.
    Just as important are the existing infrastructure that are 
already in place at in the surrounding mine site. The point 
that I want to leave you with is that the Federal land that is 
part of this exchange is located in an area of a historic 
mining district that will continue to have mining and produce 
copper for many decades into the future.
    Now for my third and final point. We are profoundly aware 
of the responsibility entrusted in us to be a good steward of 
the land. The mining industry has made tremendous advancements 
in recent years, both in technology and in the way that it 
approaches the social and natural environment, and I am proud 
to say that my company has been at the forefront of many of 
those changes.
    We are completely committed to constructing and operating a 
safe and environmentally responsible mine. That is why we 
support and want everyone to be aware that prior to the land 
exchange being completed that compliance with all applicable 
Federal statutes is required, including most of the same ones 
that are required by NEPA.
    Among others, this includes the National Historic 
Preservation Act, Section 106, Consultation with Native 
American Tribes; and Section 7, Endangered Species Act 
Consultation With the United States Fish and Wildlife Service.
    In conclusion, we believe that we have a project that will 
produce a large domestic supply of a critical metal that is the 
fundamental building block for the modern world, and will 
create more than 3,700 desperately needed mining related jobs, 
generate more than $20 billion in taxes, and benefit the 
economy of the State of Arizona by $61 billion over the life of 
the project, and do all of this in an area with over a hundred 
years of historic mining activities, and in a way that 
minimizes impacts to the environment, and adds valuable avian 
and wildlife habitat to the Federal domain.
    It is for these reasons that the land exchange embodied in 
H.R. 1904 should be advanced at its earliest possible date. 
Thank you again for the invitation to speak with you today, and 
I would be happy to answer any questions.
    [The prepared statement of Mr. Cherry follows:]

               Statement of Jon Cherry, Vice-President, 
                Resolution Copper Company, on H.R. 1904

    Mr. Chairman and Members of the Subcommittee,
INTRODUCTION
    Thank you for the opportunity to speak with you today about this 
very important bill. My name is Jon Cherry and I am Vice-President of 
the Resolution Copper Company, a U.S. Corporation headquartered in 
Superior, AZ and subsidiary of Rio Tinto, one of the largest mining 
companies in the world. Resolution Copper Company is the managing 
partner of the Resolution Copper Mining LLC, an LLC owned jointly 
between Rio Tinto (55%) and BHP Billiton (45%), and referred to as 
Resolution Copper throughout this testimony. I am here today in support 
of H.R. 1904, which directs a land exchange to consolidate ownership of 
the land where we plan to invest over $6 billion of private capital to 
develop the third largest known underground copper deposit in the 
world, while creating over 3,700 badly needed mining jobs in Arizona.
    Please note, as shown on my first display that we already own valid 
mining claims on roughly 70 percent of the land we are seeking to 
acquire. We estimate that the copper produced from this project will 
produce 25 percent of the U.S. copper demand (based on current demand) 
for more than 40 years from a secure and environmentally responsible 
domestic source.
THE LOGIC OF THE EXCHANGE
    The land exchange of H.R. 1904 transfers 2,422 acres of National 
Forest land into our ownership which is underlain and surrounded by 
current and historic mining operations and mining claims, some of which 
are more than 100 years old. Simultaneously, Resolution Copper 
transfers approximately 5,300 acres in eight different privately held 
land parcels to the government to be managed by the USFS or BLM. With 
these eight properties, this land exchange will result in very 
significant net gains to the United States in:
        1)  river bottoms and riparian lands;
        2)  habitat or potential habitat for several threatened, 
        endangered or sensitive plant and animal species;
        3)  areas identified as national and international important 
        bird habitat by the Audubon Society and Bird Life 
        International;
        4)  public recreational opportunities;
        5)  year-round water resources--a rarity in many parts of 
        Arizona; and
        6)  protection of the important geographic feature of Apache 
        Leap.
    As a company we recognize that mining disturbs the land. However, 
we believe in a sustainable development approach to mining, and more 
than seven years ago began the process to identify and secure lands for 
long-term conservation and habitat protection as an offset and 
improvement to the federal land within the mining district that would 
be disturbed as a result of our operations. To accomplish this, we went 
first to the Forest Service, BLM, Nature Conservancy, Audubon Society, 
Trust for Public Land, Arizona Game and Fish and others interested in 
land conservation to ask them where mitigation lands might be located. 
As a result of their input, we now own eight parcels of land, totaling 
more than 5,300 acres which we will be conveying to either the BLM or 
Forest Service in the exchange. These include:
        <bullet>  the 3,050 acre 7B Ranch running for 7 miles along 
        both sides of Arizona's renowned San Pedro River. The Nature 
        Conservancy is currently managing the 7B for us together with 
        adjacent land it owns. The 7B lies along one of the most 
        important migratory bird corridors in the entire United States 
        and also has what may be the largest ancient mesquite bosque, 
        or forest, in the entire southwest;
        <bullet>  the 940 acre Appleton Ranch which the National 
        Audubon Society manages for us until it can be conveyed to the 
        BLM for addition to the Las Cienegas National Conservation 
        area. It is an extremely diverse area biologically, boasting 
        more than 90 native grass species and 470 native plant species;
        <bullet>  a 640 acre in-holding along East Clear Creek in the 
        Coconino National Forest near Flagstaff, including 2 miles of 
        trout stream and other habitat for a variety of sensitive fish 
        and wildlife species; and
        <bullet>  5 other in-holdings in the Tonto National Forest that 
        are long-time Forest Service acquisition priorities.
    Lands were also identified to help provide the Town of Superior 
with the opportunity for economic growth.
    The goal of the land exchange is quite simple. It consolidates our 
ownership of the land where we will be developing and operating the 
mine. As the map shows, the current fragmented land ownership pattern 
between Resolution Copper and the Forest Service is a logistical and 
regulatory jumble. It serves neither public nor private interests, and 
due to operational and safety considerations, continued Forest Service 
ownership of the land will not benefit the public, recreationally, or 
any other way, once the physical mining operation begins.
    Display #2 is what is known as the Copper Triangle in Arizona. The 
three points of the triangle are anchored by the old mining towns of 
Globe/Miami, Hayden/Winkleman and Superior all of which have active 
copper mines except Superior. However, the old Magma mine at Superior 
is the platform from which Resolution Copper is launching its new 
mining project. Our project incorporates some of the old surface and 
underground workings and infrastructure of the Magma Mine, and is 
located right in the middle of the Copper Triangle. Running counter-
clockwise, you can see Asarco's very large Ray Mine in the center of 
the triangle, then Asarco's Smelter and tailings in Hayden to the 
right, the Christmas Mine to the north of Winkleman, the Globe and 
Miami area open pit mines to the west, including the very large 
Freeport-McMoRan mine, BHP mine and Carlota and BHP Pinto Valley 
Mines--the latter of which is a possible location for the tailings from 
our mining operation, where we could fill up existing open pits and 
reclaim them.
    Display #3 is a close-up of the Resolution Copper project site 
which shows even more of the existing infrastructure in detail, 
including all of the various drill holes that have been drilled in the 
area, including areas where 67 new exploratory holes have been drilled 
since 2001 shown by pink dots. The point I want to leave with you is 
that the federal land that is part of this exchange is located in an 
area of a historic mining district that will continue to have mining 
and produce copper for many decades into the future. Conversely, the 
land Resolution Copper would trade to the government is significantly 
larger and contains lands of much higher conservation and habitat 
value, but which also will benefit the public for generations to come.
    Finally, I have three photos of the mine site which were taken just 
last month. The first shows the mine site in dead center, with the Town 
of Superior to the right, Asarco's very large open pit Ray Mine to the 
south. . .(it has been continuously producing copper since 1880). . 
.and other mines to the north. The second photo shows a closer view, 
with the mine site in the lower right. You can see our head frame and 
shafts and the numerous roads which cross the area. The last photo is a 
composite panorama which shows various other mines, roads, transmission 
lines, the large power substation near the mine and the Town of 
Superior. As you can see, one could not find a better place to build a 
new mine with all the existing infrastructure that already exists in 
the area.
ECONOMIC AND NATIONAL IMPACT
    Earlier this year Resolution Copper commissioned Pollack & 
Associates to conduct a new economic impact study to evaluate the 
impacts of our project to the local and state economy. A copy of the 
executive summary of this report is included with the written 
testimony, but I would like to highlight a few important statistics 
from this report.
    As a result of the $6 billion dollar investment to construct and 
operate the mine, the following would occur:
        <bullet>  Jobs Created--over 3,700 jobs related to mining
                <all>  During our current engineering studies 
                approximately 100 Resolution employees have full time 
                jobs and more than 400 contractors are on site on a 
                daily basis
                <all>  1400 direct high-paying mining jobs would be 
                created in the future
                <all>  More than 2300 indirect mining employment jobs 
                would be created in the future
                <all>  Potential for hundreds more jobs in Superior 
                from the land that the town acquires from the land 
                exchange which will be used for economic development
        <bullet>  Economic Impact to the State of Arizona
                <all>  $61 billion life of mine impact from mining
                <all>  $960 million average annual impact from mining
        <bullet>  Taxes
                <all>  $19 billion in federal, state and local taxes 
                over the life of project from mining
                <all>  $14 billion of which is in federal taxes
FAIR VALUE OF THE EXCHANGE
    I should also mention that even though the proposed land exchange 
will utilize all aspects of the established Federal appraisal process, 
we have added Section 6 to the bill to ensure that the United States 
will not be short-changed if the appraisers are wrong about the volume 
of copper we will acquire in the exchange. Section 6 says that if we 
ever produce more copper from the land than is anticipated in the land 
exchange appraisal, we will make a value adjustment payment to the 
United States on any excess production. Thus, even if the Federal land 
appraisal is off to some degree, the United States will receive full 
economic value for the minerals it conveys to us. Conversely, if the 
land that Resolution Copper provides to the government as part of the 
exchange is determined to be more valuable than the land it receives, 
Resolution Copper will donate that difference to the government. In 
addition, Resolution Copper has secured an additional property to 
replace the Oak Flat campground and is working with the Town of 
Superior to ensure that recreational camping and related activities can 
continue in the area.
RESPONSIBLE MINING
    Creating jobs, mining and protecting the environment are not 
mutually exclusive positions. Recognizing that society needs the metals 
and jobs that we produce as well as a healthy environment requires that 
appropriate study, planning and mitigation be considered and 
incorporated into any mine design. Resolution Copper has already spent 
more than $33 million to date studying the hydrogeology in and around 
the mine project, and has drilled more than 30 holes in the area to 
assess the water resources. These activities so far show little if any 
impact to local water quantity or quality from the new operations, 
including no impact to the San Carlos Apache Reservation, the western 
boundary of which is located more than 20 miles further to the east of 
the project site, and which is also separated from our project by a 
7,800 foot tall mountain range. We built a new $10 million water 
treatment plant to treat water from the old underground mine workings 
that we are dewatering and are putting that water to beneficial use 
with local farmers for irrigation. We have spent more than $30 million 
cleaning up and reclaiming the old mine site in Superior as part of a 
$50 million reclamation program--work that by law isn't required to be 
implemented for decades. We have also purchased and banked 
approximately 240,000 acre-feet of water for potential future 
operations. We have conducted numerous flora, fauna and cultural 
resources studies. All of these data and studies will be incorporated 
into a mine plan of operations that will be submitted to regulatory 
agencies for the NEPA process as well as various federal, state and 
local agency permits.
    As part of the land exchange, it is worth noting that Resolution 
Copper is also transferring more than 100 acres of privately held land 
to the government as well as foregoing any mining beneath the 
geographic feature know as Apache Leap to help secure long-term 
protection of and create a buffer for this important geographic 
feature.
CONCLUSION
    In conclusion, our nation has been struggling through the worst 
economic downturn since the Great Depression. We have been losing many 
manufacturing jobs, raw materials production and tax revenues to 
overseas endeavors. Thus, we believe that when an opportunity comes 
along to develop a very large mine from a reliable domestic source that 
produces a metal that is vital to our national security and modern 
lifestyle. . .and that source is in a location where significant 
development infrastructure already exists. . .and where there appear to 
be minimal environmental conflicts, we should avail ourselves of the 
opportunity. Copper, the metal that will be produced from this mine, is 
the fundamental building block for the new green economy including 
hybrid and electric cars, solar panels, wind turbines and smart grids.
    We know that the temptation always exists for some to say ``put it 
over there, not here'', and that there is no place where a large 
development can be located without some impact on the environment. 
However, you can only mine where the mineral is found and we believe we 
are truly fortunate to have found such a large mineral resource in an 
area where developing it will have minimal adverse impacts and at the 
same time such tremendous benefits.
    Our project will:
    <bullet>  produce a very large amount of a critical metal right 
here at home that is the fundamental building block for the new green 
economy including hybrid and electric cars, solar panels, wind turbines 
and smart grids;
    <bullet>  create more than 3,700 mining related jobs that are 
desperately needed in an area of high unemployment; with hundreds of 
other potential non-mining related jobs
    <bullet>  generate more than $19 billion in tax revenues to 
Federal, State and local government coffers;
    <bullet>  benefit the economy of the state of Arizona by $61 
billion over the life of the project from these mining related jobs
    <bullet>  add valuable avian, wildlife and plant habitat to the 
Federal domain; and
    <bullet>  do all of that in an area with over 100 years of historic 
mining activities and in a way that minimizes impacts to the 
environment.
    If we as a nation are truly serious about creating new jobs with 
private investment, reducing long-term budget deficits, and producing 
here at home rather than abroad the base metals that serve our national 
interests, then the land exchange embodied in H.R. 1904 should be 
advanced at the earliest possible date. To do otherwise, and to 
continue to subject it to prolonged study and delay will only serve the 
interests of those who, while perhaps well intentioned, cannot see 
their way to any significant natural resource production, and in so 
doing ship our jobs, tax revenues and resource production overseas. I 
know that is a strong statement, but I believe it comports with today's 
realities.
    Thank you again for the invitation to share our views with you 
today and I would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you. President Lewis.

 STATEMENT OF HON. SHAN LEWIS, PRESIDENT, INTER TRIBAL COUNCIL 
      OF ARIZONA, VICE-CHAIRMAN, FORT MOJAVE INDIAN TRIBE

    Mr. Lewis. Good morning. Thank you, Chairman Bishop, and 
Ranking Member Grijalva, and Members of the Subcommittee. My 
name is Shan Lewis, and I serve as President of the Inter 
Tribal Council of Arizona, which includes 20 Federally 
recognized American Indian Tribes, Nations, and Communities.
    I am also the Vice Chairman of the Fort Mojave Indian 
Tribe. The Inter Tribal Council opposes H.R. 1904. In fact, 
tribes from all over the country have expressed their 
opposition to this bill because threats to our sacred sites in 
Arizona present a threat to all sacred sites across the 
country.
    Mr. Chairman, I would like to announce several tribal 
leaders who are here from the San Carlos Apache Tribe, Chairman 
Terry Rambler, Councilperson Theo Ebsen, and former Chairman 
and current Councilperson Windsor Nelson, Senior. Also present 
from the Fort McDowell Yavapai Nation is Councilperson 
Treasurer Ms. Pamela Mile.
    As written, H.R. 1904 would transfer 2,400 acres of tribal 
ancestral lands at Oak Flat to two foreign mining giants, Rio 
Tinto and BHP. Rio Tinto is owned in part by China. These lands 
are fundamental to the religions traditions and culture and, in 
fact, identify the members of the Yavapai-Apache and Zuni 
Tribes, among others.
    It is disturbing that the land exchange would take place 
and forego the trust responsibilities of the United States to 
Indian tribes as manifested in treaties, Executive Orders, 
Federal laws, and other policies that are intended to recognize 
and protect American Indian religion and culture.
    While it may be difficult for non-Indians to understand, it 
is equally difficult for us to convey the profound importance 
of this area. As Yavapai and Apaches have explained, spiritual 
beings, Gah, exist within Oak Flat, and would be affected by 
this bill.
    The Gah live and breath within this place. Under the bill, 
Oak Flat would become the property of foreign corporations. It 
is indeed shocking to us to consider that Congress would allow 
our ancestral lands to be wholly owned by foreign interests, 
who have no conception of Native American religious values, 
culture, and history.
    H.R. 1904 calls for government-to-government consultation 
with Indian tribes, but only after the enactment of the Act. 
However, once in private ownership, Oak Flat would lose 
virtually all Federal protection and will face near certain 
destruction.
    Under this bill no mitigation is possible, and alternatives 
would not be considered, and the views of Native Americans will 
have no impact. Essentially, consultation will be nothing more 
than a hollow promise for our people.
    Every American understands that the desecration of any one 
religion affects all religions. The United States Constitution 
guarantees freedom of religion. Doesn't the religion of Native 
Americans deserve the same protection?
    Fundamental to the integrity of the entire Oak Flat area is 
the presence of water. Water is life giving and has always been 
recognized, respected, and honored by our people. H.R. 1904 
does not require any studies of the impact of their massive 
mining project on the regional water supply through depletion, 
pollution, and other harms caused by the project.
    Water is more precious than copper, more precious than 
gold. Without water the entire ecosystem of Oak Flat will 
collapse and destroy the integrity of this place as a sacred 
site forever.
    Some characterize H.R. 1904 as a jobs bill. However, we 
question the number and types of jobs to be created by this 
mine. Rio Tinto stated that the proposed mine will be highly 
automated. Automation of this type substantially reduces the 
number of workers that have in the past been needed for metal 
mining.
    Regardless of Rio Tinto's promise of jobs, such jobs cannot 
replace Oak Flat. In conclusion, there are times that the 
government should just say no, and this is one of them. This 
type of mining in this location simply should not occur.
    This mining proposal under H.R. 1904 raises too many 
questions. These questions will not be resolved, and may never 
be explored because the bill turns the land over to Rio Tinto 
before there can be a hard look at the consequences of this 
action.
    Our children and future generations of all citizens of 
Arizona will suffer as a result. We urge this Subcommittee to 
not move forward with H.R. 1904. We have some additional 
information that we would ask be submitted for the record. 
Thank you, and I would be happy to answer your questions.
    [The prepared statement of Mr. Lewis follows:]

 Statement of Shan Lewis, Vice Chairman, Fort Mojave Indian Tribe, and 
  President, Inter Tribal Council of Arizona, on behalf of The Inter 
                 Tribal Council of Arizona on H.R. 1904

    Mr. Chairman and Members of the Subcommittee:
    Mr. Chairman, Subcommittee Members and Guests. Good Afternoon. My 
name is Shan Lewis, Vice Chairman, Fort Mojave Indian Tribe, and 
President of the Inter Tribal Council of Arizona (ITCA). My Tribe is a 
member of the Inter Tribal Council of Arizona.
    I speak today on behalf of the Inter Tribal Council of Arizona 
which consists of 20 federally recognized American Indian Tribes, 
Nations and Communities with lands within the State of Arizona, New 
Mexico and California. We join together on matter of tribal, national, 
and statewide importance to the Tribes.
    H.R. 1904, introduced on May 13, 2011, by Representative Gosar and 
various co-sponsors, would allow Resolution Copper--a joint venture of 
foreign mining giants Rio Tinto and BHP Billiton (collectively, ``Rio 
Tinto'')--to secure private ownership of over 2,400 acres of U.S. 
Forest Service lands and the purported domestic copper supplies located 
underneath these lands in order to facilitate an unprecedented large-
scale block cave copper mine in the Oak Flat region, which is bounded 
by portions of Apache Leap and Gaan (``Devil's'') Canyon, and which 
includes the 760 acre Oak Flat Withdrawal (collectively ``Oak Flat''), 
which is within the ancestral lands of Western Apache and Yavapai 
tribes. You should also consider that 9% of RioTinto, the controlling 
interest in Resolution Copper, is currently held by China, by and 
through its state-controlled Aluminum Corporation of China, known as 
Chinalco. If the exchange goes through, China will end up holding a 
4.5% private interest in the ancestral lands of certain American Indian 
Nations in Arizona, so that they can mine this land with virtual 
impunity. A legislative transfer of land in essence to a foreign 
government as presented by H.R. 1904 is offensive to us and to the rest 
of the country.
    The Oak Flat region remains today a place of profound religious, 
cultural, and historic significance to the San Carlos Apache Tribe, the 
White Mountain Apache Tribe, the Fort McDowell Yavapai Nation, the 
Yavapai-Apache Nation, the Tonto Apache Tribe and other American Indian 
Nations.
    Because of its importance to these American Indian tribes, nations 
and communities, the Oak Flat region, as well as specific places within 
the Oak Flat Withdrawal area, are eligible for inclusion in, and 
protection under, the Section 106 of the National Historic Preservation 
Act, 16 U.S.C. Sec. 470 et seq. (``NHPA''). Further, Oak Flat meets the 
criteria to be identified as a ``sacred site'' within the meaning of 
Executive Order 13007, Indian Sacred Sites, May 24, 1996, 61 Fed. Reg. 
26771 (``E.O. 13007''), as well as pursuant to the American Indian 
Religious Freedom Act, 42 U.S.C. Sec. 1996, et. seq. (``AIRFA''), and 
related laws, regulations and policies.
    Oak Flat should not be transferred to the ownership of Rio Tinto in 
order to facilitate a block cave mine on and underneath these lands. 
Transfer of these lands to Rio Tinto for mining purposes will deplete 
and contaminate water resources from nearby watersheds and aquifers and 
result in the collapse of the Earth, irrevocably damaging the landscape 
of Oak Flat, and the wildlife, plants and other natural features of its 
ecosystems and, thereby, the very integrity of Oak Flat relative to its 
crucial role in American Indian religion, traditions, and culture. Our 
strong unity on these points is underscored in numerous ITCA 
Resolutions on this matter (see enclosed).
    Through Congressional action, H.R. 1904 lifts the Oak Flat 
Withdrawal, which has protected these publicly owned lands for the 
American and American Indian peoples since 1955, when President 
Eisenhower signed BLM Public Land Order 1229. This Order specifically 
put Oak Flat off-limits to all future mining activity, despite its 
presence in a known mining district. In fact, although President Nixon 
issued BLM Public Land Order 5132 in 1971 to modify PLO 1229 he 
expressly precluded any form of appropriation of Oak Flat ``under the 
U.S. mining laws.'' These two executive orders--from two different 
Republican administrations--both mandated that these lands were to be 
preserved in perpetuity with special emphasis on prohibiting mining 
activities at Oak Flat. There is no compelling reason for these Orders 
to be overturned today, especially to benefit two foreign mining 
interests.
    Although the Inter Tribal Council of Arizona is not opposed to 
mining in general, this form of mining and mining in this location is 
highly offensive to us, and would pose a danger to many important 
values of this region.
    The 20 member Tribes of the ITCA therefore oppose H.R. 1904 and 
mining activities at Oak Flat.
Cultural and Religious Effects of the Proposed Exchange
    Congress has enacted legislation to protect the religious, cultural 
and social integrity of Indian people. This was to ensure (among other 
things) that the policies and procedures of various Federal agencies, 
as they may impact the exercise of traditional Indian religious 
practices, are brought into compliance with the constitutional 
injunction that Congress shall make no laws abridging the free exercise 
of religion.
    It is important to understand that the religious and cultural 
importance of the Oak Flat area does not only reside in isolated spots 
but also in the integrity of the ecosystem and environment of the area 
as a whole. Thus, impacts to any part of Oak Flat have an impact on the 
religious and cultural integrity of the area as a whole--both as a holy 
and religious place and as a place of continued traditional and 
cultural importance to Apache, Yavapai, and other indigenous people.
    For example, Apache People call Oak Flat ``Chich'il Bildagoteel,'' 
or ``a Flat with Acorn Trees'' and it lies at the heart of T'iis Tseban 
Country, which is associated with at least eight Apache clans and two 
Western Apache bands--the Pinal Band and the Aravaipa Band. Oak Flat 
area is called Gohwhy Gah Edahpbah by the Yavapai people. Oak Flat has, 
for generations, played a crucial role in the exercise of Apache 
religious, traditional, and cultural practices, and these practices 
continue to this day. Since time immemorial these tribes have performed 
a variety of deeply ceremonial dances on these highly cherished 
grounds. Oak Flat has long been used--and is used today--for religious 
ceremonies and its existence continues to enhance the lives of Apaches 
and Yavapais.
    The oak groves at Oak Flat have always provided an abundant source 
of acorns that serve as an important food source for the Apache people. 
There are also hundreds of traditional Apache plants and other living 
things in the Oak Flat area that are crucial to Apache religion and 
culture. Some of these plants are common and some are among the holy 
medicines known to and harvested by only gifted Apache herbalists. 
Similarly, Yavapais also have relied on the abundance of Oak Flat for 
physical and spiritual sustenance. While these plants can be gathered 
in other areas, only the plants within the Oak Flat area are imbued 
with the unique power of this area.
    Allowing Rio Tinto to conduct block cave mining at Chich'il 
Bildagoteel (Oak Flat) will destroy the living things and ecosystems 
that are associated with the Holy Beings that Apaches depend on, in 
particular a certain kind of Gaan--all powerful Mountain Spirits--with 
whom the Oak Flat area is associated. These Holy Beings are among the 
most powerful, and they must be respected if the Apache people are to 
receive their power. Without their power, the Apache people cannot 
conduct their ceremonies and they become vulnerable to a wide variety 
of illness. The mining that will be facilitated by this land exchange 
legislation will also adversely impact the power of the plants that 
Apaches harvest and use within the Oak Flat area for ceremonial, 
religious, medicinal, and other purposes. The Yavapai are connected to 
this land in ways that cannot be expressed through the English word. 
The land and its presence is apart of who they are and defines them as 
a People. Their language reflects their consecutiveness to the land. 
Once the land is gone part of their language will die forever.
Oak Flat Should Not be Sacrificed In Exchange for Other Lands Selected 
        by Rio Tinto and Offered to the United States
    To build support to the block and cave mining operations, Rio Tinto 
proposes the acquisition and conservation of a handful of land parcels 
scattered in other locations within Arizona.
    While some of these offered lands may have value for the American 
public, none of them have been recognized through their previous 
withdrawal by Executive Order, like the Oak Flat area, nor do they have 
the totality of values as a sacred site or traditional cultural 
property recognized by American Indians.
    Moreover, if the offered parcels are as meritorious and deserving 
of conservation and public use, as Oak Flat was determined to be over 
50 years ago by President Eisenhower, those who seek the conservation 
of these parcels should look for funding help from such potential 
resources as the Land and Water Conservation Fund, The Conservation 
Fund, The Nature Conservancy, The Trust For Public Lands, the Paul 
Allen Foundation and others--not by sacrificing lands at Oak Flat. No 
one should attempt to, nor can they, put a price on the value of an 
intact and healthy ecosystem within the Oak Flat area or its adjacent 
lands, or on safe drinking water, or the protection of spiritual, 
religious, cultural, and archeological values. The United States, as 
Trustee for all American Indians should not attempt to trade away these 
priceless values in order to facilitate the cheapest method of mining, 
which in the end has exclusive benefit for Rio Tinto (including China) 
and BHP and their shareholders.
    It is highly disappointing, and indeed disturbing, that H.R. 1904 
has simply cast aside the valid concerns of American Indians regarding 
the need to protect the religious, cultural and traditional 
relationship of indigenous peoples to the Oak Flat region.
Block Cave Mining Impacts and the Collapse and Destruction of the Oak 
        Flat Area
    As noted above, and in prior testimony on this proposed exchange 
during the 111th Congress, the ITCA is not opposed to mining in 
general. We are, however, strongly opposed to block and cave mining in 
this location. Block and cave mining here would (among other things) 
collapse the surface area on public lands, destroy the integrity of the 
Oak Flat as a traditional cultural property and sacred site, and 
endanger the water supplies of Gaan Canyon, Queen Creek, Queen Creek 
Canyon, and the springs, seeps and other important water features in 
the surround countryside for miles around.
    Rio Tinto has said that the reason for the block and cave mining 
approach is that it is ``cheaper'' for them. While bottom line 
considerations are clearly important to Rio Tinto, the Federal 
Government, our Trustee, must not let such factors pressure it into 
agreeing to destructive practices. Mining experts attest that there is 
no assurance once the ground starts moving in a block and cave mining 
operation that it will not ``run with you'', or result in a collapse 
from the bottom of the operation up to the surface.
    Despite the fact that Apache Leap has been removed from this land 
exchange in H.R. 1904, under the normal requirements for a land 
exchange in accordance with National Environmental Policy Act 
(``NEPA'') and the Federal Land Policy Management Act (``FLPMA''), 
Congress would require federal decision makers to conduct 
interdisciplinary studies and closely scrutinize the inevitable and 
destructive impacts of the mining project on Oak Flat, Apache Leap, and 
nearby Gaan (Devil's) Canyon. They would be required to consult with 
American Indian Tribes and interested members of the public throughout 
the process, and would have the obligation to consider the impact of 
the surface collapse from the mine on Oak Flat and the landscapes found 
in this area as required by the National Historic Preservation Act 
(NHPA) and other laws. As part of this process, the federal decision 
makers would also be required to evaluate the impacts from the collapse 
of the surface at and throughout Oak Flat and the depletion and 
potential contamination of the region's water supplies, and therefore, 
the resulting damage to the traditional cultural and religious elements 
of this landscape and the importance of Oak Flat as a sacred site and 
traditional cultural property. Rio Tinto and BHP Billiton seek to have 
Congress exempt them from virtually all of these important requirements 
of the law through H.R. 1904.
    It should also be noted that while H.R. 1904 would purport to 
prohibit ``commercial mineral extraction'' from under the proposed 
conservation easement, it does not prohibit Rio Tinto from tunneling 
under Apache Leap or from conducting other below ground operations 
directly below the escarpment. In addition, nothing in H.R. 1904 or in 
the ``NEPA'' like review of Rio Tinto's ``mining plan of operations'' 
would require Rio Tinto to cease its mining operations and block caving 
activities at Oak Flat should these operations and activities show 
signs of a more extensive surface collapse than anticipated, including 
the potential damage or violation of Apache Leap. Moreover, RCM makes 
no guarantees that they will prevent such a catastrophe.
    Finally, Apache Leap is only part of the larger sacred site that is 
encompassed by the Oak Flat Under this proposed legislation, Apache 
Leap would eventually be bordered by thousands of acres of land that 
will be irretrievably harmed by the proposed mining project and the 
destruction to the healthy ecosystems of the entire Oak Flat Withdrawal 
area.
The Mining Project Will Dangerously Deplete Groundwater and Surface 
        Water Supplies Throughout the Region
    Water is a source of life for all people. The existence of water at 
Oak Flat, including life-giving springs, seeps and surface supplies, is 
fundamental to the health of Oak Flat's ecosystems and therefore, to 
the religion, culture and very identity of both the Apache and the 
Yavapai people.
    As noted briefly above, however, the massive mining operation to be 
facilitated by H.R. 1904, threatens to dangerously deplete surface and 
groundwater supplies throughout the region--water supplies that are 
already relied upon and desperately needed by others in Arizona. H.R. 
1904 does not require Rio Tinto to perform any modeling or proper 
studies of the impact of their project on the regional water supply and 
hydrology, despite the fact that the 20 member Tribes of the Inter 
Tribal Council of Arizona and other Arizona tribes and nations, 
including the San Carlos Apache Tribe and the Fort McDowell Yavapai 
Nation, have repeatedly requested that an independent agency of the 
federal government, like the U.S. Geological Survey or other federal 
agency or department, conduct such studies. This is particularly 
egregious since Arizona is in its 13th year of drought and the area 
water supplies in this region are under further pressure from growth.
    The copper ore body is estimated at its highest point to be located 
7,000 feet below the surface; however, because the actual surface at 
Oak Flat and Apache Leap already sits between 4,100 feet and 4,600 feet 
above sea level, the top of the massive ore body appears to be actually 
located at approximately 3,000 feet below sea level. Given the depth of 
the ore body throughout the 40 plus years of the mining project, Rio 
Tinto will have to aggressively conduct extensive ``dewatering'' 
activities in order to continually pump and remove the surface water 
and the groundwater from both the shallow alluvial aquifer at Oak Flat 
and the deeper aquifers which will increasingly migrate into the 
enormous cavity created by the removed ore and waste rock (and the 
extensive tunnel system needed for the mine), nearly all of which will 
be located well below the elevation of the streams in the region, and 
will cut through the region's groundwater aquifers. This also means the 
springs in the area that the Apaches and the Yavapai hold sacred will 
be destroyed forever.
    Surface water, tributary groundwater, and aquifers that are located 
above, beside, and beneath the copper ore body will be impacted by 
excavation to create the mining tunnels. Thus, throughout the mining 
process water will constantly migrate to and from the vacant ore body 
and mining tunnels. As this process continues over the decades long 
life of the project, the mine will deplete billions of gallons of water 
from the surface water and groundwater throughout the region, resulting 
in the loss of important seeps, springs and other surface water 
features, and resulting in the gross depletion, and likely 
contamination, of important and unique perennial pools in Gaan 
(Devil's) Canyon, flows to Queen Creek and other surface water 
features, all of which is crucial to maintain the healthy ecosystem of 
Oak Flat and the surrounding area, and therefore the integrity of this 
place as a sacred site and traditional cultural property. Neither Rio 
Tinto nor BHP Billiton have the legal right to disrupt, deplete or 
contaminate this water under any law. Yet, this legislation provides 
for an unprecedented water taking and condones water pollution.
    Further, the alteration of both the subsurface and the surface 
geological structure of this area as the result of the block caving 
process and the imminent surface collapse will alter the natural state 
of the aquifers and surface drainage of the watersheds throughout the 
region forever. Despite the fact that legislation has been pending off 
and on in Congress for almost six years, to date the Inter Tribal 
Council of Arizona has never seen any meaningful studies conducted by 
Rio Tinto or the federal government regarding these impacts to the 
water supplies of the region. These studies are crucial to ensure that 
the dwindling water supplies in Arizona are protected for communities 
and cities downstream including the Phoenix metropolitan area.
    The gross depletion of the local aquifers and the local springs, 
seeps and other water supplies of the Oak Flat area, cannot be 
remediated by ``banking'' Central Arizona Project water elsewhere, 
including in storage facilities near Phoenix and in Pinal County.
    Ironically, at the same time that Inter Tribal Council of Arizona 
and other Indian tribes, nations and communities have raised these and 
related concerns before Congress, Rio Tinto has succeeded in changing 
laws and regulations in Arizona which have been in place for decades in 
order to exempt itself from vital public safeguards and conditions 
normally used to protect Arizona's water supplies. See, e.g., H.B. 
2289, 49th Leg., 2d Reg. Sess. (Ariz. 2010); H.B. 2617, 49th Leg., 2d 
Reg. Sess. (Ariz. 2010); S.C.R. 1046, 49th Leg., Reg. Sess. (Ariz. 
2010).
    We ask that Congress maintain federal ownership of these lands and 
exercise its federal control necessary to ensure that the surface water 
and ground water supplies of this region are protected in both quantity 
and quality, and that federal, tribal, private, and public water rights 
are protected in perpetuity from the interference, diminishment and 
degradation presented by this massive mining project.
H.R. 1904 Requires that the Land Exchange be Consummated Without 
        Advanced NEPA Review
    There is nothing in H.R. 1904 that calls for Congress or the USDA/
Forest Service to review the proposed land exchange itself, prior to 
Rio Tinto's acquisition of the Oak Flat lands. Section 4(i) of the bill 
provides that ``the land exchange directed by this Act shall be 
consummated not later than one year after the date of enactment of this 
Act.'' (Emphasis added). In addition, Sec. 4(a) provides that when Rio 
Tinto offers to convey the non-federal lands to the United States, 
``the Secretary is authorized and directed to convey to Resolution 
Copper, all right, title, and interest of the United States in and to 
the Federal land.'' (Emphasis added).
    Thus, H.R. 1904 fails to require or even permit the Secretary to 
take a ``hard look'' at the land exchange itself under NEPA or other 
laws, before the exchange is consummated, and seemingly fails to vest 
any discretion in the Secretary of Agriculture to consider possible 
alternatives to the exchange. H.R. 1904 also does not call for or 
permit the mitigation of impacts related to the land exchange and it 
would not permit the Secretary to avoid consummating the exchange 
should the Secretary determine under the FLPMA and other laws, that the 
exchange is a bad deal for the American taxpayer or the citizens or in 
the event he finds that the religious, environmental, cultural, water 
supply and other harms of the mining project are simply too great.
H.R. 1904 Contains Sham NEPA Requirements After the Exchange
    The NEPA process outlined by Sec. 4(j) of H.R. 1904 (which is to be 
conducted after the lands are exchanged) is little more than a futile 
exercise on the part of the Secretary. Under H.R. 1904, the Secretary 
would have no discretion to exercise any meaningful authority over Rio 
Tinto's mining plan of operations or mining activities on private land 
after the exchange, absent a federal nexus. There is also no 
requirement in the bill for the Secretary to examine the direct, 
indirect and cumulative impacts of interim exploratory activities, pre-
feasibility and feasibility operations, or mine facility construction 
that will be conducted by Rio Tinto after the exchange, but before 
production of commercial quantities of minerals. Sec. 4(f) mandates 
that the Secretary ``shall'' provide Rio Tinto with a special use 
permit within 30 days of enactment of the Act to engage in mineral 
exploration activities underneath the 760-acre Oak Flat Withdrawal and, 
within 90 days, the Secretary is required to allow Rio Tinto to begin 
mineral explorations within the Oak Flat Withdrawal itself.
    In fact, under H.R. 1904, the integrity of Oak Flat could be harmed 
so substantially by exploratory activities before the limited NEPA 
requirements found in Sec. 4(j)(2) are triggered, that any NEPA review 
conducted upon the submission of the mining plan of operations would 
have little to no benefit in any event. Similarly, the Secretary would 
also seemingly lack any authority under this bill to even consider 
alternatives to these interim activities, which may include 
alternatives necessary to protect the integrity of Oak Flat as a 
traditional cultural property and sacred site, including its water 
resources, landscape, plants and ecosystems. Allowing the immediate 
exploration on and under Oak Flat prior to the NEPA review contemplated 
by Sec. 4(j) of the Act will constitute an ``irretrievable commitment 
of resources'' in contravention to NEPA.
    It is also critical to understand that under H.R. 1904, there is no 
definition of ``mining plan of operations'', and there is nothing to 
make clear what form the ``plan of operations'' required by Sec. 
4(j)(1) of the bill would take, as this term is not tied to the 
requirements of 36 C.F.R., Part 288. There no guarantees that the 
``plan of operations'' will be sufficiently detailed or contain a 
complete description of the type of mining to be conducted on the 
lands, the subsurface information for the area, the length of 
operations, or the measures that Rio Tinto will take to meet the 
environmental and cultural resources protections that would normally be 
required by the law if these lands were not exchanged into private 
ownership. Furthermore, Rio Tinto may well change the mining plan 
without public review after the initial plan is submitted that could 
significantly alter the way the mine is operated. Such changes could 
pose an even more serious threat to this area.
    Deputy Chief of the USDA/Forest Service, Joel Holtrop, has warned 
in response to prior legislation for this land exchange, that a plan of 
operations which contains, in particular, subsurface information is 
``essential in order to assess environmental impacts, including 
hydrological conditions, subsidence, and other related issues.'' See 
Deputy Chief of the USDA/Forest Service, Joel Holtrop, August 2009, 
written response to questions by the Senate Subcommittee on Public 
Lands and Forests on S. 409. However, H.R. 1904 would not provide the 
Secretary with authority to reject the plan of operations submitted by 
Rio Tinto if the information contained in the plan is insufficient to 
conduct even the limited review called for under Sec. 4(j)(2) of the 
bill.
    The Secretary is also only given 3 years under H.R. 1904 to conduct 
his review after submission of a ``mine plan of operations.'' Under 
this limited time frame, the Secretary would have little time to demand 
that Rio Tinto refine its plan, even if this was necessary to conduct a 
meaningful review.
    Indeed, USDA Secretary, Thomas Vilsack, has previously objected to 
similar sham NEPA provisions contained in previous legislation for this 
land exchange (S.409, 111th Congress), warning:
        The purpose of a requirement [in S.409] that the agency prepare 
        the EIS after the exchange, when the land is in private 
        ownership, is unclear because the bill provides the agency with 
        no discretion to exercise after completing the EIS. If the 
        objective of the environmental analysis is to ascertain the 
        impacts of the potential commercial mineral production on the 
        parcel to be exchanged, then the analysis should be prepared 
        before an exchange, not afterwards, and only if the agency 
        retains the discretion to apply what it learns in the EIS to 
        its decision about the exchange. It seems completion of the 
        exchange prior to the EIS would negate the utility of the EIS. 
        (Emphasis added).
    Finally, H.R. 1904 does not allow for the preparation of a 
supplemental Environmental Impact Statement (EIS) document if 
additional review is called for in order to examine the direct, 
indirect and cumulative impacts of future activities by Rio Tinto. Sec. 
4(j)(2) of the Act makes clear that the Secretary may only use the 
single environmental review document which is to be prepared within 3 
years of the plan of operations as the basis for all future ``decisions 
under applicable Federal laws, rules and regulations regarding any 
Federal actions or authorizations related to the proposed mine or plan 
of operations.''
    In sum, the ``NEPA'' provisions contained in H.R. 1904, do not 
comply with the purposes of NEPA and they fail to vest any real 
discretion in the Secretary of Agriculture to address, or even 
meaningfully consider, the many concerns presented by the block cave 
mining operation proposed for the Oak Flat Withdrawal area.
Rio Tinto's Promise of Significant Jobs Creation in the Local Economy 
        is Unsupported
    Resolution Copper has circulated various economic and job figures 
related to their mining project. These numbers are highly speculative 
and unsupported as Rio Tinto does not have a Mining Plan of Operation 
(MPO). Since an MPO may be a decade or more away from completion, it is 
impossible at this time to determine with any certainly the total 
number of jobs or the types of jobs that might be created by the mine. 
In fact, Rio Tinto has acknowledged that exploration will take years 
and will not be completed until 2020, at the earliest. This offers 
little help for the needs of the local economy today. Even with the 
exploration complete, there is no guarantee that Rio Tinto will build 
the mine given the depth of the ore body and other factors. There is 
also no guarantee that the mine will provide the large number of jobs 
that Rio Tinto has promised, due to the potential automation of the 
project and other factors.
    Rio Tinto has recently launched a prototype of a fully automated 
``mine of the future'' in the iron rich Pilbara region of Australia. 
This ``mine of the future'' operates eleven mines with robotized 
drilling, automated haul trucks and driverless ore trains, all of which 
are controlled from an operations center 800 miles away. The aim of Rio 
Tinto's prototype is to lower production costs by eliminating the need 
to hire a substantial number of workers. By Rio Tinto's own admission 
``some of the roles currently based at the mine [Pilbara Mine] site 
will, in the future, be based in a city thousands of kilometers away 
[approximately 600 or more miles away]'' and ``employees will work like 
air traffic controllers.'' See ``Mine of the Future.'' riotinto.com. 
Rio Tinto, n.d. Web. 2011. Rio Tinto's Eagle Ore Mine in Marquette, 
Michigan also plans to use a fully automated system which may make 
mines safer, but at the cost of requiring fewer workers. This reduced 
labor force is a major reason why typical `mining jobs' are rapidly 
declining industry-wide. As production and company profits continue to 
rise (and automation becomes operational), labor statistics show that 
the (mining) industry is expected to lose roughly 104,000 additional 
jobs between 2008 and 2018. See U.S. Department of Labor, Bureau of 
Labor Statistics. Career Guide to Industry. 2010-2011 Edition. <http://
www.bls.gov/oco/cg/cgs004.htm#outlook>
    Rio Tinto and Resolution Copper executives openly admit they plan 
to implement similar automated technology at the Rio Tinto Mine in 
Superior, Arizona. In Resolution Copper's 2010 Sustainable Development 
Report they state, ``Rio Tinto will use, today's improved understanding 
of caving processes and advanced technology will allow us to employ 
more automation and mechanization than were available in the past.'' 
See Resolution Copper Mining. 2010 Sustainable Development Report 
201<http://resolutioncopper.com/sdr/2010/environment>
    This technology would allow Rio Tinto to operate the mine from 
anywhere in the world, substantially reducing the need for manpower and 
skilled and unskilled workers in the Superior region. Rio Tinto boasts 
that in their mines of the future (which will include the Resolution 
Copper Mine): ``Humans will no longer need to be hands on as all this 
equipment will be ``autonomous''--able to make decisions on what to do 
based on their environment and interaction with other machines. 
Operators will oversee the equipment from the ROC (Remote Operation 
Centers).'' See Rio Tinto. Rio Tinto chief executive unveils vision of 
``mine of the future''. 18 January 2008. <http://www.riotinto.com/
media/5157_7037.asp>
    Once fully operational, the Remote Operation Center for Rio Tinto's 
Resolution Copper Mine is unlikely to be located in rural Superior, 
Arizona. Rather, the ROC will be ``metropolitan based'' and ``the 
future miner will be required to have a higher degree of education in 
mechatronics, supercomputing or artificial intelligence'', See Cribb, 
Julian. Rio Tinto. Miners of the Future. Review. September 2008. This 
would, of course, leave the Town of Superior in the same economic 
situation it faces now. Rio Tinto's own workers acknowledge a decrease 
in the need for manual labor due to automation, stating ``[p]eople 
frequently ask whether we have anyone working here at all.'' Coopes, 
Amy. ``Robots, space technology run Australia's mining miracle''. 
Physorg.com . <http://www.physorg.com/news188967104.html.>
    Even today, Rio Tinto generally does not employ local drill 
operators or drill rigs for its exploration activities, rather, it 
chooses to bring in outside subcontractors from Utah, Canada and 
elsewhere to work on the project. This lack of local job creation will 
result in limited payroll, sale, and other tax revenue for the Town of 
Superior and the State of Arizona. This in turn limits local business 
growth and development, stunts housing growth and does little to infuse 
money into the local economy.
    Lastly, it should be noted, that if Rio Tinto does build and 
operate the mine as they propose, the potential impact to the local 
economy through a loss in recreation and tourism, particularly 
ecotourism and heritage tourism, could be substantial, as the area of 
Oak Flat and the surrounding lands of the Tonto National Forest will be 
disturbed and degraded by the mine. In 2009 alone, detailed direct 
travel impact estimates for Pinal County totaled $421 million dollars, 
with over $16 million spent by those visiting the nearby campground 
areas. See Arizona Travel Impacts 1998-2009p, July 2010 Report, Arizona 
Office of Tourism, Phoenix, Arizona. Many of those dollars were spent 
in and around the area of this proposed mine. Of course, in the long 
run, the loss to the economy could be even greater, as the mine is 
likely to deplete and contaminate billions of gallons of water from the 
Superior area, potentially leaving Superior and other nearby 
communities with a limited water supply, without which, any hope of 
future economic development will have little chance.
The Past Environmental and Human Rights Record of Rio Tinto and BHP 
        Billiton Provide a Frightening Window Into the Future of 
        Resolution Copper
    The dismal environmental track record and historical disregard for 
human and labor rights practices by Rio Tinto and BHP Billiton are well 
known.
    Both companies' operations over the years have left a wake of 
environmental destruction, human rights complaints, and lawsuits filed 
worldwide. Here in the United States, the Greens Creek Mine in Alaska 
(owned by Rio Tinto and two other companies) is alleged to be that 
state's second largest discharger of toxic waste, releasing 59 million 
pounds of toxic chemicals in one year, and violating the Clean Water 
Act 391 times. In the United Kingdom, Rio Tinto's Capper Pass smelter 
dropped an estimated 1.3 pounds of lead and other emissions on area 
residents each week during its operation, leading to a settlement 
agreement with hundreds of claimants in which the company refused to 
accept blame, but provided compensation to those with cancer and other 
illnesses.
    On the other side of the world, current and former residents of 
Papua New Guinea were compelled to file suit in United States federal 
court against Rio Tinto, alleging violations of international law, 
including war crimes and crimes against humanity in Rio Tinto's 
operation of a large-scale mine in that country. In relation to another 
mining operation in Papua New Guinea, villagers sued BHP Billiton for 
more than $4 billion in damages for the destruction of the Ningerum 
people's traditional lands in which they have lived since time 
immemorial. BHP Billiton eventually was forced to abandon the 
destructive mining project after studies showed that the operation was 
causing great environmental harms, but the company is accused of 
failing to oversee that the project was properly managed upon its 
departure. Villagers are no longer able to safely eat locally harvested 
fish or food grown from their own gardens. It is estimated that it will 
take 300 years to clean up the area.
    More recently, Rio Tinto locked out 570 miners from its borates 
mine in Boron, California. For 107 days, the miners and their families 
struggled to make ends meet without a paycheck from Rio Tinto. The 
company allegedly locked out the miners in retaliation for their 
refusal to agree to a contract that threatened to turn decent, family 
and community-supporting jobs into part-time, temporary or contracted 
jobs. Rio Tinto brought in replacement workers to do the jobs of long-
time, experienced miners, some of whom have worked at the mine and 
processing plant for 30 to 40 years. It appeared that Rio Tinto was 
simply using the replacement workers to help the company starve out the 
locked-out families. However, after Rio Tinto got word that their 
product would not be shipped out of the docks because it was ``scab'' 
cargo, they decided to negotiate with the miners and on May 24, 2010, 
the miners returned to work.
    In summary, the historical conduct of Rio Tinto and BHP Billiton 
provide no assurances that these companies will keep their promise to 
protect the Oak Flat area, or their employees and families, or for that 
matter, to protect the environment and respect the traditional culture 
and religious values of American Indians. The 20 member tribes of ITCA 
strongly oppose H.R. 1904.
                                 ______
                                 
    Mr. Bishop. Thank you. Mr. Featherstone.

          STATEMENT OF ROGER FEATHERSTONE, DIRECTOR, 
                ARIZONA MINING REFORM COALITION

    Mr. Featherstone. Thank you for inviting me to testify on 
H.R. 1904. This legislation would benefit two foreign mining 
giants, one of whom is owned in-part by China, and will have 
profound negative impacts on the people of America, especially 
our country's Native Americans.
    The Arizona Mining Reform Coalition holds mining operations 
to the highest environmental and social standards to provide 
for the long-term environmental, cultural, and economic health 
of Arizona.
    Members of the Coalition include the Sierra Club, Earth 
Works, The Concerned Citizens and Retired Miners Coalition, the 
Concerned Climbers of Arizona, and other groups. Giving away 
Oak Flat well before Rio Tinto has determined that a new mine 
is even feasible is not a sound business deal for America.
    There are many financial and environmental risks from this 
land exchange. The loss of environmental freedom for Native 
Americans and the loss of the historic Oak Flat Camp Ground are 
incalculable.
    Risks include the loss of water from the entire Oak Flat 
ecosystem due to fracturing and the eventual sinking of the 
surface of the proposed Black Cave mine. There is the loss of 
recreational activities at Oak Flat as a world class climbing 
location, and from other forms of recreation, such as hiking or 
birding.
    There would be negative costs to local, State, and Federal 
infrastructure and services. Water used by a mine would be 
unavailable for homes or farms. H.R. 1904 does not require Rio 
Tinto to keep copper and other metals within the United States.
    The bill could increase China's strength, while weakening 
national security and the long-term competitiveness of our 
country. H.R. 1904 calls for an income capitalization approach 
and analysis.
    This approach requires the appraiser to use a multitude of 
indicators, facts, and variables that cannot be demonstrated 
without a detailed mining plan. Without this information the 
final appraisal of Oak Flat will ultimately be zero, and the 
American taxpayer would once again be shortchanged.
    The bill language forbids the Federal Government from 
reopening the appraisal process. Therefore, if and when it 
becomes apparent that the appraisal was too low, there would be 
no opportunity for the United States to negotiate a better 
deal.
    This legislation mandates that the exchange be completed 
within a year. One year is not enough time to complete a 
mineral report, the appraisals, and its verification. Due to 
automation, modern mines generate more product with fewer 
workers.
    When the Magma Mine shut down in 1982, 1,400 people were 
laid off in a single day. When the mine reopened in 1989, 400 
people were employed, and the production rates were roughly the 
same. Rio Tinto talks about high levels of automation for this 
mine, making it possible to control most of the operation from 
anywhere in the world.
    Oak Flat could be mined by a remote operating center in 
Utah, just as Rio Tinto's Pilbara Mine is controlled from 800 
miles away in Perth, Australia. Very little employment would 
come from local hires or from workers that would move to the 
local area.
    Since Rio Tinto does not plan to mine for at least a 
decade, there is little immediate job creation offered by this 
mine, denying any economic benefits to Arizona right now. H.R. 
1904 would allow Rio Tinto to begin mine construction before 
completing the mining plan of operation.
    Once the plan is written the NEPA review is limited to 
three years. This NEPA document would be the only document 
prepared to guide Federal officials regarding Federal actions 
or authorizations related to the mine.
    There is a process in this country that all other mining 
companies use to permit large mines on public lands. A mining 
company writes a mining plan of operation. The Federal Agencies 
then engage the public and conduct a public review process.
    This review gives everyone a chance to make the project 
better and safer. However, Rio Tinto is not willing to abide by 
this American process, and is going straight to Congress to 
gain private foreign ownership of the land.
    Rio Tinto should stick with the process that all other 
mines go through. Then if it is determined that a land exchange 
is necessary, a bill could be submitted to Congress. Stop, 
look, and listen. Anything less is a guarantee that the 
American taxpayer and their land will be damaged and 
shortchanged in the process. Thank you.
    [The prepared statement of Mr. Featherstone follows:]

              Statement of Roger Featherstone, Director, 
                    Arizona Mining Reform Coalition

    On behalf of the Arizona Mining Reform Coalition I appreciate the 
opportunity to express our views about H.R. 1904, the Southeast Arizona 
Land Exchange and Conservation Act of 2011 (Oak Flat Land Exchange). 
Several of our member groups have submitted their own written testimony 
and we support and incorporate their testimony into ours.
    The Arizona Mining Reform Coalition works in Arizona to improve 
state and federal laws, rules, and regulations governing hard rock 
mining to protect communities and the environment. We work to hold 
mining operations to the highest environmental and social standards to 
provide for the long-term environmental, cultural, and economic health 
of Arizona. Members of the Coalition include: the Grand Canyon Chapter 
of the Sierra Club, EARTHWORKS, Save the Scenic Santa Ritas, the 
Dragoon Conservation Alliance, the Groundwater Awareness League, 
Concerned Citizens and Retired Miners Coalition, Concerned Climbers of 
Arizona, the Center for Biological Diversity, the Empire-Fagan 
Coalition, Environment Arizona, and the Sky Island Alliance.
Introduction
    Resolution Copper Company--a wholly foreign-owned subsidiary of Rio 
Tinto and BHP-Billiton, two of the largest mining companies in the 
world--is seeking to develop an underground copper mine. Rio Tinto 
seeks to acquire Oak Flat, Apache Leap, and surrounding public lands 
for its private use through this land exchange bill. There are many 
significant problems posed by this unusual bill. For example, if 
approved, 2,406 acres of the Tonto National Forest will become private 
property and will forever be off limits to recreationists and all those 
who enjoy public lands. Privatization of this land would end public 
access to some of the most spectacular outdoor recreation and wildlife 
viewing areas in Arizona. If a mine is developed, this land would be 
affected by massive surface collapse subsidence, leaving far-reaching 
and permanent scars on the landscape, among other ongoing harms to this 
entire area.
    Similar versions of this bill have been introduced in Congress 
since 2005. None of these previous bills have been approved by either 
chamber of Congress. Previous Congresses have recognized that this 
exchange is simply not in the best interest of the American public.
    The Oak Flat Campground was recognized by the Eisenhower 
Administration as an important recreational resource in 1955 under 
Public Land Order 1229, as amended, and 760 acres of Oak Flat were 
specifically placed off limits to future mining activity. This unique 
area is a world-class natural resource for birding, hunting, hiking, 
camping, rock climbing, bouldering, canyoneering, picnicking, 
responsible off-highway vehicle driving, and other recreational uses. 
Oak Flat receives tens of thousands of visitors each year who enjoy the 
peace and beauty of this landscape, while at the same time infusing 
needed tourist dollars into the surrounding area of Superior and Globe. 
Gaan (known also as Devil's) Canyon and the waters of Queen Creek 
border the Oak Flat area. These important surface waters represent two 
of the crown jewels of Arizona's state trust lands, with some of the 
finest remaining riparian habitat in the state.
    The Oak Flat Campground, Apache Leap, and the surrounding area are 
also very important for recreation, and shade from the large Oak trees 
at Oak Flat and the fantastic scenery have long served as a respite to 
the citizens of the town of Superior and those who travel along nearby 
Highway 60. Many Superior residents oppose the Oak Flat Land Exchange. 
Oak Flat, Apache Leap, Gaan Canyon, and the surrounding area are also 
important religious sites for Western Apaches and Yavapais, including 
the San Carlos Apache Tribe, the White Mountain Apache Tribe, and the 
Fort McDowell Yavapai Nation. The religious and traditional use of Oak 
Flat by Native Americans continues to this day. The Tonto National 
Forest has ``discovered'' at least a dozen archeological sites in and 
around Oak Flat. Making Oak Flat private land would forever eliminate 
these traditional cultural and religious uses of that unique area and 
the destruction of this area by the mining project would eliminate any 
meaningful access that Native Americans have to this important place. 
According to well known lore from the area, Apache Leap is an 
historical land known as the Apache's Masada. It is hallowed grounds 
where many dozens of Apaches leaped to their deaths when trapped by the 
U.S. Army.
    H.R. 1904 is wholly inadequate to protect the important values of 
this unique landscape. In fact, the bill contains no provisions for 
meaningful environmental or cultural review or public input. 
Furthermore, Rio Tinto would not even be required to file a mining plan 
for years and it has offered scant and often conflicting information 
about (1) what will become of Oak Flat, Apache Leap, Gaan Canyon and 
the surrounding environs; (2) where the massive amount of mining 
tailings will ultimately reside; (3) where it will obtain the enormous 
amounts of water needed for mining or what will have to be dewatered 
for the mining activity to be maintained deep below the Earth; (4) how 
endangered species such as the Arizona hedgehog cactus, (echinocereus 
triglochidiatus arizonicus) and Sonoran ocelot, (Leopardus pardalis 
sonoriensis) will be protected and preserved; and (5) how necessary 
religious and cultural resources will be protected. Importantly, the 
bill makes no mention of the surface collapse of the area which is 
certain to occur if Rio Tinto is allowed to mine this area as it 
intends. Much has yet to be addressed regarding environmental 
considerations.
    This bill is at best premature. Before an informed decision can be 
made on the merits of any land exchange for mining purposes, the public 
must review and debate a plan of operation for an actual mine. Only if, 
after full review of a plan of operations and alternatives, a decision 
is made to move forward with a mine, should a potential land exchange 
be considered, if at all.
    For this, and other reasons listed below, we oppose H.R. 1904 in 
its current form.
Economic and Other Risks
    It is well known that mining companies do not pay royalties on 
mined federal properties thereby significantly fleecing the American 
taxpayer. However, under the terms of the legislative land exchange 
proposed in H.R. 1904, (which would cede control of what may be one of 
the larger copper deposits in North America to foreign interests), very 
few of the financial benefits touted by the mining company would be 
realized by the American public. Giving away Oak Flat to Rio Tinto at 
this stage, well before Rio Tinto has even determined that a new mine 
at Oak Flat is even feasible, is not a sound business decision and is 
unfair not only to the taxpayers, but to the tribes and recreational 
users who depend on this area. Rio Tinto's own literature stresses that 
a mine at Oak Flat would be technologically challenging and that 
further assessment is needed before the company decides to fully commit 
to building a mine. Indeed, Rio Tinto is presently only in the pre-
feasibility phase of exploration of this area, and feasibility studies 
are not yet scheduled to commence until at least 2013 or 2014.
    There are considerable financial and environmental risks and losses 
for the American people if the land exchange is to be approved and that 
must be examined before a determination can be made regarding whether 
or not this land exchange is in the public interest. There is the loss 
of religious freedom for Native Americans, the loss of unique public 
lands for the American public, and the loss of the treasured Oak Flat 
Campground to the citizens of Superior and others that are 
incalculable. Risks include the potential loss of the entire Gaan 
Canyon ecosystem due to drawdown of the water table or the collapse of 
portions of the Oak Flat area and Apache Leap due to stress fracturing 
and the eventual sinking of the surface from the proposed block cave 
mine. With the death of a young wild-born endangered ocelot right next 
to Oak Flat, we now have possible evidence of endangered mammals that 
would be affected by the land exchange and a new mine. This risk of 
loss before we even know the extent of ocelot use and occupancy of Oak 
Flat is also incalculable. The loss to other unique animals found at 
Oak Flat due to the mine should also not be treated lightly. Oak Flat 
is home to a diversity of unique and valuable wildlife. (See Jacobs & 
Flesch, '''Vegetation and Wildlife Survey of Devil's Canyon. Tonto 
National Forest'' (2007); Jacobs, Vegetation and Wildlife Survey of 
Devil's Canyon, Tonto National Forest'' (2009)). The Oak Flat area also 
contains nesting and wintering habitat for a number of birds listed on 
the United States WatchList--a joint project between the American Bird 
Conservancy and the National Audubon Society.
    There are also costs that are difficult, but not impossible to 
calculate. For example there is some estimate on the economic value of 
the loss of recreational opportunities at Oak Flat as a world class 
climbing location, but there are less data on the economic loss from 
other forms of recreation such as hiking or birding. A recent report on 
the economic value to Arizona from human-powered recreation (birding, 
climbing, hiking, etc.) shows that human-powered recreation in Arizona 
provides more than 86,000 annual jobs and provides 12 percent of 
Arizona's retail economy. It also shows that more than 1 out of 4 
Arizonans climb, hike or canyoneer. It would be difficult, but we could 
also calculate the value of water lost for other uses by a new mine at 
Oak Flat and could calculate the cost to Arizona to clean up after Rio 
Tinto if the company leaves behind a mess as has happened with numerous 
other mines.
    It is certain that a new mine at Oak Flat would cause environmental 
damage. There also would be additional negative costs from a mining 
operation to the local, state, and federal infrastructure (roads, 
utilities, bridges) and services (fire, police, schools and 
healthcare). These costs could more easily be calculated if there was a 
mining plan of operation that could be used to help those who will be 
most directly impacted by this exchange and massive mining project (and 
you the decision-makers) in deciding whether this land exchange is 
truly in the public interest.
    Given the current economic conditions the state of Arizona is 
facing, the sponsors of H.R. 1904 are characterizing this legislation 
as an economic development bill. In reality, too many unsubstantiated 
facts and unanswered questions remain regarding the overall economic 
feasibility and benefit of this exchange to the American taxpayer. For 
example, Resolution Copper, while a joint venture of foreign mining 
giants, is registered as a Delaware based Limited Liability Company 
(LLC). Notably, nine percent of Rio Tinto is owned by the state-
controlled Aluminum Corporation of China, also known as Chinalco. As 
past events have shown, Rio Tinto is very willing to do business with 
China and it is very likely that China's share in any mine at Oak Flat 
would increase. Indeed, in recent years, China has attempted to double 
its interest in Rio Tinto, just as it has purchased other mining 
interests across the world for its purposes. In essence, approving this 
land exchange would give China a stake in land now owned by the 
American public--lands that were once within the exclusive occupation 
of Western Apache and Yavapai people, and which remain central to their 
religion and culture today.
    While press releases and other statements issued upon the 
introduction of H.R. 1904 imply that the copper and other metal 
resources purportedly found below Oak Flat will be sold to and used by 
the United States, in fact, there is nothing in H.R. 1904 that would 
actually require Rio Tinto to sell these resources to the United 
States. Indeed, it must be reasonably assumed the copper and other 
important metals that could come from a mine at Oak Flat would not stay 
in the United States and be used to create U.S. manufacturing jobs and 
further, that most of the profits of a mine at Oak Flat would be 
shipped off-shore and not held within the United States based on these 
companies mining operations, holdings, and performance.
    While China (and other developing nations) are stockpiling copper 
and other important resources, Congress would, through H.R. 1904, turn 
over exclusive control and ownership of purportedly one of the larger 
copper ore deposits in North America to the foreign owned companies of 
Rio Tinto (owned in part by China) and BHP Billiton. In doing so, it 
would seem that Congress would be increasing China's strength, while 
weakening the national security of the United States. Undermining the 
long-term competitiveness of U.S. companies has obvious adverse impacts 
on the United States' economy and job growth potential.
    In December of 2009, the United States government nixed a plan for 
China to invest in a Nevada mining operation on the grounds of national 
security. One would think that Congress would pause and examine with 
great interest this land exchange for similar reasons.
Appraisal and Royalty
    H.R. 1904 calls for an appraisal report that would include an 
income capitalization approach analysis, in accordance with the Uniform 
Appraisal Standards for Federal Land Acquisition (UASFLA), of the 
market value of the federal land. Since much of the information needed 
to accurately appraise value of the public land in question at Oak Flat 
by using the income capitalization approach could only be obtained by 
preparing a detailed mining plan of operation and other supporting 
information, mandating that this appraisal method before a mining plan 
is written basically assures that the land exchange would be a taxpayer 
rip-off and not in the best interest of the American people.
    The income capitalization approach often requires the appraiser to 
use a multitude of indicators, facts, and variables, the accuracy of 
which cannot clearly and easily be demonstrated by direct market data 
[See Foster v. United States, 2 Cl. Ct. 426 (1983)]. This is 
particularly true when discounted cash flow analysis or other forms of 
yield capitalization are employed in the analysis. Furthermore, within 
the UASFLA there are several specific requirements to assess values, 
including the need for a detailed mining plan for the property, which 
according to the bill would not be available until long after the 
appraisal is complete and the land exchange consummated. UASFLA 
requires that production-level estimates should be supported by 
documentation regarding production levels achieved in similar 
operations. Again, without a comprehensive mining plan at the time of 
the appraisal, it would be difficult, if not impossible for an 
appraiser to determine which other operation could be used for 
comparison. The annual amount of production and the number of years of 
production are more difficult (and speculative) to estimate, and 
require at a minimum, not only physical tests of the property to 
determine the quantity and quality of the mineral present, but also 
market studies to determine the volume and duration of the demand for 
the mineral in the subject property. However, it is unknown at this 
time what the true production estimates are as specific mining plan 
details have not been forthcoming from Rio Tinto. In addition, the true 
quality or quantity of the material is unknown and the extraction 
technology for this mining operation at a 7000-foot depth has not been 
developed and thus not currently available. This fact is further 
underscored by the lack of available information on production levels 
being consistent with a mining plan's labor and equipment.
    In further examining UASFLA, the income capitalization approach 
also requires several economic predictions including a cash-flow 
projection of incomes and expenses over the life-span of the project 
and a determination of the Net Present Value (NPV), including the NPV 
of the profit stream, based on a discount factor. The NPV of a future 
income is always lower than its current value because an income in the 
future assumes risk. The actual discount factor used depends on this 
assumed risk. A proven technology carries a lower risk of non-
performance, and thus, a lower discount rate, than a technology being 
applied for the first time.
    Given the evaluation standards prescribed by the UASFLA, coupled 
with the lack of factual data and uncertainty of the technology 
described above, the final appraisal of this massive ore body could 
ultimately net zero, meaning that the valuation of the federal lands 
exchanged for the benefit of RCC would not reflect the value of the 
copper and other saleable minerals these lands contain. The American 
taxpayer would once again be short-changed.
    To compound the problem, the bill language forbids the federal 
government from reopening the appraisal process. Therefore, if and when 
it becomes apparent that the appraisal was too low, there would be no 
opportunity for the United States to negotiate a better deal for the 
taxpayer.
    Rio Tinto must be required to provide additional information and 
pay for additional research in order to generate an appraisal that is 
fair and equitable to the people of the United States, and any such 
appraisal should occur after the technology exists to mine this 
particular ore body and a plan of operations has been created.
    Moreover, since the federal government has yet to perform a 
substantive economic evaluation of the lands along with the copper and 
other minerals to be exchanged to RCC, it is also impossible for the 
Congressional Budget Office (CBO) and/or Office of Management and 
Budget (OMB) to effectively evaluate H.R. 1904. The public interest 
requires that a complete and fully informed appraisal and equalization 
of values be performed prior to Congressional passage of H.R. 1904. Rio 
Tinto has asserted that there may be over 1.34 billion tons, containing 
1.51 percent copper and 0.040 percent molybdenum to be removed over the 
66 years of the mine's life. Although the current value of all minerals 
present on these federal lands is not provided by Rio Tinto, estimates 
have ranged from $100 to $200 billion. Thus, even the company's own 
self evaluation of the ore body underlying these public lands is orders 
of magnitude greater in value than that of the non-federal parcels 
offered in exchange to the public.
    Section 4(i) of the legislation requires that the exchange and 
other critical documentation be completed within one year after 
congressional passage. Given the rationalizations above regarding the 
complexity of such analysis, it is incredulous that one year is 
sufficient time for the completion, and subsequent thorough examination 
and review of all reports and appraisals. Indeed, Michael Nedd, then 
Assistant Director of Minerals and Realty Management for the Bureau of 
Land Management, stated in his previous testimony on this matter that 
he and the BLM did not believe a one year provision was sufficient time 
for the completion and review of a mineral report, completion and 
review of the appraisals, and final verification and preparation of 
title documents. Yet, the sponsors of this bill have chosen not to heed 
the government's own experts' advice and counsel on mineral appraisals.
    Once Rio Tinto has completed its evaluation and analysis, we urge 
Congress to require an independent, third party review of all the 
reports, including the engineering report, for this operation. This 
must be accomplished in consultation with all affected parties prior to 
this legislation moving forward. At this time, relying on Rio Tinto's 
current information and other reports or the Departments of Agriculture 
and Interior review of these reports is insufficient. Only a third 
party certification can help assure that the taxpayers get a fair 
return on the minerals they are giving up in this land exchange.
    In examining the royalty provisions found in H.R. 1904, which are 
based on the same faulty assumption made in Section 4 of the bill, it 
is highly likely that trading these federal lands into RCC's private 
ownership will result in unquantifiable, inequitable, and effectively 
zero royalties being provided to the United States taxpayer.
Job Claims
    Since the first Oak Flat land exchange bill was introduced by 
former Congressman Rick Renzi, proponents of the land exchange have 
substantially inflated the number of jobs they claim a mine would 
provide. In March 2005, newspaper articles appearing in the Arizona 
Republic and the Tucson Citizen reported that the mine would create 450 
jobs. Today Rio Tinto's job number claims range from 1,200 to 6,000. 
However without a detailed Mining Plan of Operations, estimates on the 
number of jobs that would be created by a mine at Oak Flat are pure 
speculation.
    While Augusta Resource Corporation commissioned a report that was 
widely optimistic about jobs and economic growth in southern Arizona 
from a proposed copper mine south of Tucson, Arizona, this report has 
been heavily criticized for inflating the number of indirect jobs 
created, at least Augusta's analysis was based on a real mining plan of 
operation. Here, Congress and the American public are being asked to 
take, essentially at face value, an economic and job forecast done in 
part by some of the same institutions that did the Augusta report, 
without the benefit of a mining plan. One has to question the 
credibility of job claims that have ranged so widely.
    Trends in the mining industry are very clear. Modern mines generate 
more product with fewer workers. For years, mining companies have 
relied on the increased use of technology to cut labor costs. For 
example, when the Magma Mine shut down in 1982, 1,400 people were laid 
off in a single day. When the mine reopened in 1989, 400 people were 
employed and the production rates were as much or more as when the mine 
shut down in 1982. (Of this new labor force, less than 100 of these 
employees resided in Superior and the economic benefit to the community 
at that time was minimal.)
    The following graph shows downward trends in mining employment in 
Arizona while production levels remain high.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    .epsRio Tinto has been talking about high levels of automation for 
this mine. Rio Tinto and its partner at Oak Flat, BHP Billiton, have 
been pioneers in the production of automated trucks, driverless trains 
and other automation features. Rio Tinto just announced the addition of 
an additional 10 driverless trucks at its highly automated iron mines 
in the Pilbara region of Australia. Starting next year, for the first 
time, Rio Tinto's driverless trucks will be hauling ore in addition to 
waste.
    Much of the operations of the Pilbara mines are controlled from the 
city of Perth, 800 miles away. This level of automation is increasingly 
common and is intended to cut costs along with the number of workers 
needed for mining activities. Based on current technology it would be 
possible to control most of the operation of a mine at Oak Flat from 
anywhere in the world. In fact, much of Rio Tinto's mining and 
Resolution Copper's business addresses for tax records are based in 
Utah. It is not unlikely that this mine could easily be controlled by a 
remote operating center in Utah, just as the Pilbara mine is controlled 
from 800 miles away in Perth, Australia. If the U.S. military can 
control drone aircraft operating in Afghanistan from Nevada, it is not 
unlikely that a mine at Oak Flat could be controlled from Utah or even 
Perth.
    The workforce of a modern mine has also changed dramatically. When 
the Magma Mine closed in 1982, the town of Superior had 6,300 
residents. By the time the mine had reopened in 1989, the town's 
population had dropped to 3,200, and only 100 of the mine's workers 
lived in Superior. If a mine was to open at Oak Flat, according to 
current trends and given the educational requirements for this 
automated mine, it is probable that even those workers who worked on 
site would live in Phoenix or its suburbs and commute to Superior 
rather than live there and add to the town's economic prosperity. One 
only needs look at the license plates of the trucks parked at the 
drilling rigs or at the Rio Tinto office in Superior. Many are from 
Utah, Mexico or other places rather than from Arizona. Since modern 
mines require highly skilled operators, there is a small labor pool 
that travels from mine to mine to work but never settles permanently 
near the mine.
    What all of this means is that there would be increased employment 
if a mine is built at Oak Flat, but very little of that employment 
would come from local hires or from workers that would resettle in the 
local area. The extensive equipment needs of a mine would also not be 
manufactured locally, as it is more likely that this equipment would be 
made overseas as is most new equipment used in modern mines.
    Lastly, when it comes to the issue of jobs, since Rio Tinto's plans 
call for it to be at least a decade before a mine is built, there is 
simply no immediate job creation offered by this mine, making any 
enhancement to the immediate local needs of Arizona minimal at best.
    Some have said that the opening of a mine at Oak Flat would lead to 
a revitalization of the town of Superior. However, while Rio Tinto has 
employed 100--200 people for the past half dozen years for exploration, 
shaft sinking, and other duties, the population of Superior has dropped 
another 400 people according to the latest census data. There is no 
reason to believe this trend would change as a result of the land 
exchange and mining project to be facilitated by H.R. 1904.
Environmental Review
    A previous version of the land exchange gave the Secretary of 
Agriculture the power to determine whether the land exchange was in the 
public interest and in the case that the Secretary found it was not, 
the Secretary was able to stop the exchange. That provision is entirely 
missing in this bill. H.R. 1904 leaves the sole decision-making 
authority for approving the land exchange in the hands of Congress 
without providing for, as detailed above, the plans and studies to show 
that the exchange is in the public interest, and that the American 
taxpayer is getting a full return on the sale of precious public 
assets.
    The bill mentions the National Environmental Policy Act (NEPA) but 
then takes the teeth out of the federal decision-making process. The 
language states that prior to commencement of mining in commercial 
quantities, Rio Tinto must submit a mining plan of operation to the 
Secretary of Agriculture and that the Secretary must complete a NEPA 
review of this plan within three years. It does not say what this 
mining plan should include nor does it mention what the Secretary can 
do if the plan is inadequate or incomplete. It says that this NEPA 
document would be the only document prepared to guide federal officials 
regarding federal actions or authorizations related to the mine. Never 
mind that NEPA is a law meant to give federal land managers a chance to 
``look before they leap'' and that this exercise in futility would 
already have a mandated outcome. Never mind that the plan would not 
have to be written until the mine was already built, and never mind 
that the land in question would be private property, so there may never 
be a federal nexus that would trigger NEPA. It is unlikely that the 
U.S.D.A. Forest Service could do a full NEPA analysis in three years, 
even if Rio Tinto was 100 percent cooperative with them. Rio Tinto's 
current plan, which has changed many times and probably will continue 
to change, eliminates any federal nexus if the land exchange is 
enacted. In that case, the federal government would have spent three 
years and a lot of taxpayer money to write a meaningless document that 
would never be taken off the shelf and used.
    Previous information released by Rio Tinto led the public to 
believe that the company was planning on storing the mountain of waste 
a mine would generate and doing most of the milling at the nearby Pinto 
Valley Mine owned by BHP Billiton. In fact, one of the purposes of the 
pre-feasibility exploratory drilling that was recently approved was to 
allow Rio Tinto to conduct testing to see where a tunnel to the Pinto 
Valley Mine could be placed. However, new information is pointing to a 
Rio Tinto plan to move ore and waste from their proposed mine out under 
Apache Leap through an existing tunnel, and perhaps new tunnels, 
through the town of Superior and then disposing of the tailings to the 
west near the proposed Superstition Vistas housing development. Should 
that be Rio Tinto's plan, it would eliminate any federal nexus from the 
project since the company already owns the necessary rights-of-way 
through National Forest public lands. Again however, until a mining 
plan of operations is written, no one except perhaps Rio Tinto knows 
for sure what it is planning and the company isn't talking.
    If the land exchange is passed and consummated, State of Arizona 
mining laws would apply. Arizona has the weakest state mining laws in 
the country. Not only would the state permitting process make it much 
more likely that a bad mine design be approved, but state rules leave 
enforcement of its laws up to the companies themselves. In addition, a 
critical component of any mining plan is the closure plan. A good mine 
design plans for closure from day one. However, the Arizona process 
does not require a mining company to submit a closure plan for review 
until no less than five years before closure is contemplated. This not 
only flies in the face of good mine design, but severely hampers both 
the company and the state from closing the mine in an environmentally 
responsible manner.
    A key feature of any good mining permit is adequate bonding to 
insure that if something goes wrong or a company goes bankrupt before 
reclamation is complete, there is enough money in hand to fully close, 
remediate and protect the public at the company's--not taxpayers'--
expense. However, Arizona allows mining companies to self-insure their 
bonds by using a corporate guarantee. This works only if a company is 
solvent and intending to stay in the state, but Resolution Copper, the 
wholly owned subsidiary of Rio Tinto and BHP, is chartered as a limited 
liability corporation in the state of Delaware. If something went wrong 
with a mine at Oak Flat, the parent companies could strip Resolution 
Copper of all its assets, similar to what Grupo Mexico did with ASARCO 
a few years ago. If that happens, the state of Arizona would be 
responsible for picking up the pieces and the burden would surely fall 
on the taxpayer. Federal bonding provisions, on the other hand, require 
cash or other liquid security to be held by the federal government to 
better assure that the taxpayer is not liable if a company skips out on 
its obligations.
    This lack of good and enforceable state laws is another factor that 
must be considered in weighing whether this land exchange is in the 
public interest.
Water
    A block cave mine such as the one Rio Tinto has been talking about 
would use in the neighborhood of 40,000 acre-feet of water per year. 
That amount is roughly equivalent to the amount of water used by the 
city of Tempe (160,000 people). Rio Tinto has no water rights necessary 
to develop and operate the mine being proposed or to process ore. Rio 
Tinto has been less then transparent in telling the public where it 
intends to secure the water necessary to operate its mine. Water is in 
short supply in all of Arizona and due to the increasing pressure from 
housing; BHP has received approval for the construction of 35,000 homes 
on its private lands near the San Pedro River just above the Seven B 
Ranch that is part of this proposed land exchange. Those homes could us 
as much as 20,000 acre-feet of water per year. This would not only 
dewater the Seven B Ranch and put additional pressure on the San Pedro 
River, but also take that amount of water out of the regional pool that 
Rio Tinto would also try to draw from should they build a mine at Oak 
Flat. In addition, the Superstition Vistas proposed development west of 
Oak Flat would also use enormous quantities of water. Superior and Oak 
Flat are also at the headwaters of much of the Phoenix water supply. 
The Carlota Mine is also pumping large amounts of groundwater. Putting 
all of this in context, the region is facing a serious water shortage 
without a new mine at Oak Flat. Building a mine that uses the amount of 
water as the city of Tempe would create serious water shortages. The 
federal mine permitting process would expose and examine these water 
problems. However, H.R. 1904 would bypass that process and give away 
Oak Flat to Rio Tinto before an examination of water quantity problems 
could be undertaken and the cumulative impacts analyzed.
    So where will Rio Tinto get this water? (Note, in Arizona, there 
are very few laws regulating groundwater pumping by mining companies.) 
Historically, mines just drill wells that are deeper than their 
surrounding neighbors' wells. Such deep water wells dry up neighboring 
wells, de-water surface waters and impact the entire region's water 
needs. As the members of this Subcommittee are aware, water is a 
critical resource in the State of Arizona. Rio Tinto has previously 
``banked'' water from the Central Arizona Project (CAP), but with 
looming shortages of water in the Colorado River basin, that water 
cannot be counted on. Only a complete NEPA review before the decision 
on whether to proceed with the land exchange is made will provide 
answers to the critical issues surrounding Central Eastern Arizona's 
water resources and needs in the area of the proposed Resolution Copper 
Mine.
    Mines pollute groundwater and surface water even when they predict 
they will not. Acid and heavy metal mine drainage leaking into 
groundwater and surface waters are a common result of copper mining. 
Mines pollute surface water and groundwater with toxins and 
carcinogens, requiring more expensive surface reclamation and long-term 
water treatment. Rio Tinto is dewatering an old mining shaft that has 
flooded. The water in that shaft is contaminated and loaded with heavy 
metals. In order for that treated water to be reclaimed and be re-used, 
it has to be diluted with 10 parts of CAP water to each part of treated 
water prior to being transported to the New Magma Irrigation District 
for use on crops.
    Gaan Canyon is located in the Tonto National Forest and on State 
Trust Lands near the proposed mine, just northeast of the town of 
Superior. It flows into Mineral Creek, which is a tributary of the Gila 
River. Gaan Canyon provides important and all too rare riparian habitat 
in a state where much of our riparian habitat has been degraded or 
destroyed--most estimates indicate that more than 90 percent has been 
lost to water diversions, groundwater pumping, and other activities. 
Gaan Canyon is an area enjoyed by hikers and climbers and those seeking 
some relief from the heat. Sycamores and Arizona alders thrive on Gaan 
Canyon's water and also provide valuable habitat for wildlife. 
Considering its proximity to the proposed mine, the depth of the mine 
and the associated water pumping that will occur to dewater it, the 
risks of dewatering Gaan Canyon are significant.
Subsidence
    Rio Tinto wants to mine at Oak Flat using a method of underground 
mining called block cave mining. Block cave mining is cheaper and 
perhaps more efficient than other forms of underground mining, but 
every block cave mine built has caused the surface above the mine to 
sink and has caused fracturing of the surface and subsurface rock above 
the mine.
    The fracturing of the rock above the mine causes a cone of 
depression that transports water from the surface down into the mined 
area. Gaan Canyon, Oak Flat and the surrounding area are watered by a 
shallow aquifer, which thus far has been largely separated from deeper 
aquifers. However, block caving would fracture the rock protecting the 
surface aquifer. That would cause the surface water to drain through 
the fractures well before the surface sinks due to subsidence. If and 
when this happens, Gaan Canyon would dry up, the oaks would die and the 
ecosystem would be severely impacted. Once cracking near the surface 
occurs from the effects of block caving, there is no turning back. 
Again, there are no provisions in this bill to study the impacts of 
subsidence before the land exchange was consummated.
Protection of Apache Leap
    While there is language in the land exchange that would seem to 
protect Apache Leap, there are loopholes in the bill that allow Rio 
Tinto to do work under Apache Leap so long as it does not commercially 
extract ore from under the Leap. This allows the company full access to 
existing tunnels that now exist under Apache Leap. Should the company 
decide to move ore through Superior to the west, the company would have 
free rein not only to use its existing tunnels but to drill new ones as 
long as it does not commercially extract minerals. Not only is the bill 
language weak on assuring that block caving does not impact Apache Leap 
from the east, but this loophole would also allow Rio Tinto to 
undermine Apache Leap.
Oak Flat Campground
    Removing President Eisenhower's Executive Order withdrawing Oak 
Flat from hard rock mining, as this bill would do, is no small detail. 
Not only is Oak Flat Campground an important parcel of public land for 
the myriad of reasons outlined above, not the least of which is 
religious freedom, but it is an important part of President 
Eisenhower's legacy. The Congress would be giving that legacy to two 
foreign mining companies. Another part of Eisenhower's legacy is the 
interstate highway system. Giving away Oak Flat is akin to giving away 
portions of I-10 in Arizona in the hope those foreign interests would 
somehow feel benevolent and use the interstate for the public good. The 
only sure way to protect the public values and prosperity that Oak Flat 
now provides is to keep it as it is: an oasis of green in a sea of 
mined lands free and open for all Americans and our visitors to enjoy.
How the Mine Permitting Process Is Supposed to Work
    There is a process in this country that all other mining companies, 
including Rio Tinto and BHP, use to permit large mines on public lands. 
This process is to fully explore a mining prospect and determine 
whether it is economically, environmentally, and socially feasible. 
Once that decision is made, a mining company writes a detailed mining 
plan of operation and submits it to whichever federal agency manages 
the public land for which it would like permission to use (usually 
either the Forest Service or the BLM). The federal agency, using the 
provisions laid out in NEPA, engages the public and other agencies and 
decision-makers, and conducts a public review process that involves 
both a draft and a final environmental impact statement. This review 
gives the public, the mining company, and government agencies a chance 
to make the project better and safer. Once this process is complete, 
the federal agencies almost always grant the mining company a permit to 
mine after requiring adequate liquid bonding to ensure that everything 
will go according to plan. Often, the permit will mandate mitigation 
measures that also are designed to make the mine design better and 
safer. If the mining company wants to make major changes to the mine 
design or new information comes to light, there are provisions to 
reopen the review process, again to make the mine better and safer.
    However, in this case, Rio Tinto is not willing to abide by this 
American process, and is going straight to Congress to gain private, 
foreign ownership of the land and bypass this process.
Conclusion
    This special interest legislation, which would benefit two foreign 
mining companies at the expense of the American public, is not needed. 
Rio Tinto should stick with the process all other mines go through and 
write its mining plan of operation first. Then, if it is determined 
that a land exchange is necessary and the exchange needs to be done by 
federal legislation, a bill can be submitted and debated in Congress. 
Anything less is a guarantee that the American taxpayer and their land 
will be damaged and shortchanged in the process.
                                 ______
                                 
    Mr. Bishop. Thank you. Chairman Talgo.

         STATEMENT OF HARRISON TALGO, FORMER CHAIRMAN, 
                    SAN CARLOS APACHE TRIBE

    Mr. Talgo. Before I do my formal testimony, I would like to 
introduce my wife, and the people who came with me here from 
San Carlos. It is Apache custom to know where you are from, 
where you come from, and to introduce yourself in the gathering 
of such.
    My ancestral clan, Hohokam, inhabited the Roosevelt Tonto 
Basin. They inhabited the Pinal Mountains, which exist today, 
where many mining operations are operating in Arizona. This is 
where the proposed site is that is being presented here today.
    My father's clan, Hohokam, is a slender tall people, 
descended from the Aravaipa Canyon, Chief Espinsin. I am a 
cousin to Ola Casador. My wife here is a descendent, and she is 
of the White Water people. She is a descendent from a famous 
Apache scout named John Roe.
    He was the interpreter during the treaty establishment of 
our reservation. She was born to Estaha Arat, the Northern 
Ridge people. Also with me is Elias Miles, who represents the 
next generation, with his mother, who is Cheryl, an educator 
from San Carlos.
    Now for my formal testimony. Mr. Chairman, Members of the 
Subcommittee, my name is Harrison Talgo, Senior, and I am a 
Member of the San Carlos Apache Nation. I am a former tribal 
chairman, and I have served as a member of the San Carlos 
Apache Tribe Council for 16 years.
    Today is the National Flag Day, and I am proud to say that 
I am a veteran of the Marine Corps, and served my country with 
honor and duty in Vietnam. I am also a tribal elder. As tribal 
chairman, I established the Tribal Elderly Council, a currently 
successful program.
    Many times I have come before Congress as an official 
representative of my government to present issues affecting in 
the best interests of the San Carlos Tribal Government. But 
today I come before you as a concerned private citizen of 
Bylas, Arizona.
    I am here to vote and voice my support of H.R. 1904. My 
wife, Eloise, and I raised seven children on the reservation. I 
understand the Apache way, and I am respectful of the 
traditions of my ancestors.
    I know that the tribal leadership does not share my 
position. I have tried very hard to understand why they oppose 
this project when we are in such desperate need of jobs and 
industry.
    We are one of the poorest Indian tribes in the Nation. 
Seven of ten eligible workers in the tribe are unemployed, and 
I am one of them. Almost 80 percent of our people live in 
poverty.
    Alcoholism, drugs, are rampant and our suicide rates are 
high. The average Apache male lives 54 years, about 20 years 
fewer than the average American male. Without jobs our children 
are forced to move to neighboring communities, or into cities 
to find work.
    Not many of them return, and with each passing generation a 
piece of apache identity and culture is lost. I can tell you as 
a father and a grandfather, and one who grew up in the 
traditional ways, and learned the language of my fathers, that 
is heartbreaking.
    Even though our newest reservation boundary is about 20 
miles away from the Resolution project, and our nearest 
community is about 40 miles away from the highway, that is a 
reasonable distance to travel for a job, especially when you 
consider the high wages and the benefits that the mining jobs 
provide.
    Many Apaches worked at the former Magma Mine that is the 
base area of the new mine. The issue today is not about our 
reservation land, our sovereignty, our heritage, our self-
respect. These are not for sale.
    This is about putting my people, a lot of people, to work. 
I believe economic development should be our leadership's top 
priority. I have previously testified before Congress in 
support of economic projects. I have done so in the face of 
oppositions from other leaders who have opposed these same 
opportunities on or near the reservation.
    Some of those projects experienced costly delays as such 
results of the council's opposition, but they were all built 
eventually, and they have all hired Apaches. I respect and 
support the tribal council's desire to protect sites that have 
cultural and historical significance.
    But Oak Flat is a long way from us, and I believe strongly 
that it is possible for our traditional values to coexist with 
economic progress. In fact, I don't believe that one can 
survive without the other. Economic progress and prosperity 
leads to a better standard of living, better health, better 
service, better education.
    In increases our capacity to learn and expand our cultural 
horizons. It gives us additional resources to explore and study 
our past to protect what we should hold sacred, and to showcase 
and display those things that are culturally important, and to 
help the outside world to better understand and appreciate the 
stories, and the traditions of our fathers, because many 
members of the San Carlos Apache----
    Mr. Bishop. Mr. Chairman, I am going to have to ask you to 
summarize.
    Mr. Talgo.--rely on the Tribal Government for assistance. 
They often do not speak out against Council's decisions in fear 
of losing their benefits. I am not afraid to speak out. I can 
assure you that I do not stand alone as a Member of the San 
Carlos Apache Nation in supporting the Resolution Copper Mine.
    I made personal phone calls to as many as 2,000 people, and 
a majority of them responded in favor. I respectfully urge the 
Congress to pass this bill. Thank you, Mr. Chairman, and I 
welcome any questions that you and the Committee may have.
    [The prepared statement of Mr. Talgo follows:]

     Statement of Harrison Talgo, Member, San Carlos Apache Nation 
                  and resident of Bylas, on H.R. 1904

    Mr. Chairman and Members of the Subcommittee:
    My name is Harrison Talgo. I am a member of the San Carlos Apache 
Nation. I am a former Tribal chairman, and I served as a member of the 
San Carlos Apache Tribal Council for 16 years. This is National Flag 
Day and I am proud to say I am a veteran of the Marine Corps and served 
my country with honor and duty in Vietnam. I am also a Tribal Elder.
    Many times I have come before Congress as an official 
representative of my government to present issues affecting and in the 
best interest of the San Carlos Apache Tribal Government. But today, I 
come before you as a concerned private citizen of Bylas.
    I am here to voice my support of HR.1904.
    My ancestoral clan inhabited the Pinal Mountains in Arizona, the 
same region where many mining operations exist today and not far from 
the mining project proposed by Resolution Copper. My wife Elouise and I 
raised 7 children on the reservation. I understand the Apache way and 
am respectful of the traditions of my ancestors. They were proud and 
independent people.
    I know the tribal leadership does not share my position. I have 
tried very hard to understand why they oppose this project when we are 
in such desperate need of jobs and industry. I believe that traditional 
Apache values are not mutually exclusive with economic development.
    We are one of the poorest Indian tribes in the nation. Seven in ten 
eligible workers in the tribe are unemployed. Almost 80 percent of our 
people live in poverty. Alcoholism and drug use are rampant and suicide 
rates are high. The average Apache male has a life expectancy of 54 
years, about 20 years shorter than the average American male.
    Obviously, this places a tremendous strain on personal and family 
relationships and a heavy burden on social services--services the tribe 
struggles to provide.
    Without jobs, our children are forced to move to neighboring 
communities or into the city to find work. Not many of them return. 
With each passing generation, a piece of Apache identity and culture is 
lost. I can tell you as a father and grandfather and one who grew up in 
traditional ways and learned the language of my fathers, that is 
heartbreaking.
    Those who stay on the reservation face a bleak future. Only 
education and training and opportunities for good-paying jobs can 
improve that picture.
    Even though our nearest reservation boundary is about 20 miles away 
from the Resolution project and our nearest community is almost 40 
miles away by highway, that is a reasonable distance to travel for a 
job, especially when you consider the high wages and benefits that 
mining jobs provide. There also are opportunities for San Carlos 
residents to start businesses much closer to home that will supply and 
service a large mining operation like Resolution Copper. In discussions 
with Resolution, I have discovered the company is ready and willing to 
discuss these kinds of opportunities with San Carlos. Many Apaches 
worked at the former Magma Mine that is the base area for this new 
mine.
    The issue today is not about our reservation land, our sovereignty, 
our heritage, our self respect--these are not for sale. This is about 
putting our people--a lot of people--to work. I believe economic 
development should be our leadership's top priority. I have previously 
testified before Congress in support of economic development projects. 
I have done so in the face of opposition from other leaders who have 
opposed these same opportunities on and near the reservation. Some of 
those projects experienced costly delays as a result of the Council's 
opposition, but they all were built eventually. And they have all hired 
Apaches.
    I respect the Council's desire to protect sites that have cultural 
or historical significance. I want that, too. But Oak Flat is a long 
way from us, and I believe strongly that it is possible for our 
traditional values to co-exist with economic progress. In fact, I don't 
believe one can survive without the other. Economic progress and 
prosperity leads to a better standard of living, better health, better 
services and better education. It increases our capacity to learn and 
expands our cultural horizons. It gives us additional resources to 
explore and study our past, to protect what we hold sacred, to showcase 
and display those things that are culturally important, and to help the 
outside world better understand and appreciate the stories and 
traditions of our fathers.
    Because many members of the San Carlos Apache Nation are dependent 
on the tribal government for food, utilities, and a limited number of 
available jobs, they often do not speak out against Council decisions 
in fear of losing those benefits. I am not afraid to speak out. I can 
assure you I do not stand alone as a member of the San Carlos Apache 
Nation in support of the Resolution Copper Mine and the jobs and 
prosperity it will create. I made personal phone calls to many people 
within my community of 2,000 tribal members and the majority of them 
responded in favor of this project.
    I respectfully urge Congress to pass this bill. Thank you, Mr. 
Chairman. I welcome any questions you and the committee may have.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate that. I think the only 
question that I would have is if your wife had seven children, 
she looks much too young to have possibly done that. That must 
be a miracle that took place. I would like to yield to 
Representative Gosar my time.
    Dr. Gosar. Thank you, Mr. Chairman. Mr. Cherry, how does 
this bill avoid any possible damages to Apache Leap? That keeps 
coming up so would you address that for me?
    Mr. Cherry. I would be happy to. First of all, Apache Leap 
is still under the protection and oversight of the United 
States Forest Service. In addition to that, one of the land 
parcels that Resolution Copper is donating to this exchange 
goes to the Forest Service, and it becomes a part of Apache 
Leap.
    We also give up our commercial mining rights underneath 
that, as well as our mining project, which is to the east of 
Apache Leap, and starts farther to the east, and slowly works 
to the west, with additional monitoring of progress. We 
guarantee that we will not disturb Apache Leap.
    Dr. Gosar. Mr. Chairman, I would like to submit a letter 
submitted on May 14 for the record in regard to Apache Leap.
    Mr. Bishop. Without objection, so ordered.
    [NOTE: The letter submitted for the record on Apache Leap 
has been retained in the Committee's official files.]
    Dr. Gosar. Mr. Cherry, in Mr. Featherstone's testimony, he 
states that very few financial benefits touted by our company 
will be realized by the American public, and that is a rip-off 
of the American taxpayer.
    This could not be farther from the truth. Is there any 
possibility that this mine would be operated remotely from 
China?
    Mr. Cherry. Absolutely not.
    Dr. Gosar. Can you briefly discuss the current jobs related 
to this operation?
    Mr. Cherry. We currently employ 500 people on this project 
right now, and as a matter of fact, in Congressman Grijalva's 
district, we are already spending $500,000 a month. We have 100 
full-time Resolution employees, and we have 400 contractors on-
site on a daily basis.
    And we are spending almost $100 million a year on our 
various studies and engineering work that we are doing.
    Dr. Gosar. So how well do these jobs pay? What is the 
average pay?
    Mr. Cherry. The average pay for a mining job is about 
$60,000 a year.
    Dr. Gosar. So well below the 21,000 jobs that we have been 
seeing marketed across the country for job gains, right?
    Mr. Cherry. Like I said, our jobs will be $60,000 a year or 
better.
    Dr. Gosar. I would like to talk about the royalty issue. Is 
it not true that Resolution will pay a severance tax to the 
State of Arizona and a royalty to the Federal Government on 
mineral production?
    Mr. Cherry. That is correct. We will be paying fees for 
these minerals that are out there under the Department of 
Justice Federal Appraisal Guidelines. It is a process and an 
appraisal that is dictated by the Federal Government. It is 
operated and conducted by the United States Forest Service, and 
we support that process.
    Dr. Gosar. And more specifically under the Department of 
the Interior, right?
    Mr. Cherry. Correct.
    Dr. Gosar. So lots of Federal oversight in regards to this, 
and if I am not mistaken, it could be percentages based on 
monthly production. So very unidiomatic and very sensitive to 
fluctuations?
    Mr. Cherry. And then very transparent, yes.
    Dr. Gosar. Thank you. Chairman Talgo, thank you so very 
much for coming. My first question to you is that in your 
testimony, you say that economic development would be the 
number one priority for the leadership of the San Carlos Tribe.
    And in fact you point out that the tribes traditions and 
cultures can only be sustained with the kind of economic 
development that this land exchange is expected to foster in 
Southeastern Arizona.
    What do you see as the future of the San Carlos people for 
whom you dedicated years of your life if this project is not 
given the green light?
    Mr. Talgo. Currently, the reservation is surrounded by many 
mining operations from the west, and the east has Morenci, and 
the south has Catamount Mining. So our tribe, our members, some 
of them are already employed, and this will provide additional 
jobs in the future.
    Not only that, it will provide scholarships and other 
opportunities for the tribe if they have a good relationship 
with the mining company, and they will establish that.
    Dr. Gosar. I am also intrigued by your comment that the 
tribal leadership does not support H.R. 1904, but that many of 
the tribal members that you have spoken to do support it. What 
do the members of your community think about you coming here to 
testify today?
    Mr. Talgo. It is just like I am exercising my rights like 
anybody coming here to present my case on their behalf, too.
    Dr. Gosar. OK. So now you said that the land exchange would 
bring some economic dignity and development for the San Carlos 
Tribe. Currently, if I am not mistaken, the unemployment rate 
is approaching 75 percent. From the perspective of a former 
tribal leader what has this systematic poverty done to the 
community?
    Mr. Talgo. In the previous Water Rights Settlement, the 
tribe was supposed to build an infrastructure toward economic 
development, but currently it is devastating, and a 
disappointment to the structure that is being built for the 
future.
    Right now the tribe is currently building a major hospital 
and other major developments. However, some of these--like the 
industry, there is no such big industry like a cattle company, 
or the cattle industry, and so I think mining will be sort of 
the industry that will help support our economic future.
    Dr. Gosar. Thank you, Mr. Chairman, and I will wait for my 
turn again.
    Mr. Bishop. Thank you. Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. Deputy Director 
Burke, let me ask you a question. Part of the enticement of 
this land exchange is the acreage that is being exchange in the 
San Pedro as a conservation area, and adding to that 
conservation area.
    Let me ask you a question. If BHP, which is one of the 
parents of Resolution, presently has plans to build out their 
housing project up to approximately 5,000 units. What impact 
and value to the conservation would that have in terms of the 
7B ranch, which is the area, and this is downstream from the 
San Pedro as well, this housing development, and part of this 
is the whole area.
    I think the huge buildup that has happened has done more to 
devastate that area than anything else. But let me ask you what 
would the housing impact of that magnitude have on the 
enticement?
    Ms. Burke. We have not looked specifically at that housing 
development proposal. What we know is that the acquisition of 
these lands would help us maintain downstream surface flows, 
but I don't know what impact a residential development would 
have on that flow.
    Could you provide the Committee with a summary of what 
5,000 units would do downstream of the proposed acquisition in 
an exchange?
    Mr. Burke. Can I give you that in a written answer later?
    Mr. Grijalva. Yes.
    Mr. Burke. Thank you.
    Mr. Grijalva. Thank you. To the Forest Service, if I may, 
if the land is exchanged within the year as stipulated in the 
legislation, how can anything that drives out of the NEPA 
process be applied to the land that has already become private?
    Mr. Burke. Well, the time requirements in the bill 
provisions would be difficult if the NEPA process was followed 
in advance of the exchange. To your point, if analysis was 
conducted after the exchange, it would be most relevant on 
National Forests to the ancillary activities associated with 
the mining, power lines, roads, those types of activities.
    Mr. Grijalva. But in the land that is involved in the 
trade, the public land, once that year is up, what can you do 
about NEPA findings that apply to that land once it is already 
in the hands of Resolution Copper.
    Mr. Burke. The bill provisions would have that land be in 
the hands of Resolution Copper, and it would be private land at 
that point in time. We are advocating for NEPA to be conducted 
in advance of the exchange to go to your points, and to be able 
to disclose effects, invite public comment, conduct formal 
tribal consultation, mitigate impacts, and inform the decision.
    Mr. Grijalva. I know, and given that recommendation, the 
reason that I am asking the question is that once it is in 
private hands, regardless of what comes out of the NEPA 
process, there is not much that can be done.
    Mr. Burke. The Federal----
    Mr. Grijalva. The nexus is gone.
    Mr. Burke.--Government would not be making a requirement on 
the private land, correct.
    Mr. Grijalva. So this is one where in the different bills 
that we have seen on this issue, if that process would have 
gone forward instead of having to deal with one legislative 
initiative after another, then perhaps some of the questions 
that are lingering would have at least been addressed, and they 
have not to this point.
    One other question. Resolution Copper admits that there are 
billions and billions of dollars' worth of minerals in the 
ground, of which the United States will probably receive no 
benefits.
    Thus, even in Resolution Copper's own self-evaluation of 
the ore body underlining these public lands is on the orders of 
magnitudes greater in value than that of non-Federal parcels 
offered in exchange by RCC.
    My question is we are not only talking about surface issues 
in terms of the land exchange, but with the Forest Service, and 
with the Interior, is there any evaluation of the actual 
mineral rights that go with that exchange?
    Mr. Burke. My understanding of the bill provisions is that 
a mineral report would be required, and a valuation would be 
put on the copper ore body in consideration for the exchange, 
and a cash equalization payment, or additional compensation, 
could result.
    Mr. Grijalva. After the fact or before the fact?
    Mr. Burke. As a consequence of consummating the land 
exchange.
    Mr. Grijalva. And so that would be good information to 
have, but it would not deal with the value of the exchange, 
correct?
    Mr. Burke. It would contribute to equalizing the exchange.
    Mr. Grijalva. I will wait until the next round.
    Mr. Bishop. We will have another round. Representative 
Gosar.
    Dr. Gosar. Mr. Cherry, you said that 70 percent of the land 
that you want from the United States is under claim by your 
existing mining claims if I am not mistaken. If Congress had 
not imposed a ban on claiming patents in 1994, do you believe 
that much of the land that you are seeking would already be 
yours under the mining laws?
    Mr. Cherry. Yes, we do. Over the last 10 years, we have 
been actively pursuing mining interests in that area, and those 
would have been patented, and we would have picked those up in 
that area.
    Dr. Gosar. My friend on the other side made mention that 
the Federal Government would not benefit from this. I am really 
getting kind of--I want to make sure that I am understanding 
this. That we are going to get compensation through royalties 
through this, plus additional royalties if it goes beyond the 
ascertain of the mine. Am I not true?
    Mr. Cherry. There is the land appraisal process, and the 
cash equalization, which have already been discussed. So that 
portion gets contributed to the United States, but just as 
importantly the $20 billion in tax revenue to the Federal 
Government, State, and local governments, the jobs, and the 
taxes on the jobs, et cetera, and the $220 million annual 
payroll, those are all benefits that go into the community as 
well.
    Dr. Gosar. I am a big steward of my environment, and so I 
just heard something also that bothers me from my friend on the 
other side, which is value for value. The San Pedro River, Ms. 
Wagner, could you put a price on that as an ecosystem? Could 
you price that for me? Give me a price in dollars.
    Ms. Wagner. I think both the Department of the Interior and 
the Forest Service, and the Department of Agriculture, have 
testified to the importance of the non-Federal parcels, the 
ecological values, natural resource values, and the importance 
of those properties, no, I could not put a value on it.
    Dr. Gosar. It would almost be infinite because it is a 
giving process, and because we are restoring an ecological 
balance within the whole ecosystem, and so that is unbelievably 
much more valuable in regards to it.
    So I hope that we don't go back and look at the value 
exchange here in another aspect. Mr. Featherstone, have you 
benefitted or been awarded funds from the Equal Access to 
Justice Funding?
    Mr. Featherstone. No.
    Dr. Gosar. Thank you. Mr. Lewis, the same question.
    Mr. Lewis. No.
    Dr. Gosar. OK. Mr. Cherry, you showed us a display of the 
copper triangle, and have in another in your written statement 
that shows the drill holes and large infrastructures that 
already exist near the mine. Can you please pull these displays 
back up and highlight this infrastructure again?
    Mr. Cherry. I think they are going to put it up on the 
screen for us here.
    Dr. Gosar. And with particular emphasis on the existing 
roads and highways, and power transmissions that the gentle 
lady actually talked about these, because most of this, we are 
not adapting new ones. We are just utilizing stuff that is 
already there am I not? So would you just highlight those for 
me, Mr. Cherry?
    Mr. Cherry. As soon as they pull the map up here for us.
    [Pause.]
    Mr. Cherry. I will try to point these out. The pictures are 
a little small, but there is a better picture in the packet in 
the written testimony. This is the Copper Triangle and the 
laser pointer isn't showing on LCD screen here, but shown in 
the map on the bright blue lines, those are existing high 
voltage transmission lines that are guarding the area. So that 
infrastructure already exists, and we would tie into that.
    The white lines are major highways that go through the 
area. There is also a rail line in the area that we can tie 
into to transport product from the site. There are also a 
myriad of roads and other developments that we can use to 
develop this project.
    Shown in kind of the three corners of the triangle are 
three existing large mining operations that have been there for 
nearly a hundred years and producing. We are located right in 
the middle of that.
    So infrastructure is everywhere around us, and that is one 
of the great advantages to having this mine located where it 
is, and we are using the old Superior mine site as a platform 
to launch and build a new one, using a lot of the above-ground 
and underground infrastructure that is already in place.
    Dr. Gosar. Thank you. Mr. Featherstone, I want to go back 
to my question again, and so you said that you did not take 
equal access or had received Justice funding, but your 
coalition members have, have they not?
    Mr. Featherstone. Not that I know of.
    Dr. Gosar. I would like to have a report submitted in the 
10 days, please, sir.
    Mr. Featherstone. I am sorry, what?
    Dr. Gosar. I would like to have a report on that, because 
according to our records, your coalition members have.
    Mr. Featherstone. Whatever.
    Mr. Bishop. Mr. Grijalva, the second round.
    Mr. Grijalva. Thank you. Just out of curiosity, and 
following up on the nice tone set by my colleague, have any of 
the witnesses been employed by Resolution Copper, or any of 
their subsidiaries, or any of the numerous consultant lobbyists 
that work for the firm?
    [No response.]
    Mr. Grijalva. Good. Thank you. Mr. Cherry, in the two good 
points, in terms of the argument for this legislation that you 
made, and let me follow up on it. One was the domestic 
production issue, and the consumption that the American people 
should have, and the other one was the jobs generation, 3,700 I 
think was the number that you indicated initially.
    On the issue of the jobs, the calculation for those jobs is 
based on what, the mining plan of operation, or the feasibility 
study that the firm you hired? What is the basis of that?
    Mr. Cherry. The employment estimates are based on a couple 
of things. We are in the pre-feasibility design stages right 
now. That is based on 1400 direct employees.
    Mr. Grijalva. Does that pre-feasibility include the area of 
the Federal piece?
    Mr. Cherry. It includes the entire comprehensive mine plan, 
yes. Fourteen hundred direct employment jobs, and additional 
service sector and indirect jobs that would also be created for 
that, and that is how we get to those calculations.
    Mr. Grijalva. And what is the present level of employment 
based on the activities that are ongoing right now in terms of 
the company?
    Mr. Cherry. We have approximately 100 full-time Resolution 
Copper employees, and 400 contractors working on-site on a 
daily basis.
    Mr. Grijalva. And so I imagine that the population of 
Superior is booming, right?
    Mr. Cherry. Since I have been around, and since I 
originally looked at the site as early as 2004, the 
redevelopment on Main Street is actually quote impressive.
    Mr. Grijalva. Good. I was going to ask you, and I have also 
talked to residents in Superior that feel that--well, that's 
why you are having the political turmoil that is going on 
because there is some question as to the legitimacy of the job 
numbers, and the mine itself, but that is another issue.
    I was also going to ask you about the domestic consumption 
issue, which I think is a pervasive point, because we are 
importing what, 30 percent of our copper right now?
    Mr. Cherry. Approximately.
    Mr. Grijalva. So the assumption being that--well, is that 
an assumption, or is it something that you are going to put in 
place, and is the copper generated and extracted from this 
operation will not be exported out of the country?
    Mr. Cherry. Copper is a commodity that is traded like any 
other metal that is out there, but the process by which we 
produce a final product, we will produce a copper concentrate 
from the mine site, and that will go to smelters to be turned 
into pure metal.
    We will be looking to fill up any excess capacity in the 
United States. Our projections are that we will produce enough 
concentrate that we will potentially exceed smelting capacity, 
and if that were to occur, we would then have to look 
potentially overseas, but that is probably 10 years from now. 
So we will be watching the capacity of those smelters.
    Mr. Grijalva. OK. Well, what about China? I saw that they 
have a major stake in your parent company, Rio Tinto. What 
percent do they own?
    Mr. Cherry. They own less than 10 percent.
    Mr. Grijalva. And part of the negotiation before all that 
other problem happened in China with some of the employees of 
Rio Tinto, there was the issue of locking in the bulk purchase 
of copper for the future by China because they are eating up 
that raw material very, very quickly because of their growth, 
the growth of their industry and the development in their 
country.
    What percentage do you anticipate exporting, whether it is 
to China or other foreign entities?
    Mr. Cherry. We don't have those projections at this time. 
We need to look at the smelting capacity of the market as we 
get closer to producing our product.
    Mr. Grijalva. So hypothetically it could be major 
exportation to outside the country, and there is no guarantee 
that the domestic claim that you made is where the primary 
utility is going to be?
    Mr. Cherry. We will produce enough copper to meet 25 
percent of the United States domestic demand. Our intent is to 
use as much of the United States smelting capacity as we 
possibly can to make that happen.
    Mr. Grijalva. I will wait for another round.
    Mr. Bishop. You do have more questions?
    Mr. Grijalva. Yes.
    Mr. Bishop. All right. Do any of the other Members have 
questions here as well? All right. Let me take a couple of 
minutes and go with some of mine as well. Mr. Cherry, can I 
start by asking you, and as I understand it, the mine that 
would be opened here exists where a previous mine was, and it 
would be reopening and deepening a former mine?
    Mr. Cherry. The ore body is adjacent to the previous 
workings, but we will be utilizing many of the underground and 
existing workings and infrastructure that are already in place.
    Mr. Bishop. So how long was that earlier mine open?
    Mr. Cherry. It operated for almost a hundred years.
    Mr. Bishop. And how many people did you employ during that 
time like just at its peak operations?
    Mr. Cherry. We purchased that from a different mining 
company, and I don't have the specific numbers, but I would be 
happy to get those for you.
    Mr. Bishop. I am under the assumption that the San Carlos 
Apache Tribe had many of those jobs at that time?
    Mr. Cherry. There were San Carlos Apaches that did work for 
that mining operation, and I should probably note that we have 
seven San Carlos Apache that are working for us on our project 
today.
    Mr. Bishop. Has the Tribal consultation occurred with you?
    Mr. Cherry. We have reached out to the tribe on a number of 
occasions, and asked, and are open to having meetings. We have 
not yet been afforded that privilege yet, but I do know that 
Congressman Gosar has met with them several times, as has 
Senator McCain.
    Mr. Bishop. I am assuming, and maybe, Representative Gosar, 
you could answer this. Does the legislation have language 
dealing with consultation in it?
    Dr. Gosar. Yes, it does.
    Mr. Bishop. Mr. Cherry, what was the intent of the 
Eisenhower era Oak Flat withdrawal that we had, was that to be 
a permanent withdrawal?
    Mr. Cherry. My understanding is that back when that 
happened in the fifties that this was one of a number of sites 
that was taken out of mineral entry basically to afford camping 
areas and recreational opportunities across the country.
    Mr. Bishop. Either Major Hing or Supervisor Martyn, but 
back in 2007, when the Forest Service's testimony was that the 
Department supported the exchange, as well as the evaluation 
provisions, and believed that this was in the public interest. 
Do either of you still feel that this is in the public 
interest?
    Mr. Martyn. Thank you, Mr. Chairman. The Pinal County Board 
of Supervisors feels that this is completely within the public 
interest of not only Pinal County, but the State of Arizona.
    Mr. Hing. And I have to agree with that, Mr. Chairman, that 
it is in the best interests of the public, but I do want to 
make a comment about what Congressman Grijalva made earlier 
concerning this political turmoil that he claimed that exists 
in Superior.
    Since I have been the mayor for the past nine years, every 
council that I have served on where we have been dealing with 
this project have been a hundred percent in unanimous support 
of the operation.
    We just had recent elections and the same people that 
support that operation has been a hundred percent unanimous. 
Mr. Grijalva was referring to this turmoil because we do have 
like in these little communities little spats that go on, but 
that is a side issue.
    When it comes to the mining operation the company has 
been--and the councils, and even the regional councils, as well 
as neighboring town councils, have been very supportive and 
have sent resolutions of support of the operation.
    And in response to Congressman Grijalva's question, since I 
have been working on this project, and I do not work for the 
Resolution Cooper----
    Mr. Bishop. Hold on for one second here.
    Mr. Hing. He mentioned the political turmoil here, and I 
didn't understand what he was referring to.
    Mr. Bishop. Thank you. Mr. Grijalva will have a chance to 
go through that again with you, and I have perhaps have time 
for one last question to Chairman Talgo. Has there been a 
resolution from the San Carlos Tribal Council in opposition to 
this project?
    Mr. Talgo. I am not aware of that. My last position with 
the tribe was back in 1994, and so since then, I have not 
really been involved with tribal politics.
    Mr. Bishop. All right. That is kind of concurrent with what 
I have heard, that there was not a resolution specifically from 
that particular council, but thank you for that. I am going to 
yield back the rest of my time. We have been joined here by 
another gentleman, the Representative from Arizona, and under 
prior UC, we have allowed others to join us here, and 
participate. Do you have questions that you wanted to ask?
    Mr. Schweikert. Mr. Chairman, I appreciate you letting me 
sort of sneak in on your Committee. Mr. Cherry, and this is 
actually for you and anyone else, but I am blessed actually to 
have a district that is somewhat to the west, and I actually 
had someone text me a question.
    Apparently there is a lot of--and I know that this is a 
very small population, but some of these are my friends, but in 
recreation, and you have some of the great climbing areas, and 
the technical climbing areas around you.
    But with the landholdings that you have presently, do you 
allow those folks on your land?
    Mr. Cherry. We do, and we just recently signed a license 
agreement with the Queen Creek Climbing Association.
    Mr. Schweikert. You beat me to it, which I think I have to 
disclose I am a member of.
    Mr. Cherry. Very good. We would like to see you out there 
climbing.
    Mr. Schweikert. No, trust me, you don't want to see me 
climbing anymore. There was a time, but now I am about 20 
pounds heavier and it is not pretty, and is it your intention 
to allow that type of recreation, because you know that we have 
one of the big competitions in those things out in that area 
every year.
    Mr. Cherry. There are two parts to this aspect. One is that 
the land that we currently own, the private land. We have 
entered into a license agreement to allow them to come out and 
climb, and participate in recreational activities out there.
    We are also working on an agreement as to the lands that 
would be traded that would become Resolution property. Those 
lands would then enter into the same agreement to afford access 
to those sites, as long as it is always safe to do so.
    Mr. Schweikert. OK. Mr. Chairman, one other question for 
Mr. Cherry. How many years has this discussion been going on 
with you now?
    Mr. Cherry. This particular land exchange has been in the 
works for six or seven years.
    Mr. Schweikert. And forgive me, because I sit on Financial 
Services, but why do I feel that I have heard a half-a-dozen of 
these hearings going on around me?
    Mr. Cherry. Because you probably have. That is about how 
many there have ben over the years on this land exchange.
    Mr. Schweikert. And if I step back in history in this same 
area, haven't we had discussions of other mining properties 
over the last couple of decades?
    Mr. Cherry. I am only familiar with this particular one.
    Mr. Schweikert. OK. Having been sort of in and out of 
Arizona politics over the years, I feel like I am looking at a 
map and saying I swear that I have seen this on a board before. 
Mr. Chairman, thank you for letting me visit. I got the answer 
that I need, and so my fellow rock climbers will be happy with 
me.
    Mr. Bishop. Are you a concerned climber?
    Mr. Schweikert. I actually have a technical lead 
certificate, and no, I am not that good.
    Mr. Bishop. Mr. Denham, you have not had a chance to ask 
any questions on this bill. Do you have questions on this 
particular bill?
    Mr. Denham. Mr. Chairman, I would like to yield time to Mr. 
Gosar.
    Mr. Bishop. We will just go to your time, Mr. Gosar.
    Dr. Gosar. Thank you. Mr. Cherry, I want to address the 
mining with robotics. We commented earlier in the last couple 
of years in regards to the tragedy in the coal mine in the 
Western United States, or Eastern United States, and some of 
this stuff is very dangerous.
    And so we do use the robotics for that very process, do we 
not, for safety reasons?
    Mr. Cherry. We are always looking to improve safety of our 
operations in our mines that are out there. One of the main 
things that we are looking at in terms of the automated, and 
which they are more appropriately called in this case, remotely 
operated, is to get the robotic equipment that can operate at 
the working face in a way that is maybe a little bit quicker.
    But those still need remote operators. They may not be 
sitting on the piece of equipment at the operating face, but 
they will be off some distance, and they are still the folks 
that maintain it and other jobs associated with that.
    Dr. Gosar. And I am aware that the Native Americans--I 
mean, I was a dentist, and so the eye-hand combination skill 
set for Native Americans is by far higher than anybody else, 
and so I had hoped that you would continue looking at the 
Native Americans for those job skills.
    Ms. Burke and Ms. Wagner, can you tell me the average 
timeframe for a NEPA in District One?
    Ms. Wagner. I can't specific to the district, but I would 
be happy to look into that and provide you that information.
    Dr. Gosar. I can actually tell you. It is almost six years. 
That is inappropriate, and that is why I had to face my 
constituents up in Northeast Arizona that is burning, and I 
hope that everybody puts them in their prayers, because that is 
the only way that fire is going to stop, is because we have 
lacked common sense.
    And so I want to come back to that NEPA process, and have 
you owned a business?
    Ms. Wagner. No, sir.
    Dr. Gosar. Well, part of business is that when you own 
something, then you can pay for something, and that is what 
this detail does, is that if I don't own a piece of property, 
then why would I pay for the process, the environmental impact 
statement, and those kinds of processes.
    And what this basically does is that it does not shirk that 
responsibility, but what it does is the company is going to pay 
for that instead of the American public. That is what is key 
here.
    There is no difference. They are going to have to be under 
the same rules, the same laws, and nitpicky all the way 
through. So I just want to make sure that we understand that, 
and part of the problem is that in this NEPA process with which 
we are talking about, and why I had Mr. Cherry outline it for 
us, is that most of these infrastructures are already here.
    Most of these roads, the drilling parts are already done, 
and the NEPA process should not have to take so long. I am a 
common-sense kind of guy, and I think that the people of 
Superior, and I think the people of Arizona, and I think the 
people of this country, want to get back to common sense.
    And I think that this is where we have to go, and that is 
why we put some limitations, because we have to change. We have 
to be more nimble, and I am a steward of my environment, but we 
should have already had this stuff done.
    It shouldn't take a rocket science, and it shouldn't take 
six years to do a NEPA process. So I want to make sure that I 
am heard in regards to that and in that process, and I am sure 
that we are going to be looking at this NEPA process, and the 
environmental impact statements, because we have to start 
looking at it in stewardship.
    Because what we lost in Northeast Arizona is an atrocity. 
it is not cataclysmic by nature. It was cataclysmic because of 
man. We forgot about common sense, and I am told about it every 
day, particularly when we have an industry that is out there 
wanting to provide jobs, and to be in stewardship with their 
community, and we fail to acknowledge them.
    In fact, in this forest determination, it takes a super 
human effort by the head of the Forest Service and me just to 
get an RFP out that should have been out two-and-a-half years 
ago.
    And that is why we put some dictations. I want to make sure 
that when we have a bill that we live by those accountability 
measures. That is not just the private industry, but that is 
the Federal Government.
    It is communications with local and city, and so those are 
the things that we had. We went through extraneous measures to 
have dialogue with the Governor, with the land department in 
the State of Arizona, to make sure that all the taxpayers, the 
stewards of this area, were going to get their fair share, and 
that is what it has been here.
    And I want to applaud Bryan and Mayor Hing to come here, 
because I have to tell you that this actually shows us that 
with our banking industry and the shams that it is, I want to 
applaud our ideas of natural resources bringing in revenues to 
start up industry and start up rural America, because we 
deserve nothing less.
    We deserve this appropriately and so thank you so very much 
for all your stewardship in the business community. Thank you.
    Mr. Bishop. Mr. Grijalva.
    Mr. Grijalva. Thank you very much. If this legislation 
moves forward, the question, Mr. Cherry, goes back to the issue 
of exportation because China is one of Rio Tinto's principal 
customers--if not their largest customer.
    I think that a lot of the ore that comes from Australia 
ends up there, and they are in search of that commodity across 
the world, and not to single that out, but in all developing 
nations that don't have access to this resource are doing that.
    So my question is on the issue of exportation of the ore, 
and we should benefit the American people if we are using the 
natural resources of the American people, but will there be a 
prohibition for exportation of this ore out of the country?
    Would you entertain that, and would the company entertain 
that?
    Mr. Cherry. The copper that we will produce will be sold on 
the competitive market. There is a huge demand for copper in 
the United States, and as Congressional Gosar mentioned 
earlier, the new green energy economy, and with the wind 
turbines, and the solar panels, the electric hybrid cars, those 
all use a lot more copper than the conventional needs today.
    There is going to be a significant demand for copper--not 
only from China, but from the United States--and we'll be 
competing in the United States to sell that product.
    Mr. Grijalva. In the legislation, you have a series of 
definitions, and there is Resolution Copper, and there is all 
defined, and successors, and so I am anticipating that there 
will be a change, let's say, in the ownership of the parent 
companies which came close in the past.
    And so when you say successors, having read the 
legislation, what does that imply to you, Mr. Cherry, that some 
other entity could be the responsible party of this legislation 
down the road?
    Mr. Cherry. We don't anticipate that in any way, but that 
is standard legal language to have in there to ensure that 
anyone that would take over this, if that were ever to occur, 
they would have to live up to the same obligations that we 
committed ourselves to.
    Mr. Grijalva. And that could be foreign ownership, and it 
could be local ownership? I mean, American ownership, right?
    Mr. Cherry. Yes, it could be American owners.
    Mr. Grijalva. It has to be?
    Mr. Cherry. No, I said it could be.
    Mr. Grijalva. But it could be foreign as well?
    Mr. Cherry. It could be anyone.
    Mr. Grijalva. OK. Mayor and Supervisors, thank you for 
being here. I appreciate it, and Mayor, when I said turmoil, I 
was trying to be--and not trying to get into an explanation 
about it, but I thought it was well worth pointing out, and I 
appreciate you correcting me if I needed correcting. I don't 
think I did, but whatever.
    But anyway let me ask a couple of questions. Having been in 
the position that you are in as a local elected official, 
county supervisor, and I haven't been in any city or that 
jurisdictional part, let's talk about value.
    The hypothetical situation, and it is not that 
hypothetical, and somebody comes to the county, and says--or to 
the city, and says that I would like to purchase this piece of 
public land for X-project.
    And so you can either sell it, and you can sell that at the 
value that is on the surface of the land, or what is underneath 
the land, minerals, et cetera. Would you go for the highest 
value, or the highest return for your taxpayers, or would you 
do as we are doing with this legislation, only deal with the 
surface issue?
    Mr. Hing. Let me comment on that, Congressman Grijalva. 
When I look at when they keep bringing up this value issue, and 
I know that in the past that they talked about the royalties 
back to the Untied States, or the people, and that is something 
that you have to figure out.
    But when I look at the surface right now is the economic 
development that would take place, because this is a resource 
that is there. It is not overseas, and it is in the back yard 
of Superior, and so that you can't move that ore body.
    So the product is there, and you will bring production, and 
you will hire people locally in the region to build an economic 
base, and that is why I am saying that is important. You are 
the ones that will figure this out, the price, and that's why 
that is your job, but when I look at it from a service level, 
that is important.
    Mr. Grijalva. Thank you. Supervisor.
    Mr. Martyn. Mr. Chairman and Mr. Grijalva, thank you. 
Obviously we look for the highest value for our constituents, 
and highest value for our constituents in my opinion represents 
the increase in educational opportunities, and increase in the 
quality of life, and increase in jobs, increase in economic 
benefits to the State of Arizona, versus what we have done in 
the past six years, which is nothing.
    You have contributed zero to the Arizona economy by doing 
nothing on this. There is great value available to us 
immediately. Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Gosar, did you have some more questions? 
All right. Mr. Gosar.
    Dr. Gosar. Chairman Talgo, can you name some examples of 
the way that the San Carlos Apache Tribe have embraced forward 
thinking ways of economic development while respecting their 
great traditions?
    Mr. Talgo. Well, every Administration has their own 
philosophy on how they run their own government. I know and 
think that the tribe is working toward developing a strategic 
plan based by the Water Rights Settlement that will provide 
better future plans.
    I really don't have much information from the tribal 
government, but it does see a better future. Like in the gaming 
industry, right next to the Grove City is a casino. Just 
imagine if they built and had 3,500 to 4,000 people on the 
payroll, what kind of dividend would the gaming industry bring 
to the San Carlos Apache Tribe.
    These are some of the answers that should be coming from 
the leadership, which they need to confront this because this 
stimulus package will bring to their reservation. So to me I 
see that in a better sort of economic structure that is going 
to provide jobs.
    Right now seven out of ten are unemployed, and so I think 
that they are the ones that should have an answer.
    Dr. Gosar. Thank you, and I think another one that came to 
mine is the support of the Mac Ground Telescope as well. So 
there are things on the horizon. Value. Commissioner Martyn. 
You know, this is easy to talk about, and why I keep bringing 
it up natural resources is that the state of banking for small 
banking in Arizona, can you give me an example of how stable 
that banking situation is?
    Mr. Martyn. Mr. Chairman, and Dr. Gosar, I can't speak to 
the stability of the banking industry in the State of Arizona, 
or in the United States at this time.
    Dr. Gosar. It is pretty hard to get a loan isn't it?
    Mr. Martyn. Yes, it is.
    Dr. Gosar. In particular, the Federal Government has 
restricted the capital, and so I want to get back to this 
natural resource. I am aware that when you have a natural 
resource job, and we talk about the support of green energy, 
and all these jobs, and I guess that I saw a headline today 
talking about the dwindling effects within green energy because 
some of the oomph is not behind it.
    It circulates in a local community 4 to 5 times if I am not 
mistaken, and within a State, 7 to 8 times, and it is an 
infusion of new money. So it actually breeds new jobs does it 
now?
    Mr. Martyn. Amen, it does. It does.
    Dr. Gosar. And this isn't just--we are not just talking 
about this in Pinal County, because I realize that we have a 
big farming aspect do we not?
    Mr. Martyn. We do. This impacts far more than just Pinal 
County and neighboring Hela County, and the San Carlos Tribe, 
and Arizona, and it actually affects the entire Southwest 
United States, and ultimately the United States of America.
    Dr. Gosar. So when you are talking about value, we want to 
have consolidated recreational areas, and we want to be able to 
keep pristine areas intact--you know, like the San Pedro 
River--for everybody to enjoy, but also have economic 
diversity. Do you see that?
    Mr. Martyn. I do, Dr. Gosar. I see a critical balance that 
must be met relative to the wants, needs, and desires of all of 
our citizens of Pinal County and Arizona.
    Dr. Gosar. Good. One last thing. Mayor Hing. I want to make 
sure that we come back to this discussion, because in the past, 
Congressman Schweikert brought up a number of meetings and 
hearings that we have had over the years around here. Can you 
tell me who has all come to Superior to learn about this, and 
do you know in consultation with you with the tribes?
    Mr. Hing. Well, I appreciate Senator Kyl and Senator McCain 
visiting the site, as well as members of our delegation, but my 
concern was with Congressman Grijalva, who has been opposed to 
this, has not set foot in the Town of Superior since this 
project was underway, and I continue to invite him to come out, 
because he needs to meet the people.
    He hears a handful who go and knock on his door, and he 
needs to come out to the Town of Superior and meet the people. 
Dr. Gosar, you don't understand. When we talk about economics, 
our community went from 7,000 people to under 3,000 now.
    Under 3,000. Do you know how you live through that? Have 
you ever been in a community where it has got boarded up, and 
just the life just taken out of Main Street, with just a spur 
of what is a possibility has put a little bit of life into the 
community.
    But we have not recovered. I mean, it has been over a 
decade now. You come and live in that community, or should we 
just desert that, and should we just wipe the Town of Superior 
off the map, and that it is not going to make it anymore?
    My granddad came in the 1920s from China to make a living. 
He raised 10 kids in that family. My dad raised seven of us. I 
am raising four. I care about the environment. I am a very 
strong environmentalist, but I know that there is a balance.
    We have a chance to hold Rio Tinto accountable to the 
environment. Why not do it in Superior?
    Dr. Gosar. And isn't it about common sense?
    Mr. Hing. It is common sense. I asked everyone to come out. 
We had Secretary Vilsack, Secretary Salazar come out, and we 
said walk the town. They were heartbroken to see that, the 
community, and what we went through. So I invite anyone from 
the Committee to come out, and we will give you Mexican food. 
Don't worry.
    Mr. Bishop. I like Chinese food here. All right. 
Representative Grijalva.
    Mr. Grijalva. Thank you very much. Let me--well, on one of 
the issues that Rio Tinto brags about--and going back to the 
issue of jobs, because the urgency, and that this will be the 
revitalization, and shot in the arm that the region needs, and 
certainly the fine people of Superior.
    So let's talk about job, and let's lock that job estimate 
down, because I am sure that the good mayor here would not want 
to be promising the residents and his constituents a number of 
jobs, and economic development, and then not see it happen.
    And so the guarantees that he has received, let's talk 
about the guarantees in public. Realizing that they are mines 
of the future, which will include on their promotional 
materials, Resolution Copper, humans will no longer need to be 
hands on as all of our equipment will be autonomous, and able 
to make decisions on what to do base don their environment and 
interaction with other machines. Operators will oversee the 
equipment from a remote operation center.
    Once fully operational the remote operations center is 
unlikely to be located in Superior, Arizona. So, let me ask you 
the question, Mayor. Would that change at all your support for 
this project if, let's say, you are going to these automated 
systems now, and in doing so, Mayor, the remote center would go 
to where their headquarters is, which is in the Chairman's 
State, in Utah, because it can be run at a distance, this 
technology, high end.
    Does that in any way affect your support for the copper 
mine if that were not to come true?
    Mr. Hing. Well, you know, I can't speak on behalf of the 
company. All I can speak right now to is what they have done 
and shown the Town of Superior. The partnership that they have 
created with the community, and----
    Mr. Grijalva. Well, I am asking you a specific question, 
Mayor, and I am saying if that remote----
    Mr. Hing. I would not be in favor of that, of course not. I 
would not be in favor of that, of course not.
    Mr. Grijalva. All right. Thank you. The other thing that I 
wanted to ask if I can to Mr. Firestone. There will be a 
tailings pile for this mine. Do we know where it is going to be 
located, how it will be cleaned up, what will be the cost of 
cleaning up the site once mining operations stop, and does the 
bill specify who would pay the cost?
    Mr. Featherstone. You are asking me that?
    Mr. Grijalva. Yes, sir.
    Mr. Featherstone. No, we do not. We do not know any of 
those things. The company may know that, but until a detailed 
mining plan is written, the answers to those questions, we have 
no idea, but we can speculate.
    At one point in time the company was taking about dumping 
their tailings over in the Pinto Valley mine, and now they are 
perhaps talking about dumping those next to Supersita and 
Vista.
    We really don't know until we have something in writing 
from the company and the mining plan of operation.
    Mr. Grijalva. And under this legislation the land exchange 
would be completed before the mining plan of operation is 
produced, and the carriage before the horse, or however that 
saying goes, and I think it would be important, because 
everything about this is not about in pending, or stopping 
something. It is about making sure that there are no unintended 
or intended consequence to an operation of this magnitude.
    I want to enter into the record from the last hearing, 
Resolution Copper responded to many questions that were raised, 
and in the submittal, Mr. Chairman, there are also the 
contradictions about things that have been taken out in this 
current legislation that were part of the bragging points that 
the company sent us the last time that they were here.
    Mr. Bishop. Without objection so ordered.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Grijalva. Thank you. And so the unintended consequences 
are very important. The jobs issue, and let's get a firm 
number, and let's tie that number to something that cannot be 
changed, whether it is a remote operations center, the number 
of people that will be working at that site, let's get a 
number.
    So that way the good people of the region know exactly what 
it means. The issue of exportation and our issues of strategic 
reserve and in terms of this very valuable ore for our own 
Nation's security and stability, and I think those answers need 
to be answered.
    And the consultation that is not only owed to, but 
obligated by Executive Order, that has to happen with the 
Native Peoples in the region needs to happen before this is 
done.
    This is your right. This is about the fourth or fifth 
hearing on this, and every hearing these same questions are 
asked, and then the company goes to the Senate, and gets them 
punted, and nothing happens.
    And so the questions persist, and they are going to 
continue to persist all the way up to a mark-up, and all the 
way to the Floor, and all the way up to the Senate. It behooves 
the company, and it behooves the Administration, to answer 
these questions, and to consult with the tribes, do the full 
NEPA review before, and do the mining plan before, and deal 
with those consequences so that the American people will know 
the issue of value.
    Is the American taxpayer getting his or her fair share out 
of this deal. Those questions will persist because there are no 
answers to them. This company has been trying to ram this 
through one way or another now for five years, and they can try 
again.
    Those questions are going to persist, because there are no 
answers to them, and there must be in order for us to be 
transparent, and to give the American taxpayer a fair shake. I 
yield back.
    Mr. Bishop. Actually, we have spent a long time on this 
bill, but this is the purpose of having committees in the first 
place. Mr. Grijalva, do you have any other questions that you 
want to ask on this one?
    Mr. Grijalva. No.
    Mr. Bishop. All right. Mr. Gosar, do you have any other 
questions that you want to ask on this one? If not, then let me 
give you the last five minutes and then we will move on to the 
last bill if that is OK, unless you change your mind, and you 
get the last word.
    Mr. Grijalva. It depends on the five minutes, you know.
    Dr. Gosar. You know, I am sad to say, but I am actually 
happy that we are actually talking about jobs. I mean, jobs, 
jobs, jobs, jobs, jobs, jobs.
    And it has been a fairly of the Federal Government in 
everything that we have touched, from the stimulus to the 
banking, to produce jobs. And it is about time that we started 
empowering the States and local communities to get back into 
this aspects and work.
    And I think that we have highlighted the NEPA process, and 
that it should be a streamline process, particularly in these 
regards. But, Mr. Cherry, my colleague brought up some 
wonderful questions in regards to details, and being a dentist, 
I am very detailed oriented.
    In fact, I have gone through my stewardship looking at 
different environments, and also our natural resources, to make 
sure that we are compensated appropriately. Are you in dialogue 
with the State of Arizona at all with where we are talking 
about deposits of these tailings?
    Mr. Cherry. We have had discussions with the State of 
Arizona on that.
    Dr. Gosar. Good, and they will be under full compliance 
under the State, as well as the Federal jurisdiction as well?
    Mr. Cherry. Anywhere. We are looking at multiple sites, but 
anywhere that we put our tailings, or any part of our mining 
project, it will all be in compliance with all applicable rules 
and regulations.
    Dr. Gosar. Let me ask you a question. In consultation with 
the tribes, and with the government, and I am a servant of the 
government, and I talk to private industries, have you had the 
opportunity to speak with the tribes?
    Mr. Cherry. I have not.
    Dr. Gosar. Actually, they have refused have they not?
    Mr. Cherry. I have sent a letter and asked for meetings, an 
have been politely told that they are not interested at this 
point.
    Dr. Gosar. So the consultation process--you know, I have 
gone several times, and I have also extended that hand, and we 
still try to ignore that, and are still playing up that flag.
    So my suggestion is that there are no absolutes, but it is 
obvious to me that when we are working in good faith, that we 
sit down and communicate, and that is for all parties to 
consider.
    And number two is that that includes the Federal 
Government. The Federal Government working with the State and 
local entities, which has not happened. In fact, it has just 
been stalled.
    And that is why I brought up frankly the Access to Justice 
Funding, because what we found out is that we can wait until 
the last minute, and put a stamp, and have it filed on a day, 
and have it hold up the whole process.
    And there is something wrong with that process, and I think 
that America is tired of it. Absolutely tired of it. And they 
want good faith, and they want some common sense put back in 
place.
    And so would you, Mr. Cherry, be open to discussions should 
the tribes want to talk to you?
    Mr. Cherry. Absolutely, at any time, and anywhere.
    Dr. Gosar. And do you think that there should be a benefit, 
or are you willing to help with the culture of the Apaches, and 
your company, and not only today, but in the future?
    Mr. Cherry. Absolutely.
    Dr. Gosar. And, Bryan Martyn, how about you? How about the 
dialogue between Pinal County and the San Carlos?
    Mr. Martyn. Dr. Gosar, I can't speak to that. The County 
Board of Supervisors has not met directly with the San Carlos 
in this situation. We, of course, are available to all 
constituents throughout Pinal County and the State of Arizona 
relative to projects, and the invitation is always there.
    Dr. Gosar. Mayor Hing, how about you?
    Mr. Hing. We have asked many times to speak to Chairman 
Knowles at the time, and as they stated, they only have 
consultation directly with the Federal Government, government 
to government, even though I am a local government. They 
refuse.
    Dr. Gosar. Well, thank you, and that is the end of my 
questions.
    Mr. Bishop. Thank you. I will recognize Mr. Grijalva for 
the last set of questions.
    Mr. Grijalva. Thank you. To my colleague, and it is not 
reacting to just anything, but a couple of corrections. I think 
that the Mayor--and the one point that I was going to make, is 
that when we talk about consultations with native people, it is 
government to government.
    There is an issue of sovereignty, and unless Resolution 
Copper has become a national government in the last few years 
and that I didn't know about, there is no need to consult 
there.
    The consultation is with the Interior on this issue, and it 
is with the Forest Service on this issue, and that is the point 
that is being made, and that is the one area that has been 
ignored throughout this process, formal government to 
government consultations.
    And not company to tribe consultations, and not individual 
cities to tribe consultation. Federal Government to tribe 
consultation, and that is what is demanded by the law.
    And I also want to for the record, and I will submit all 
those resolutions, the San Carlos Tribe continues to be opposed 
to this mine, and they do that in the form of a resolution with 
the new Administration that is in place as well, and I will be 
entering those and other resolutions for the record, and thank 
you, Mr. Chairman.
    [NOTE: The resolution submitted for the record has been 
retained in the Committee's official files.]
    Mr. Bishop. Thank you. Well, this ends our non-
controversial bills. I thank all of those that are witnesses in 
this particular one, and the Members who deal with this. We 
have one bill still to be considered, which is H.R. 869, the 
Lower Merced River Flood Control Project.
    Ms. Burke, we would ask you to remain for this one, and as 
we make this change, I also invite Mr. Brian Kelly, who is the 
Director of Regulatory Compliance and Government Affairs from 
the Merced Irrigation District; and Mr. Ronald Stork, who is 
the Senior Policy Advocate for Friends of the River, to join us 
at the table.
    [Pause.]
    Mr. Bishop. So, welcome, Mr. Kelly, Mr. Stork, who is 
making his way there. As we do on the Floor, we are grateful 
for our guests, and we would ask them if they would exit 
quickly and take the conversations to the hallway, because like 
any good legislative body, we don't do any work here until 
everyone is gone.
    This particular bill is brought to us by Congressman Denham 
from California. Congressman, I will recognize you for the 
first five minutes to introduce your bill.

  STATEMENT OF HON. JEFF DENHAM, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Denham. Thank you, Mr. Chairman, for allowing me to 
bring this bill up before the Subcommittee today. This 
legislation before the Committee today is a simple common-sense 
bill that will provide for much-needed water storage during wet 
years in the Central Valley of California.
    This bill has bipartisan support in Congress, from 
California water organizations throughout the State, cities, 
counties, labor, and recreationalists, as well as the Central 
Valley Coalition of Republicans and Democrats.
    This past winter was considered a wet water year for 
California. Currently, dams are in flood control operations and 
releasing thousands of acre-feet of water due to the lack of 
sufficient storage.
    The Central Valley of California is home to the world's 
most productive farmland, and the economies of most communities 
in the Valley are buoyed by the agriculture production that 
occurs throughout the Valley.
    I would like to submit for the record a chart that shows 
the direct correlation to jobs, and the amount of water that 
the Central Valley receives. It clearly shows that a lack of 
water means that there are a lack of employment opportunities.
    My district continually suffers from unacceptable high 
unemployment, and currently unemployment is hovering around 18 
percent, which is double the national average. We are dependent 
on water for jobs, and communities to be sustainable, and 
livelihoods of farming operations.
    H.R. 869 is as simple a piece of legislation that can be 
drafted to create desperately needed water storage. Simply 
stated the bill will allow for the Merced Irrigation District 
to raise the level of Lake McClure by 10 feet for 60 days 
during a wet year.
    With this legislation the Merced Irrigation District will 
apply for relicensing with FERC, with the proposed spillway 
modification included in their application. Their application 
will still be subject to the full FERC review process once the 
application is filed.
    This legislation will provide up to 70,000 new acre-feet of 
additional water, which can serve 1700 homes and generate 
roughly 10,000 megawatt hours of clean renewable electricity on 
an annual basis.
    There is no simpler or more logical a proposal to create 
jobs, and much needed water storage where both are so greatly 
needed. Let me also inform this Committee that this legislation 
will not cost any State or Federal funds.
    Again, let me thank the Chairman for bringing H.R. 869 
before this Committee, and let me thank Mr. Bryan Kelly for 
flying out from the Merced Irrigation District to help fully 
convey what the bill does, and how much it is needed.
    Mr. Bishop. Thank you. Ms. Burke.

 STATEMENT OF MARCILYNN BURKE, DEPUTY DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Burke. Good afternoon, and thank you for the 
opportunity to testify today on behalf of the Department of the 
Interior on H.R. 869 concerning the Merced River. This bill 
would amend the Wild and Scenic Rivers Act to increase the 
allowed level of Lake McClure in Central California.
    The BLM does not support H.R. 869 because it conflicts with 
previous Congressional direction requiring the BLM to preserve 
and protect the lower reaches of the Merced River under the 
Wild and Scenic Rivers Act.
    The lower Merced River is noted for having some of the most 
outstanding scenery and whitewater boating opportunities in 
California. This bill would impact many other marketable values 
that make the lower Merced suitable for Wild and Scenic River 
status.
    H.R. 869 would for the first time authorize the inundation 
of a previously designated segment of the Wild and Scenic River 
system. This would result in a wild river segment becoming more 
like a lake than a river, and compromises the integrity of the 
Wild and Scenic River system, the purpose of which is to 
preserve rivers and their free-flowing condition.
    The BLM supports a careful review and determination on how 
best to balance both the protection and use goals of the Merced 
watershed. Thank you again for this opportunity to testify, and 
I would be happy to answer any questions.
    [The prepared statement of Ms. Burke follows:]

     Statement of Marcilynn Burke, Deputy Director, Bureau of Land 
Management, U.S. Department of the Interior, on H.R. 869, Lower Merced 
                   Wild & Scenic River Modifications

    Thank you for inviting me to testify on H.R. 869, a bill amending 
the Wild and Scenic Rivers Act to increase the allowed level of Lake 
McClure in central California. The Bureau of Land Management (BLM) does 
not support H.R. 869 because it conflicts with previous Congressional 
direction requiring the BLM to preserve and protect the lower reaches 
of the Merced River under the Wild and Scenic Rivers Act. The full 
implications of H.R. 869 are not clear, and the BLM believes further 
study and consideration are necessary before final action is taken. The 
BLM supports a careful review and determination on how best to balance 
both the protection and use goals of the Merced watershed.
Background
    Section 1 of the 1968 Wild and Scenic Rivers Act (Public Law 90-
542) sets forth Congress' vision for management of the Nation's rivers:
        ``It is hereby declared to be the policy of the United States 
        that certain selected rivers of the Nation which, with their 
        immediate environments, possess outstandingly remarkable 
        scenic, recreational, geologic, fish and wildlife, historic, 
        cultural, or other similar values, shall be preserved in free-
        flowing condition, and that they and their immediate 
        environments shall be protected for the benefit and enjoyment 
        of present and future generations. The Congress declares that 
        the established national policy of dam and other construction 
        at appropriate sections of the rivers of the United States 
        needs to be complemented by a policy that would preserve other 
        selected rivers or section thereof in their free-flowing 
        condition to protect the water quality for such rivers and to 
        fulfill other vital national conservation purposes.''
    From its headwaters in the snow-fed streams of the Yosemite 
National Park high country, the Merced plunges thousands of feet 
through boulder lined canyons before emptying into Lake McClure. Over 
122 miles of the Merced River in central California have been 
designated by Congress as components of the National Wild and Scenic 
River System.
    In 1992, Public Law 102-432, extended the previously designated 
Merced Wild and Scenic River by an additional eight miles to the 867 
feet spillover level of Lake McClure. The BLM manages the upper five 
miles as a recreational river and the lower three miles as a wild 
river. Under the provisions of P.L. 102-432, the level of Lake McClure 
may not exceed an elevation of 867 feet above mean sea level, a level 
intended to balance water and power needs of the local community with 
protection of the outstanding remarkable values of the lower Merced 
River.
    The lower Merced River is noted for having some of the most 
outstanding scenery and whitewater boating opportunities in California 
and the nation. Every summer over 10,000 whitewater enthusiasts test 
their skills on the river. The BLM currently permits 12 commercial 
businesses, which guide most of these recreationists on this section of 
the Merced River.
    The communities of Mariposa and El Portal benefit from these 
whitewater boaters who contribute to the local tourism economies. 
Boaters generate important economic activity during the traditionally 
lower visitation times of spring and early summer, expanding the length 
of the Yosemite region tourism season. This river-dependent tourism 
provides a greater level of economic and employment stability for these 
communities.
H.R. 869
    H.R. 869 provides for an increase in the allowed lake level, from 
the currently permitted 867 feet to 877 feet for a period not to exceed 
60 days, along with a 30 day draw-down period. This elevated level 
would occur from May 1 and July 31, which coincides with peak 
recreation season for the corridor. It is our understanding that the 
intent is to provide additional power and water supplies for home and 
agricultural use in the Central Valley of California during wet years.
    The full implications of H.R. 869 are not clear and the BLM 
recommends the bill's ramifications be more fully explored before the 
Committee moves forward. Potential impacts from inundation could be 
substantial to both natural resources and local economies. It appears 
that approximately one-half mile of the Merced Wild and Scenic River 
corridor would be inundated by an increase of the McClure Lake by ten 
feet above current levels.
    Among the potential resource implications of this inundation are 
habitat loss for both the limestone salamander (a California designated 
Fully Protected Species) and the elderberry longhorn beetle (a 
federally listed threatened species under the Endangered Species Act). 
The BLM Limestone Salamander Area of Critical Environmental Concern 
(ACEC) would be at least partially flooded. Impacts may also include 
loss of riparian vegetation and degradation of the scenic values of the 
corridor. Additionally, significant cultural and historic resources in 
the area, including the remains of the Yosemite Valley Railroad and 
historic gold-mining sites would be degraded.
    A variety of recreation activities within the river corridor could 
also be impacted by the legislation. For whitewater boaters, inundation 
would add another half-mile to an already arduous paddle across flat 
water to an alternate take-out. In addition to boaters, the canyon is 
becoming increasingly utilized as a recreational destination for 
hikers, mountain bikers, and equestrian riders who could be displaced 
by a likely inundation of five miles of the existing Merced River 
trail.
    H.R. 869 would authorize for the first time the inundation of a 
previously designated segment of the Wild and Scenic River System. Such 
an unprecedented action would result in a wild river segment becoming 
more like a lake than a river and could compromise the integrity of the 
Wild and Scenic River System, the purpose of which is to preserve 
rivers in their ``free-flowing condition.''
Conclusion
    Before further action is taken on H.R. 869, the BLM recommends that 
all of these implications of changes to the level of Lake McClure be 
more fully explored. Thank you for the opportunity to testify.
                                 ______
                                 
    Mr. Bishop. Mr. Kelly.

   STATEMENT OF BRYAN KELLY, DEPUTY DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Kelly. Chairman Bishop, Ranking Member Grijalva, and 
Members of the Subcommittee, my name is Bryan Kelly, and I am 
the Director of Regulatory Compliance and Government Affairs--
Water, for the Merced Irrigation District.
    Thank you for the opportunity to testify in support of H.R. 
869. I would like to begin by thanking Congressman Denham and 
the cosponsors of H.R. 869 for introducing this bipartisan bill 
that could improve the precarious water supply situation in 
California's San Joaquin Valley at no cost to the Federal 
Government.
    The Merced Irrigation District owns and operates 
hydroelectric facilities on the Merced River, consisting of the 
New Exchequer Dam and Reservoir, and Lakes McClure and McSwain.
    They are located in the western foothills of the Sierra 
Nevadas, approximately 23 miles northeast of the City of 
Merced. The water managed by MID flows west through Lakes 
McClure and McSwain, and continues down the Merced River and 
through over 700 miles of canals, to serve over 2200 growers in 
Merced County.
    The water supplied by the New Exchequer Dam supports 
approximately 3600 jobs, and $120 million in agriculture. The 
majority of those served by MID are family farmers, with an 
average parcel size of 30 acres.
    The hydroelectric facilities operate under a license from 
the Federal Energy Regulatory Commission, or FERC. That license 
is up for renewal in 2014 and is part of the relicensing 
process that MID has developed a New Exchequer spillway 
modification project.
    The project would increase the height of the existing 
spillway gates on Lake McClure and raise the crest elevation of 
the existing ungated spillway by approximately 10 feet to allow 
for additional storage capacity in wet years.
    MID would be able to take full advantage of this additional 
storage about once every three years, capturing up to 70,000 
acre-feet of water in a single wet year. MID would pay the 
estimated $40 million cost of the spillway modification 
project, and no Federal funding is required.
    But the Federal legislation is necessary to allow FERC to 
consider the merits of the project. That is the purpose of H.R. 
869. In 1992, Congress amended the Wild and Scenic River Act to 
add the lower Merced River to the Wild and Scenic River System.
    The Act set the downstream boundary of the Wild and Scenic 
designation at the normal maximum operating level of Lake 
McClure at 867 feet above sea level. This means that the Wild 
and Scenic designation extended into MID existing FERC boundary 
for Lake McClure.
    The Act also contains a provision for flood control 
operations. This provision is important because during high 
snow melt conditions the river at the upper end of Lake McClure 
is actually higher than the lake level at the dam, with water 
levels above the 867 foot Wild and Scenic boundary.
    This happens on a regular basis during wet years, and it is 
happening now. This month the water level in the Wild and 
Scenic portion of the river contained within the FERC boundary 
was about at an elevation of 884 feet, while the water surface 
at the New Exchequer Dam was 824 feet.
    The Act also says that FERC may only relicense MID's 
hydroelectric project to a maximum normal operating level of 
867 feet. This provision prevents FERC from considering MID's 
spillway project, which proposes to occasionally maintain a 
lake level up to 877 feet.
    H.R. 869 is intended to allow FERC to consider the project 
on the relicensing process, and sets limits on the time and 
duration of the temporary inundation of the Wild and Scenic 
area.
    And I want to be absolutely clear on this. MID supports the 
Merced River's Wild and Scenic designation above Lake McClure. 
This designation helps to ensure MID's water sources is one of 
the most pristine in California.
    It is important to note that H.R. 869 does not mandate, 
authorize, or in any way prejudge the merits of the proposed 
project. It simply allows the project to undergo a rigorous 
examination by FERC and other Federal and State Agencies in a 
public process.
    The process would address all potential impacts in 
accordance with NEPA, CEQA, ESA, and California ESA. MID has 
discussed the proposed project with conservation groups, and is 
aware of their concerns about H.R. 869, and setting a precedent 
for altering the Wild and Scenic Act.
    MID is open to discuss ways in which to address this with 
them. However, a project that can provides tens of thousands of 
acre-feet of new water in the San Joaquin River Valley at no 
Federal costs certainly bears consideration by FERC.
    Every urbanized area in Merced County is a disadvantaged 
community. Our unemployment rate continues to hover around 18 
to 20 percent. Agriculture remains the largest employer in our 
community, and agriculture depends on water.
    According to a 2009 study, each 100,000 acre-feet of water 
supports 1200 local jobs and $40 million in agriculture 
revenues. H.R. 869 is simply intended to allow FERC to consider 
a project that will create jobs and further support Merced 
County's economic base.
    We ask that the Subcommittee and the House Natural 
Resources Committee support H.R. 869. Thank you for your time 
and consideration.
    [The prepared statement of Mr. Kelly follows:]

    Statement of Bryan Kelly, Director of Regulatory Compliance and 
   Government Affairs--Water, Merced Irrigation District, on H.R. 869

    Chairman Bishop, Ranking Member Grijalva, and members of the 
Subcommittee, my name is Bryan Kelly and I am the Director of 
Regulatory Compliance and Government Affairs---Water for the Merced 
Irrigation District (MID). I am pleased to be offered this opportunity 
to testify in support of H.R. 869, legislation that would allow the 
Federal Energy Regulatory Commission (FERC) to consider proposed 
improvements to the spillway at New Exchequer Dam that will provide 
additional water supply to Merced County and the San Joaquin Valley of 
California.
    I'd like to begin by thanking Congressman Denham and the cosponsors 
of H.R. 869 for introducing this bipartisan bill that could improve the 
precarious water supply situation in California's San Joaquin Valley 
without major environmental impact and at no cost to the federal 
government.
    The Merced Irrigation District is a California Public Agency under 
the California Irrigation District Law. MID owns, operates and 
maintains hydro-electric facilities on the Merced River, consisting of 
the New Exchequer Dam and Reservoir (Lake McClure) and McSwain Dam and 
Reservoir (Lake McSwain). They are located in the western foothills of 
the Sierra Nevada mountain range, approximately 23 miles northeast of 
the City of Merced. Lake McClure has a storage capacity of 1,024,600 
acre-feet, while Lake McSwain has a storage capacity of 9,730 acre-feet 
and is operated principally as a regulating reservoir for MID's 
hydroelectric generation facilities at New Exchequer Dam (FERC Project 
No. 2179).
    The water managed by MID flows west from Lakes McClure and McSwain 
through the New Exchequer Dam hydroelectric plant creating over 100 
megawatts of clean, renewable energy. The water then continues down the 
Merced River or through more than 700 miles of canals for irrigation 
use by more than 2,200 Merced County growers. The average 300,000 acre-
feet of irrigation water supplied by New Exchequer Dam directly 
supports approximately 3,600 jobs and $120 million in agriculture 
revenue. The majority of those served by MID's water are family 
farmers, with the average farm size being 30 acres.
Proposed New Exchequer Dam Spillway Modification Project
    MID's hydroelectric facilities are operated under a license from 
the Federal Energy Regulatory Commission. That license is up for 
renewal in 2014, and as part of the relicensing process MID has 
reviewed potential project enhancements, including increased storage in 
Lake McClure. In many years, runoff exceeds the reservoir's storage 
capacity and additional capacity would allow for the capture of excess 
runoff for use during future dry years. 2011 has been a very wet year, 
and MID will most likely completely empty the equivalent of Lake 
McClure's full capacity to provide storage space required to 
accommodate run off from a record-setting snowpack.
    To be able to store at least some of this wet-year bounty, MID has 
developed The New Exchequer Dam Spillway Modification Project (the 
Project). The Project would increase the height of the existing 
spillway gates on Lake McClure and raise the crest elevation of the 
existing un-gated spillway by approximately 10 feet to allow for 
additional storage capacity in wet years within the existing FERC 
Project Boundary.
    Based on known hydrology, we estimate that MID would be able to 
take full advantage of this additional storage about once every three 
years, capturing up to 70,000 acre-feet of water in a single wet year. 
This occasional, short-term boost in storage will provide water supply 
benefits year after year by allowing higher carryover storage. We 
estimate that the project would increase average critical (dry) year 
water supply by 15,000 acre-feet. The additional water would also 
enhance MID's groundwater storage and conjunctive use opportunities, 
provide incidental flood control benefits and provide greater 
flexibility in meeting the needs of agriculture and the environment 
within MID and in the San Joaquin Valley as a whole.
    The additional water would also generate up to an additional 10,000 
mega-watt hours per year of clean, renewable energy, enough power to 
serve 1,700 homes.
    MID would pay the estimated $40 million cost of the Spillway 
Modification Project. No federal funding is required. But federal 
legislation is necessary to allow FERC to consider the merits of the 
project during the relicensing process. That is the purpose of H.R. 
869.
Wild and Scenic River Implications
    In 1992, Congress amended the Wild and Scenic River Act (P.L. 102-
432) to add the lower Merced River to the upper reaches of the Merced 
as part of the Wild and Scenic Rivers System. In all, more than 120 
miles of the Merced River from Yosemite National Park to the upper end 
of Lake McClure is protected as Wild and Scenic.
    The 1992 Act set the lower boundary of the Wild and Scenic 
designation at the normal maximum operating level of Lake McClure: 867 
feet above sea level. This means the Wild and Scenic portion of the 
river extended into the existing FERC boundary for MID's hydro-electric 
facilities (including Lake McClure). MID supported the 1992 legislation 
after it was changed to ensure that the Wild and Scenic designation 
would not affect the continued operation and maintenance (including 
flood control operations) of the New Exchequer Project. The provision 
for flood control operations is important because during certain flood-
water ``surcharge'' conditions, the upper end of Lake McClure is 
actually higher than the lower end at the dam, causing water levels to 
rise above the 867-foot Wild and Scenic boundary. This happens on a 
regular basis during wet years. It's happening now. This month the 
water level at the upper end of Lake McClure and within the Wild and 
Scenic portion of the river contained within the FERC boundary, was at 
about elevation 884 mean sea level (MSL), while the water surface 
elevation at New Exchequer Dam was approximately 824 feet MSL.
    The 1992 Act says that FERC may only relicense MID's hydroelectric 
project to a maximum normal operating level of 867 feet above sea 
level. FERC has determined that this provision prevents it from 
considering MID's proposed Spillway Modification Project as part of its 
relicensing effort. MID's engineers estimate that during wet years, the 
project would cause the reservoir to rise up to 10 feet and extend 
approximately 1,800 feet laterally into the Wild and Scenic corridor 
(but still within the FERC boundary). These inundations would occur 
about once every three years, typically in mid-summer and last from two 
to eight weeks. As noted above, this inundation occurs regularly. MID 
is simply proposing to store some of this excess flow for a short 
period of time so that it can be put to beneficial use.
    H.R. 869 is intended to allow FERC to consider the Spillway project 
during the relicensing process and the bill sets limits on the timing 
and duration of the temporary inundations of the Wild and Scenic area 
that would be caused by the project.
    I want to be absolutely clear on this: MID supports the Merced 
River's Wild and Scenic designation above Lake McClure's FERC boundary. 
This designation has helped to ensure that MID's water source is one of 
the most pristine in California by prohibiting new discharges, mining 
and other activities that have historically degraded water quality.
    H.R. 869 does not mandate, authorize or in any way pre-judge the 
merits of the proposed spillway modification project. It simply allows 
the project to undergo a rigorous examination by FERC and other Federal 
and State agencies in a public process that will identify and address 
all potential impacts in accordance with the National Environmental 
Policy Act (NEPA) and the California Environmental Quality Act (CEQA), 
the Federal Endangered Species Act (ESA) and the California Endangered 
Species Act (CESA).
    MID has discussed the proposed spillway project with conservation 
organizations and we are aware of their concerns about H.R. 869 setting 
a precedent for altering Wild and Scenic boundaries. We take those 
concerns seriously, and MID is open to discussing ways to address them 
in a manner that would allow the spillway project to get a fair hearing 
before FERC. But MID believes that the merits and the benefits of the 
project should be weighed against philosophical objections to making a 
tiny adjustment to a boundary line. A project that can provide tens of 
thousands of acre-feet of new water to the San Joaquin Valley at no 
federal cost certainly bears consideration by FERC even if it would 
cause the reservoir to occasionally stray 1,800 feet into the 122-mile-
long Wild and Scenic River corridor.
Economic Benefits
    The significance of any new water supply for the Central Valley 
cannot be overstated.
    In California's Central Valley, we often refer to ourselves as 
``The Other California.'' We don't produce movies, nor do we produce 
microchips: we produce the vast majority of the nation's fruits, nuts 
and vegetables. In fact, we produce more than $30 billion per year in 
agriculture. In most simple terms, Merced County's economy depends on 
agriculture and water. Agriculture remains the largest employer in our 
community and agriculture depends on water. According to a 2009 U.C. 
Davis study, each 100,000 acre-feet of water supports 1,200 local jobs 
and $40 million in agriculture revenues.
    Merced County continues to be ground zero in this economic 
recession. Every urbanized area in Merced County is a Disadvantaged 
Community, including incorporated cities and unincorporated 
communities, based on the criteria defined in California Water Code 
Sec. 79505.5(a). We have experienced the housing bubble at its worst 
and remain within the top 10 in the nation for foreclosed properties. 
Our unemployment rate continues to hover around 20 percent, placing 
Merced also within the top 10 for the highest rate of unemployment.
    H.R. 869 is simply intended to allow the Federal Energy Regulatory 
Commission to consider a proposed project that will create jobs and 
further support Merced County's economic base. We ask that the 
Subcommittee and the House Natural Resources Committee support H.R. 
869.
    Thank you for your time and consideration.
                                 ______
                                 
    Mr. Bishop. Thank you. Mr. Stork.

 STATEMENT OF RONALD STORK, SENIOR POLICY ADVOCATE, FRIENDS OF 
                           THE RIVER

    Mr. Stork. My name is Ron Stork. I am the former Executive 
Director of the Merced Canyon Committee at the time that the 
Federal agencies under Ronald Reagan were making their 
recommendations to designate this river.
    I was also the principal staff person at Friends of the 
River who testified before the Congress and was involved in 
those Congressional discussions, and the discussions with the 
Merced Irrigation District in Mariposa County, that led to the 
support of the original designation by both the District and 
Mariposa County, Friends of the River, environmental groups, 
and Congress, a bipartisan Congress, back in 1992.
    H.R. 869 allows for a reservoir to inundate a National Wild 
and Scenic River. The National Wild and Scenic River System was 
established to protect and preserve free-flowing rivers for the 
benefit of present and future generations. It is not the 
National Reservoir and Protection Act, nor is it the National 
Protect A River for 20 Years and Then Turn It Into a Reservoir 
Act. Needless to say, this would be the first time, if enacted, 
that the U.S. Congress has broken the contract that it has made 
with the American people about the purpose of the National Wild 
and Scenic River System.
    We urge the Committee to reject this bill. This legislation 
was worked out over quite a number of years ago by Senators 
Seymour and Senator Wilson, and Congressman Coehlo, and Coehlo, 
and Condit, Mariposa County, and the Merced Irrigation 
District.
    The Merced Irrigation District did not object to this bill 
for the same reasons that you have just heard at the time, and 
in the end, we all reached an accommodation, which was ratified 
by the Congress, in which there was glowing praise by the 
Republican leadership of this Subcommittee in the Congressional 
record for having done so.
    That agreement did not include reservations that in 20 
years that we would come back and undo the agreement that we 
had reached. There are wider consequences to this issue. 
Clearly business certainly is something of concern to this 
Congress. Regulatory certainty.
    The Wild and Scenic System is a stable contract, and there 
are businesses, recreation businesses, that have invested and 
continue to do business in this National Wild and Scenic River, 
on the basis of the fact that it is indeed a protected river.
    The notion that we would unprotect it is certainly not 
something that builds confidence in the business community 
about regulatory certainty associated with this statute. I 
think that it is important to understand that the water yield 
associated with this project--I don't know, 10,000 acre-feet 
per year--is something.
    The ground water overdraft in the San Joaquin Valley, as 
Mr. Denham certainly knows, is about two million acre-feet per 
year. There are quite a few hundreds of thousands of acres that 
could be watered in the San Joaquin Valley if water was 
available.
    This amount of water is decimal dust with regard to those 
perceived needs. So needless to say Congress was aware of that 
at the time in 1992, and made the judgment that protecting 
these lands was the appropriate balance to strike, and it was a 
stable commitment with the American people, that we would 
protect and preserve this river, and this section of river, for 
the benefit of present and future generations. So that 
concludes my remarks. Thank you.
    [The prepared statement of Mr. Stork follows:]

          Statement of Ronald Stork, Senior Policy Advocate, 
                   Friends of the River, on H.R. 869

    Mr. Chairman, members of the Subcommittee,
    Thank you for the opportunity to testify today. I am the senior 
policy advocate for Friends of the River. Founded in 1973, Friends of 
the River is California's statewide river conservation organization. In 
the past, I served as executive director of the Merced Canyon Committee 
and later as principal representative for Friends of the River in the 
Federal agency planning efforts that resulted in recommendations to 
protect the river. I was subsequently involved throughout Congress's 
deliberations that culminated in the 1987 and 1992 Merced River 
designations from the headwaters in Yosemite National Park to the 
present Lake McClure Reservoir. The Merced River canyon is the year-
round gateway to Yosemite National Park, and it is one of America's 
best known and most beloved rivers. We oppose H.R. 869 and urge you to 
continue to preserve and protect our river heritage for the benefit of 
current and future generations.
Effect of H.R. 869
    H.R. 869 proposes to amend the National Wild & Scenic Rivers Act to 
redefine reservoir storage operations of a potentially expanded Lake 
McClure Reservoir as flood-control operations, and allows the 
modification of the dam complex to allow the reservoir to invade the 
Wild and Scenic River upstream for these defined purposes. H.R. 869 is 
in fundamental conflict with the major purpose of the National Wild & 
Scenic Rivers Act: to ensure that no project works impound waters that 
convert a free-flowing river into a reservoir. For the sake of the 
integrity of our National Wild and Scenic River System, Congress should 
reject H.R. 869.
Background of Merced National Wild & Scenic River
    The current reservoir/wild and scenic river boundary and associated 
boundary policy definition was proposed by the U.S. Forest Service, 
Bureau of Land Management, and National Park Service under President 
Ronald Reagan in 1986. California Republican Senator Pete Wilson 
introduced the first bill to designate the river/wild & scenic river 
boundary at its present location in 1987. The framework of the final 
bill with its accommodations for Mariposa County and for the Merced 
Irrigation District was fashioned by Rep. Tony Coehlo, who on his 
retirement concluded that his work to save the Merced River was his 
most personally meaningful achievement in his time in Congress.
    An agreement on the final language of the bill designating this 
reach of the Merced National Wild & Scenic River was reached among the 
Senate Energy Committee, California Republican Senator John Seymour, 
Senator Alan Cranston, the House sponsor of the bill, Gary Condit, the 
Merced Irrigation District (MID), Friends of the River, and the 
Wilderness Society in 1991. The resulting bill was cosponsored by 
Senator Seymour and signed by President George H.W. Bush in 1992.
    H.R. 869 seeks to reverse the Reagan-era agency recommendations and 
the consensus agreements fashioned by the authors of the legislation 
that originally created the Merced National Wild & Scenic River.
Purpose of the National Wild & Scenic River System
    The National Wild and Scenic River System was established to 
protect and preserve a portion of our nation's dwindling stock of free-
flowing rivers that has been substantially reduced from extensive 
development of dams, reservoirs, levees, and diversions. Congress did 
not create the national wild and scenic river system as a national 
reserve for future reservoirs but as a system to protect living free-
flowing rivers for posterity. Since the creation of the system, the 
United States Congress has never removed the protections from dams and 
impoundments so central to the Act from a previously designated 
national wild and scenic river. It should not do so now.
    H.R. 869 proposes to allow expansion of a reservoir to inundate a 
free-flowing river of national significance, an action that would be in 
fundamental conflict with the purposes of the national system that 
``selected rivers of the Nation which, with their immediate 
environments, possess outstandingly remarkable scenic, recreational, 
geologic, fish and wildlife, historic, cultural or other similar 
values, shall be preserved in free-flowing condition, and that they and 
their immediate environments shall be protected for the benefit and 
enjoyment of present and future generations.'' (Sec. 1b Wild & Scenic 
Rivers Act)
    When it created the National Wild and Scenic River System, Congress 
made an explicit pact with the American people: ``The Congress declares 
that the established national policy of dam and other construction at 
appropriate sections of the rivers of the United States needs to be 
complemented by a policy that would preserve other selected rivers or 
sections thereof in their free-flowing condition to protect the water 
quality of such rivers and to fulfill other vital national conservation 
purposes.'' (Sec. 1b Wild & Scenic Rivers Act). At full pool, twenty-
four miles of the Merced River downstream of the designated wild & 
scenic river lie under MID reservoirs licensed by the Federal Energy 
Regulatory Commission. Upstream, the Merced River is protected by the 
National Wild & Scenic Rivers Act from dams and reservoirs all the way 
into Yosemite Valley and beyond.
    The certainty of protection afforded by a National Wild and Scenic 
River also creates regulatory certainty in the business environment. 
The reliance on the Merced National Wild & Scenic River has been 
important to tourism businesses around Yosemite National Park. For 
example, one of the whitewater rafting companies who serve customers on 
the Merced recently wrote the following to Mariposa County:
        Zephyr Whitewater is only one of several rafting companies that 
        utilize this section of the river for our late season trips. 
        Additionally, the proposed Merced River Canyon bike trail would 
        be another feather in the cap for Mariposa County's ``things to 
        do''. It would be a much more popular trail if it followed a 
        free-flowing Merced River instead of an expanded reservoir.
        When we operate our late season trips on this lower section, we 
        currently hire local people to ``tow'' our rafts to Bagby 
        through the existing reservoir. An expanded reservoir would 
        probably stop our operations, as this would make an already 
        ``long'' tow out probably ``too long''. Additionally, the 
        ``dead zone'' which always exists with rising and lowering 
        upper reaches of reservoirs would render this section of the 
        river unattractive and would setback Mariposa County's growing 
        reputation as an outdoor destination.
Legislative Considerations
(It's deja vu all over again, or there is nothing new under the sun)
    The Federal agencies did not recommend and the Congress did not 
establish the Merced National Wild and Scenic River without careful 
deliberation. In addition to recognizing the obvious scenic, 
recreational, and natural resources of the Merced River, the 
implications of the designation on MID were considered.
Water
    Consistent with the language of Sec. 1b of Wild & Scenic Rivers Act 
above, it was noted that for year after year after the construction of 
its 1960s-era giant dams on the Merced River, the Merced Irrigation 
District reported in its annual reports that ``[t]he District now has 
virtual control of the waters of the Merced River as long as such 
waters were put to beneficial use, and is assured of an adequate 
irrigation supply for the foreseeable future.''
    It has been said by some today that the significance of any new 
water to the San Joaquin Valley cannot be overstated. However, the 
meaningfulness of that general statement needs to be guided by the 
numbers. Even then, this was the subject of Congressional testimony in 
1991. Using standard storage-to-yield ratios for new storage in already 
diverted watersheds, this project might be expected to increase yield 
to someone and for some purpose by an average of perhaps 10,000 acre-
feet per year--some years more, most years none or less. The 
consumptive water rights and average annual consumptive diversions 
associated with MID's project works amount to over half a million acre-
feet per year. Project deliveries of the federal Central Valley Project 
are around six to ten million acre-feet per year. MID's project idea, 
even if constructed, is not going to provide any meaningful amount of 
new water to the San Joaquin Valley or even to MID, which does not hold 
the most senior water rights on the portion of the San Joaquin River 
system where water still finds its way to the Delta. The marginal yield 
of such a project was noted in testimony before the Congress in 1991. 
That has not changed. Today, the adverse precedent contained in H.R. 
869 that our National Wild and Scenic River System can be used as 
reservoir sites is far more meaningful.
Floods
    It was noted in testimony then (as now) that New Exchequer Dam has 
never filled and spilled.
Dam Safety
    At the time that the Federal agencies were considering finding wild 
and scenic river designations for the Merced River, I asked Tim 
McCullough, the then general manager of MID, whether the District had 
any plans to enlarge the Lake McClure Reservoir rather than build a new 
dam upstream. He leaned back in his chair and laughed, saying he had no 
interest in putting more water against a dam that had such a long 
history of through-dam seepage.
    The project that H.R. 869 is designed to facilitate, as presently 
conceived by MID, is to construct operable gates on top of the 
emergency spillway. Emergency spillways are generally conceived of as 
the last line of defense against overtopping and potential failure of a 
dam. Dam-safety officials generally prefer that the last line of 
defense operate regardless of mechanical failures, human error, 
control-system failures, flood-debris disruption, other mishap, or even 
terrorists in control of the operating features of a dam. Again, as 
noted in testimony before Congress in 1991, it could be very expensive 
to raise and perhaps stabilize the whole dam/spillway complex so that 
the existing margins of safety for through-seepage and design to 
prevent the reservoir from flowing over structures not designed to be 
overtopped--such as the main dam--are maintained with a higher Lake 
McClure Reservoir. The national wild and scenic river legislation for 
the Merced River enacted by the Congress and supported by MID at the 
time wisely took the reservoir-expansion option off the table as part 
of establishing a protected free-flowing river.
Wild & Scenic River eligibility
    For much of the time the designation was being considered by the 
Reagan-era Federal agencies and the Congress, MID did argue that the 
wild and scenic river designation boundary should be moved somewhere 
upstream, arguing that a river in flood pouring into a surcharged 
reservoir--by definition spilling over the top of its ungated 
spillway--would be inconsistent with the proposed wild and scenic river 
designation. The Federal wild and scenic river managing agencies and 
the Congress had previously (and have subsequently) rejected that view 
in other similar designations. They again rejected that view in 1986 
and 1992 since MID cannot physically or meaningfully impound water that 
was flowing freely over the top of its long ungated spillway and only 
Providence (not the Congress) could predict how high such a 
hypothetical flood would be. Contingent on the acceptance of language 
to make this operational position clear in the statute, the MID board 
of directors voted 4-0 to support the legislation that ultimately was 
enacted into law. All was well. The river and the river-based 
recreation there has prospered.
Reflections
    We urge members of the Subcommittee to visit the Merced River 
canyon on your next trip to Yosemite National Park. Just take Highway 
140 from the City of Merced and drive up to the river. The canyon is 
magnificent. The spring wildflowers are magnificent. The river is a 
wonder. Get out of your car. Hike or boat down the canyon. Perhaps some 
day your young and adventurous college-age sons or daughters will 
mountain bike to Yosemite Valley up the proposed Merced to Yosemite 
multi-use trail. This is why we have national wild and scenic rivers. 
Experience it.
Conclusion
    H.R. 869 breaks the agreements and understandings that created the 
Merced River wild and scenic river. The project that it seeks to 
facilitate will not provide any meaningful project benefits and offers 
dangers to downstream communities. It disturbs the economic fabric of 
businesses reliant on the certainties that wild and scenic river 
designations create. Perhaps most important at all, it tells the 
American people that Congress is unable or unwilling to abide by the 
commitments it has made to set aside certain selected rivers and 
protect them for future generations.
    The pact with the American people for the Merced River was made a 
generation ago with leadership from Republican and Democratic 
legislators and by Republican presidents. The actions that this 
Congress takes to defend our country's premier river-protection system 
are vital to the future National Wild and Scenic River System and have 
important consequences to our National Park System as well as the 
Wilderness Preservation System.
    Please reject H.R. 869.
    Thank you for your consideration today.
                                 ______
                                 
    Mr. Bishop. Thank you all, the three witnesses, for your 
testimony. Questions. Mr. Denham, I will yield my five minutes 
to you.
    Mr. Denham. Thank you, Mr. Chair. First of all, Mr. Stork, 
you just in your testimony discussed about the two million 
acre-feet of overdraft that we would see in the Central Valley, 
and I don't dispute that.
    You know, we see a lot of areas throughout the Valley that 
water tables are very, very low, and farmers certainly out of 
work. If you visited Mendota and seen the 44 percent 
unemployment and stood on those food lines, you certainly know 
how bad of a situation that our Central Valley is in now.
    Now, I don't believe that--assuming this bill passes and 
assuming FERC is able to see it in their wisdom to raise the 
Exchequer Dam by 10 feet--I certainly don't think that this is 
going to solve all of our problems in the Central Valley.
    But don't you think that it helps? Don't you think that the 
70,000 new acre-feet of water at least helps the situation?
    Mr. Stork. It may not help the District much. The District 
has a fairly secure and stable water supply, and manages to 
serve its agricultural areas. It does sell water from time to 
time to Mr. Costa's Westlands Water District, which has----
    Mr. Denham. Which is in the Central Valley, correct?
    Mr. Stork. It is in the Central Valley, and it also has 
drainage and impaired lands that are worsened by having more 
water added to them. But it is a small amount of water.
    Mr. Denham. So, 20 percent unemployment in the Valley, and 
areas in the Valley that have 44 percent unemployment, 70,000 
acre-feet of new water doesn't help the unemployment issue?
    Mr. Stork. We are not sponsoring 70,000 acre-feet of water. 
You are mixing up storage with yield.
    Mr. Denham. OK. Any new water storage, you don't think 
helps the jobs in the Central Valley?
    Mr. Stork. Any new water storage? There are also the jobs 
in Mariposa County associated with the recreation industry that 
depend on the security of the National Wild and Scenic System.
    So I think that we do have a balance here. This is a very 
small amount of water. It does not solve any water problems 
with----
    Mr. Denham. I agree that it does not solve the problem, but 
it certainly helps with jobs and it certainly helps with water 
storage, and the availability of water. Do you think that it 
helps with jobs in Mariposa County?
    Mr. Stork. No, I think it hurts jobs in Mariposa County.
    Mr. Denham. So the project itself will not create any new 
jobs, the reason that IVW supports the bill? Do you think that 
they are wrong, and that this does not create any jobs just on 
the project itself?
    Mr. Stork. Well, of course, we are speaking about a 
hypothetical project that has not even been approved by anyone.
    Mr. Denham. Well, you are testifying on a hypothetical 
project, and so it must have some validity.
    Mr. Stork. I don't think that a project that raises----
    Mr. Denham. I would prefer that you just answer the 
question.
    Mr. Stork. No.
    Mr. Denham. So do you think that IVW is wrong and that this 
will create no new jobs. How about on the recreation side? I 
have a number of letters of support here from boating companies 
that think that this is going to create recreation jobs, and 
that there will be greater recreation in the area. Do you 
disagree with that as well?
    Mr. Stork. Yes. The boating companies agree that protection 
of the National Wild and Scenic River System will help create 
jobs.
    Mr. Denham. I am just asking about jobs right now. I would 
to at least like to nail that piece down, and see if we have 
any agreement. If there is new water storage, which we have 
documentation that new water storage will help with the farming 
industry, and new recreation, which boating companies agree 
will create jobs within the recreation industry, and new 
construction, which IVW supports because they believe that it 
is going to create new jobs, but somehow you don't find that 
there is going to be any job impact in an area that has over 20 
percent unemployment, double the Nation's average, and you 
don't somehow see that there are going to be any new jobs 
created?
    Mr. Stork. I think you have a factual problem with your 
statement. The boating companies support the National Wild and 
Scenic System.
    Mr. Denham. I am not stating a number right now, because I 
am sure that we would dispute the number back and forth, but 
any jobs?
    Mr. Stork. I don't know the answer, because we are talking 
about net jobs. Are you talking about net jobs or jobs in one 
sector taking jobs away from another sector, because that is 
the issue here.
    Mr. Denham. Thank you. Mr. Kelly, in simplest terms MID is 
proposing to raise a spillway by 10 feet. How much water 
storage do you think this will create?
    Mr. Kelly. This will create up to 70,000 acre-feet of 
storage in a wet year, such as this year. Right now all of the 
reservoirs in the Central Valley are spilling flood control. It 
would be great to be able to capture some of that for years, 
like in 2008 and the drought that we just came out of.
    Mr. Denham. And 70,000 new acre-feet, I have seen very few 
people other than today, and I have seen nobody else that is 
disputing that this 70,000 acre-feet--well, 70,000 new acre-
feet will create how many agricultural jobs in the Central 
Valley?
    Mr. Kelly. Oh, gosh. Well, the U.C. Davis study that I 
quoted, stated that every 100,000 acre-feet of water supports 
1200 local jobs. So, roughly 70 percent of that.
    Mr. Denham. And on the facility itself expanding the dam, 
assuming that we get to that point, how many jobs would that 
create?
    Mr. Kelly. To raise the spillways that we are proposing, 
that would be approximately an 18 month long project, and so a 
full construction crew out there for 18 months, and as you know 
construction crews in the Central Valley were pretty much shut 
down with the housing crisis that we have experienced, and so I 
am sure that they would look forward to that, which is why the 
IVW is supporting this project.
    Mr. Denham. Thank you. And the question----
    Mr. Bishop. We will come back to another round for you. Mr. 
Gosar, do you have questions on this bill?
    Dr. Gosar. I would yield my time to Mr. Denham.
    Mr. Denham. Thank you, Mr. Gosar, and thank you, Mr. Chair. 
On the flood control issue, there have been some that said that 
this somehow won't control floods. Could you expand on that on 
whether it will or it won't?
    Mr. Kelly. Well, I would like to be very clear. This is not 
a flood control project. This is a water storage project. When 
we talk about it, we talk about the incidental benefits, and 
there will be incidental flood control benefits, but that is 
not the purpose of why we are proposing this project.
    Mr. Denham. Can you explain what is happening on the Merced 
River right now today?
    Mr. Kelly. Well, on the Merced River right now today, we 
have large amounts of snow melt coming down. The area that we 
are talking about where the Wild and Scenic boundary overlap 
the FERC boundary--and I could not say today because we don't 
have monitors, but a couple of weeks ago, we went up there and 
I don't think much has changed.
    It was inundated above the 877 elevation that we are 
talking about. It was at approximately 880-something, and so 
that area already becomes inundated naturally. And we are 
anticipating--and this is really a nervous year for reservoir 
operators because of the amount of snow melt up there.
    It has been fairly cool, and so it has not been coming down 
a lot. There is a lot of water that is going to be coming down, 
and pretty much be a waste to the ocean.
    Mr. Denham. And I would agree, and I want to reach out of 
the Fresno Bee, this morning's paper, that the rising Merced 
River today may force some Yosemite Valley campers to higher 
ground, the National Park Service says. Park officials say that 
they are telling more than 1600 campers near the river about 
the risk. We are currently having water flow through that area.
    We are certainly in a flood type situation as we were back 
in 2006, and so it is my belief that this will certainly help 
us out with both of those situations, especially when in 2006 
that we had to have FEMA come into the Merced area.
    Mr. Kelly. Yes, sir, and additional spillway capacity 
height would definitely allow the Army Corps of Engineers and 
all the other reservoir operators in the Central Valley to have 
a little more flexibility in urgent situations like this.
    Mr. Denham. Thank you. And, Mr. Stork, in your testimony, 
you said that this project would inundate a free-flowing river. 
We are actually talking about 1800 feet. I know that the Merced 
River is much longer than 1800 feet.
    And on your website, you say that this bill causes a 
historic new low in the assault on the Nation's environmental 
laws. Eighteen hundred feet is an assault on the Nation's 
environmental laws, in an area that is already flooded today, 
and has flooded several other times, and in an area that we had 
to have FEMA come in and help out the County of Merced during 
flood years?
    Do you really believe that 1800 feet is something that is 
going to be an assault on the Nation's environmental laws?
    Mr. Stork. Mr. Denham, the land that is being flooded today 
is the riverbed, and it is being flooded by a free-flowing 
river as it was intended by the U.S. Congress.
    So, no, I am not terribly concerned that water is getting a 
riverbed wet. What is of concern, and we don't know the exact 
numbers of the inundation area because it has not been formally 
surveyed yet, but let's not worry about that. The issue is----
    Mr. Denham. Well, wait a minute. I am worried about it. You 
said first that you are not concerned about the jobs, which is 
a huge issue in the Central Valley, and now you are not 
concerned about the flooding, which we had to have FEMA come in 
during 2006, and flooding right now.
    And I just read you the Fresno Bee about 1600 campers that 
are going to be forced to move to higher ground. We obviously 
have an issue here.
    Mr. Stork. Sixteen hundred campers in Yosemite Valley. Mr. 
Denham, The New Exchequer Dam and the McClure Reservoir are way 
downstream of the Yosemite Valley. Your project, the Merced 
Irrigation Project, is not intended to reduce overbank flows in 
the Merced River and Yosemite Valley.
    Mr. Denham. So I will go back to the original question. 
Eighteen hundred feet is all that we are talking about. You do 
agree that 1800 feet is all that we are talking about here, 
right?
    Mr. Stork. I don't know the number, and as Mr. Kelly knows, 
we are in the relicensing stage right now, and we don't know 
the number specifically.
    Mr. Denham. Let me ask Mr. Kelly. Are we talking about 1800 
feet?
    Mr. Kelly. Yes, sir.
    Mr. Denham. And not the entire river?
    Mr. Kelly. No, sir.
    Mr. Stork. For the purpose of this hearing, I will concede 
1800 feet. The question is and which is in front of this 
Congress, is that for the first time in the history of the 
National Wild and Scenic River System, has the U.S. Congress 
decided to allow a reservoir to inundate a National Wild and 
Scenic River. This is the issue in front of us.
    Mr. Denham. But just so I understand your position. 
Regardless of the jobs, regardless of the flood control, your 
issue is that if we move 5 feet, or 100 feet, or 1800 feet, 
that moving it at all--if you move it a foot, then you are 
infringing on a Wild and Scenic, and that could actually open 
the door to other projects around the Nation?
    Mr. Stork. That is correct.
    Mr. Denham. Thank you.
    Mr. Bishop. Let me ask Mr. Kelly a question of questions if 
I might so that I understand this properly. First of all, what 
is the status of this spillway project right now?
    Mr. Kelly. The status is that we have performed some high 
level feasibility analyses. We have not performed any detailed 
design work due to the uncertainty of FERC being able to 
consider it.
    Mr. Bishop. So the current level by law is 867?
    Mr. Kelly. Yes, sir.
    Mr. Bishop. And this would change it to 877?
    Mr. Kelly. Correct.
    Mr. Bishop. So you are telling me that right now it is at 
almost 890?
    Mr. Kelly. Yes, sir.
    Mr. Bishop. So naturally this occurs every so often and you 
go well above the 877 level?
    Mr. Kelly. Yes, sir. It is based on the amount of snow melt 
in the mountains and sometimes it just does that.
    Mr. Bishop. And FERC says that any change would be messed 
up simply because of the 1992 Act, and therefore an amendment 
would be necessary?
    Mr. Kelly. Yes, sir. FERC cannot consider relicensing our 
project above the 867 level because of the specific language in 
the Act.
    Mr. Bishop. So, Mr. Stork, when you say the purpose of the 
Wild and Scenic River is to preserve this river for future 
generations, can I ask for what?
    Mr. Stork. As a free-flowing river.
    Mr. Bishop. Why? How does that help future generations?
    Mr. Stork. The National Wild and Scenic System's very 
purpose was to protect Wild and Scenic Rivers free-flowing 
rivers. That is the purpose. That was considered and still is 
considered to be the purpose of that system.
    Mr. Bishop. But if the free-flowing process already does 
not happen--I mean, you already flooded out--what difference 
does it make? What have you done to future generations?
    And besides that, two years ago, we already screwed up the 
Wild and Scenic River with the Tonto River project, but let's 
forget that for now. What good does it do if what you are doing 
is already creating a situation that does what already 
happened?
    Mr. Stork. I think you have a confusion in the testimony. 
The reservoir is well below the spillway at this time. The 
river upstream of the reservoir has water in it, and that water 
has an elevation. The reservoir, the flat water, is way 
downstream.
    Mr. Bishop. So you just don't want the reservoir, per se?
    Mr. Stork. Right. This is not the National Wild and Scenic 
River Reservoir System. It is a river system.
    Mr. Bishop. So even if the reservoir helps people, it is 
not worth it?
    Mr. Stork. Congress----
    Mr. Bishop. I am sorry, even if the reservoir helps people, 
it is not worth it?
    Mr. Stork. There are 24 miles of the Merced River 
underneath FERC licensed MID reservoirs at this time.
    Mr. Bishop. Even if it helps people, it is not worth it?
    Mr. Stork. It also helps people to have a National Wild and 
Scenic River System.
    Mr. Bishop. But even if having a reservoir helps people, it 
is not worth it?
    Mr. Stork. And there are 24 miles of the Merced River.
    Mr. Bishop. And this is a small portion, and even if it 
helps people, it is not worth it? I am sorry, but that is your 
testimony; even if it helps people, it is not worth it?
    Mr. Stork. The Wild and Scenic River System is.
    Mr. Bishop. Mr. Garamendi, you have joined us. Do you have 
questions on this particular bill?
    Mr. Garamendi. I do, and there is a great deal of confusion 
here about what is and what isn't. First of all, the Yosemite 
Valley floods periodically, and that is a different issue than 
this entire issue before us.
    The issue of the level of water as it enters the lake, it 
is higher, and as was stated here, and it will eventually level 
out as it inundates the lake. So we have two different things.
    You have the water coming in and it is filling, and as it 
fills, it is higher, and it is flooding beyond the normal 
stream bed as it enters the lake. There is no doubt about that.
    Now, what we really have here is a very, very important 
national issue of whether we modify a Wild and Scenic River. 
There is no doubt about it. But the real issue, the initial 
issue is the question of FERC's licensing, and whether FERC can 
consider in its licensing the question of raising the spillway 
and generating power, additional power, and in doing so, 
periodically raised the total reservoir level to 897.
    And in so doing, about 1800 feet, or 1770 lineal feet, of 
river will be flooded for a while, and perhaps eight weeks as I 
understand it. So the question is should FERC be allowed to 
proceed with its licensing and consider this modification in 
the reservoir.
    I assume that a NEPA and CEQA evaluation will have to be 
made, and while no Federal funds are involved, we are certainly 
involving a Federal issue here, and that is the Wild and Scenic 
River. I don't think that has been done; is that right, Mr. 
Kelly? That has not been done yet has it?
    Mr. Kelly. No, sir. This would have to go through the full 
NEPA process.
    Mr. Garamendi. There are a lot of questions out there and a 
lot of answers will be forthcoming. I know that the Bureau of 
Reclamation is--excuse me, the Bureau of Land Management is 
concerned about certain historic artifacts that are in this 
area, such as the old railroad, and perhaps some mining claims, 
and also trail access and the like, all of which is going to 
have to be taken into account when the FERC study is done.
    And it may very well be that FERC deems this to be an 
inappropriate and not allow the 10 foot rise in the level of 
the lake. That is quite possible. And if they were to allow it, 
they would probably, as is their custom, require a serious 
mitigation if the Wild and Scenic River law is modified.
    So there are a lot of questions out there, but what I think 
we really need to do here is to get answers to questions before 
we modify a Wild and Scenic River legislation, and I think that 
it is highly likely that this bill will pass in its present 
form, which I think is premature.
    And I would recommend that what the community may want to 
do is simply allow FERC to conduct the studies, and the NEPA 
process to go on, and let us figure out the length of time in 
which the river will be inundated, and the amount or the 
likelihood of it, and the effect that it would have on 
vegetation riparian habitat, and on historic artifacts, Indian, 
and more recent, and what mitigation might be required, and 
then come back here and see whether we really want to do it 
given knowledge.
    Right now, we don't have the knowledge to do that, and so 
Mr. Denham, I might suggest that to avoid a lot of conflict, 
and not all conflict, but a lot of conflict, that instead of 
waving the Wild and Scenic River, that you simply modify or 
amend your bill to allow FERC to do what their study, and then 
come back to the Congress and see if it is worth the concerns 
that are going to be raised about allowing it to go forward.
    You have about two years of study to get the NEPA and CEQA 
done, and that is at least two years; is that correct?
    Mr. Kelly. Yes, sir.
    Mr. Garamendi. Time enough to find out what the impacts 
are. We don't know those impacts now. We are guessing. I know 
that the Bureau of Land Management has some assessments, and 
those would be part of the FERC study, as would any mitigation 
that might be allowed.
    My 15 minutes or 5 minutes is up, but I think that might be 
a way of figuring out what all of this will mean to the area, 
and then we can with that knowledge make a decision of whether 
we want to change the Wild and Scenic River legislation.
    Mr. Bishop. Mr. Denham, do you have any further questions?
    Mr. Denham. Yes, Mr. Chairman. Actually, I would like to 
give Mr. Kelly an opportunity to respond to Mr. Garamendi's 
concerns as far as whether we hold things up, or whether this 
actually just gives FERC the opportunity to do those very 
things to answer his concerns.
    Mr. Kelly. Thank you. If H.R. 869 is made law, then FERC 
would be able to consider the full impact of the project, and 
the merits of the project, versus the impacts and the required 
mitigation for it. That is pretty much what we are asking for.
    Mr. Garamendi. If I might.
    Mr. Bishop. Will the gentleman yield?
    Mr. Denham. I will yield.
    Mr. Garamendi. Thank you, Mr. Denham. My point is slightly 
different, and let me switch to a different microphone so that 
we can communicate visually as well.
    Mr. Kelly. Thank you.
    Mr. Garamendi. My point is different. The bill as written 
provides a permanent opportunity to flood this stretch of the 
Wild and Scenic River. What I am suggesting is that we modify 
the language here to allow you to go ahead with the FERC study, 
and then with that information in hand, and that is the NEPA 
and CEQA, as well as FERC requirements, to come back and we can 
then make a decision based upon knowledge and information 
gained from those studies, whether we as a Nation want to 
modify for the first time ever a Wild and Scenic River.
    I understand the merits. It is the process here that we are 
jumping ahead of knowledge and information, and so I would just 
say let's get the knowledge, and let's get the information, and 
then come back to Congress and say it is really in the public 
interest.
    The rivers are only going to be flooded every now and then, 
every 5 years, or 3 years, or whatever, for a short period of 
time, and vegetation is not going to be seriously modified, and 
by the way, FERC is going to require you to put a boat out 
there to haul the rafters that extra half-mile so they don't 
have to paddle so hard.
    I mean, those are all things that are going to be in the 
FERC study. You and I both know that. We have been through this 
many times, and then we can say, yeah, it is not a big deal, 
and we can make this simple modification, or say that it is one 
big deal, and we are not about to let this go forward.
    But you are going to have to do the studies anyway, and so 
you are going to be through that process, and then come back to 
us with that knowledge and information, and give the 
opportunity for FERC to study this issue. That is my 
suggestion.
    Mr. Denham. I would like to reclaim my time, and Mr. Kelly, 
if you would like to answer. I know that this bill would 
actually give FERC the opportunity to study this. So if you 
could expand on that, please.
    Mr. Kelly. Yes, sir. Besides the environmental NEPA-CEQA 
process, it would have to actually go through design review, 
and I would be happy to take such suggestions to my board of 
directors, but just so you understand, which I am sure that you 
do, there is a huge cost in actually preparing a design and 
going through that. And to expect a local agency to expend that 
cost without the certainty that it could move forward would be 
worrisome.
    Mr. Denham. Thank you, Mr. Kelly. I agree that any water 
project that we talk about in California, there is always the 
tactic to slow things down, and let's hold them up further, and 
let's study them one more time.
    I can't afford in my area to watch flooding continue to go 
on, or ask FEMA to come back and help us one more time, nor can 
I work those food lines any longer, and just tell people, 
sorry, we are going to study this for a few more years. You 
guys are going to have to wait until you find a job.
    We have some real problems to solve in the Central Valley, 
and this is one small piece of that puzzle, and I would like to 
thank you for bringing this bill to us. I yield back.
    Mr. Bishop. Let me ask one question before I ask Mr. 
McClintock if he has questions of Mr. Kelly as well. I am 
assuming that you have already approached FERC as to this 
situation and potential study. Has FERC told you that they are 
willing to sans this legislation to do a study on what would 
basically be an illegal act?
    Mr. Kelly. FERC has stated that they could not consider the 
project because of the legislation. I mean, because of the 1991 
and 1992 legislation.
    Mr. Bishop. So would they be willing to do a study, 
especially if we put a specific time limit on them for 
something that they don't have the power to actually conclude? 
Has that been a hang-up in your conversations with FERC?
    Mr. Kelly. It has come up, but it has not been resolved, 
but they have stated explicitly that they cannot issue a new 
license with such a project unless the law is modified.
    Mr. Bishop. All right. Mr. McClintock, do you have any 
questions on this particular bill?
    Mr. McClintock. No, Mr. Chairman.
    Mr. Bishop. All right. Then let me ask one last question, 
unless someone else has a question any more? Mr. Denham.
    [Pause.]
    Mr. Bishop. All right. Mr. Stork, one last question for my 
own edification. Has your group ever taken or asked for access 
to EGA funds?
    Mr. Stork. I don't even know what that is.
    Mr. Bishop. OK. I have no other questions, and unless there 
is another Member that has a question, we thank the witnesses 
once again for being here, and for your testimony, and I 
appreciate your patience with us.
    I want to thank all the witnesses, and both of those 
witnesses who are still here, as well as others. We will be 
contacting you, and we ask you for your written response to any 
questions that are submitted in writing by Members of the 
Subcommittee as time goes on there.
    And if there is no further business, without any objection, 
this Subcommittee will stand adjourned.
    [Whereupon, at 1:18 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

 Statement of The Honorable Jeff Denham, a Representative in Congress 
                      from the State of California

    First, I would like to thank Chairman Bishop for bringing my bill, 
H.R. 869, before his Subcommittee for this Legislative Hearing. As a 
Representative from the West, the Chairman is very much aware of the 
problems that come when dealing with an uncompromising environmental 
agenda.
    My legislation before the committee today is a simple, common-sense 
bill that will provide for much needed water storage during wet years 
in the Central Valley of California.
    And, this bill has bipartisan support in Congress, from California 
water organizations throughout the state, cities, counties, labor, and 
recreationalists.
    This past winter was considered a wet water year for California. 
Currently, dams are in flood control operations and releasing thousands 
of acre-feet of water due to the lack of sufficient storage.
    There is a common saying to ``save for a rainy day.'' When talking 
about water and agriculture, the saying needs to be tweaked a little to 
read as ``save on a rainy day,'' meaning that we need to be able to 
save and store the excess water in wet years for when the inevitable 
drought occurs.
    The Central Valley of California is home to the world's most 
productive farm land. The economies of most communities in the Valley 
are buoyed by the agricultural production that occurs throughout the 
Valley.
    I would like to submit for the record a chart that shows a direct 
correlation to jobs and the amount of water that the Central Valley 
receives. It clearly shows that a lack of water means that there is a 
lack of employment opportunities.
    My district continually suffers from unacceptably high 
unemployment. Currently unemployment is hovering around 18 percent, 
which is about double of the national average.
    We are dependent on water for jobs, communities to be sustainable, 
and livelihoods of farming operations.
    H.R. 869 is as simple a piece of legislation that can be drafted to 
create desperately needed water storage.
    Simply stated, the bill will allow for the Merced Irrigation 
District to raise the level of Lake McClure by 10 feet for 60 days 
during a wet water year.
    With this legislation, the Merced Irrigation District will apply 
for relicensing with FERC with the proposed spillway modification 
included in their application. Their application will still be subject 
to full FERC review process once the application is filed.
    This legislation will provide up to 70,000 acre-feet of additional 
water, which can serve 1,700 homes and generate roughly 10,000 
megawatts of clean, renewable electricity on an annual basis.
    There is no simpler or more logical a proposal to create jobs and 
much needed water storage where both are so greatly needed.
    Let me also inform this committee that this legislation will not 
cost any state or federal funds.
    Again, let me thank Chairman Bishop for bringing H.R. 869 before 
this committee, and let me thank Mr. Bryan Kelly for flying out from 
the Merced Irrigation District to help fully convey what this bill does 
and how much it is needed.
                                 ______
                                 
    [The prepared statement of Mr. Larsen follows:]

 Statement of The Honorable Rick Larsen, a Representative in Congress 
                  from the State of Washington (WA-02)

    Chairman Bishop and Ranking Member Grijalva, I would like to thank 
you for including H.R. 1740 as part of today's hearing. This 
legislation, and its companion bill, S. 888, introduced by Senator 
Patty Murray, would designate portions of Illabot Creek in Skagit 
County, Washington, as a component of the Wild and Scenic Rivers Act.
    Illabot Creek travels from the Glacier Park Wildness Area to the 
upper Skagit River, falling 7,000 feet during its journey. The water of 
Illabot Creek provides the optimal conditions for wild Chinook salmon, 
steelhead and bull trout, species listed as threatened.
    My legislation will designate 14.3 miles of Illabot Creek as Wild 
and Scenic, protecting the strong character of the water for species 
promulgation while ensuring that hunting and fishing and other 
recreational activities continue.
    I was very pleased when this same legislation was unanimously 
agreed to in the full Natural Resources Committee last year, and when 
it was passed by voice vote in the full House. H.R. 1740 reflects the 
changes adopted by the committee to more specifically designate the 
area included within the bill.
    I would like to thank Lisa Bellefond of The Nature Conservancy for 
testifying on behalf of the legislation. The Nature Conservancy, along 
with local elected officials, environmentalists, fisherman, 
agriculturists and others came together in this effort and we are 
hopeful to see it move through the process and reach completion.
    Thank you again for holding this hearing on H.R. 1740, and for the 
opportunity to provide this testimony.

                                 <all>

</pre></body></html>
